<html>
<title> - THE PRESIDENT'S BUDGET FOR FOREIGN AFFAIRS AND BUSINESS MEETING TO VOTE OUT THE NOMINATION OF ROBERT B. ZOELLICK TO BE DEPUTY SECRETARY OF STATE</title>
<body><pre>[Senate Hearing 109-98]
[From the U.S. Government Printing Office]


                                                         S. Hrg. 109-98
 
THE PRESIDENT'S BUDGET FOR FOREIGN AFFAIRS AND BUSINESS MEETING TO VOTE 
  OUT THE NOMINATION OF ROBERT B. ZOELLICK TO BE DEPUTY SECRETARY OF 
                                 STATE

=======================================================================

                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                      ONE HUNDRED NINETH CONGRESS



                             FIRST SESSION



                               __________

                           FEBRUARY 16, 2005

                               __________



       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html




                 U.S. GOVERNMENT PRINTING OFFICE
22-998                  WASHINGTON : 2005
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001




                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman

CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
NORM COLEMAN, Minnesota              JOHN F. KERRY, Massachusetts
GEORGE V. VOINOVICH, Ohio            RUSSELL D. FEINGOLD, Wisconsin
LAMAR ALEXANDER, Tennessee           BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
LISA MURKOWSKI, Alaska               BARACK OBAMA, Illinois
MEL MARTINEZ, Florida
                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Biden, Hon. Joseph R., U.S. Senator from Delaware................     4
    Prepared statement...........................................     9
Lugar, Hon. Richard G., U.S. Senator from Indiana................     1
Rice, Hon. Condoleezza, Secretary of State, U.S. Department of 
  State..........................................................    11
    Prepared statement...........................................    14

Additional Statement and Questions and Answers Submitted for the Record

Alexander, Hon. Lamar, U.S. Senator from Tennessee, prepared 
  statement......................................................    49
Rice, Hon. Condoleezza:
    Responses to questions submitted by Senator Lugar............    50
    Responses to questions submitted by Senator Sarbanes.........    57
    Responses to questions submitted by Senator Biden............    58

                                 (iii)

  


THE PRESIDENT'S BUDGET FOR FOREIGN AFFAIRS AND BUSINESS MEETING TO VOTE 
  OUT THE NOMINATION OF ROBERT B. ZOELLICK TO BE DEPUTY SECRETARY OF 
                                 STATE

                              ----------                              


                      WEDNESDAY, FEBRUARY 16, 2005

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m., in room 
SD-419, Dirksen Senate Office Building, Hon. Richard G. Lugar, 
chairman of the committee, presiding.
    Present: Senators Lugar, Hagel, Chafee, Allen, Coleman, 
Alexander, Martinez, Biden, Sarbanes, Feingold, Boxer, Nelson, 
and Obama.

 OPENING STATEMENT OF HON. RICHARD G. LUGAR, U.S. SENATOR FROM 
                            INDIANA

    The Chairman. This hearing of the Senate Foreign Relations 
Committee is called to order.
    Today the Committee welcomes our Secretary of State, 
Condoleezza Rice. Although she appeared before us four weeks 
ago, this is the first time that she has testified before the 
Congress as Secretary of State, a very special occasion. We 
welcome her in this new capacity. We look forward to many such 
appearances in the future.
    The Foreign Relations Committee, Congress, and the American 
people have followed your recent travels, Ms. Secretary, to 
Europe and to the Middle East, with very great interest. We are 
excited to learn more about the progress you have made in 
advancing relations with important friends and allies. The 
United States needs partners in the world who will work with us 
toward mutual goals.
    The international debate on Iraq exposed the division 
within the Atlantic Alliance over the best methods to combat 
terrorism and weapons of mass destruction. This has strained 
some of our traditional partnerships, but it has not broken 
them. We applaud your efforts to improve the dialog with 
friends and allies who have shared our values for generations.
    During the last several years, American foreign policy has 
achieved an extensive list of accomplishments, many of which 
require resources and attention to nurture. The people of Iraq 
have held successful elections under difficult circumstances. 
Schools are operating, police and army units are being trained, 
free media is being established, and women are participating in 
societies in ways they have not done before. Violence continues 
as the opponents of freedom and stability seek to reverse the 
course of democracy. But elections have provided a basis for 
moving forward with self-government in Iraq.
    We also are encouraged by openings in peace negotiations 
between Israel and its Palestinian neighbors. We applaud the 
role that you have played in moving these talks forward, and we 
are interested in your report on this subject.
    In his recent Inaugural and State of the Union addresses, 
President Bush placed the advancement of freedom and democracy 
at the core of U.S. foreign policy. American encouragement and 
assistance has contributed to important democratic successes in 
Ukraine and Georgia. In the Middle East, our efforts and the 
democratic advances in Iraq and Afghanistan are helping to 
spark a debate over modernization and democracy. It is vital 
that the United States back up our rhetoric with resources and 
action. Democracy-building is hard work, but the President is 
right that such efforts are the means through which our own 
security and prosperity will be achieved.
    The United States also has had successes in the area of 
nonproliferation. In Russia, the Nunn-Lugar Cooperative Threat 
Reduction Program and its associated programs continue to 
safeguard and destroy the arsenal of weapons of mass 
destruction built by the former Soviet Union. Through the G8 
Global Partnership Against the Spread of Weapons of Mass 
Destruction, we have secured $10 billion in commitments for 
this endeavor from our allies. Congress passed legislation that 
allows the Nunn-Lugar program to be used outside the states of 
the former Soviet Union. With President Bush's strong 
encouragement, chemical weapons destruction at Shchuchye in 
Russia has been accelerated. We must ensure that the funding 
and momentum of the Nunn-Lugar Program and other 
nonproliferation efforts are not encumbered by bureaucratic 
obstacles or undercut by political disagreements.
    The Bush administration also has recruited more than 60 
countries to join the Proliferation Security Initiative, a 
program that has enhanced our ability to interdict illegal 
weapons-of-mass-destruction shipments around the world.
    Through the Energy Department, the administration 
established the Global Threat Reduction Initiative, which aims 
to secure high-risk nuclear and radiological materials 
globally. In addition, it secured the passage of the United 
Nations Security Council Resolution 1540 in April 2004, which, 
for the first time declared that weapons-of-mass-destruction 
proliferation is illegal.
    Libya's decision to open its weapons-of-mass-destruction 
program to international inspection is a continuing success for 
United States foreign policy, resulting from close coordination 
with allies, firm diplomacy, and the demonstration of our 
resolve in Iraq and Afghanistan.
    State Department diplomacy has provided constant 
encouragement to the promising talks between nuclear weapons 
states, India and Pakistan, that represent the best chance in 
years to reduce tensions on that subcontinent.
    The President put forward bold plans to fight the global 
spread of AIDS and to establish the Millennium Challenge 
Corporation, which will encourage political and economic 
progress in developing nations that embrace positive reforms. 
Congress worked closely with the White House and the State 
Department on these initiatives and passed legislation that 
would implement them.
    We've also extended the African Growth and Opportunity Act, 
which will expand our economic cooperation with that continent.
    These and other efforts, including our response to the 
tsunami disaster, demonstrate that the United States intends to 
provide leadership in fighting the poverty and disorder that so 
often are at the root of conflict.
    This partial list of foreign policy successes and 
priorities shows how expansive the global challenges are for 
our country. These challenges cannot be met merely through 
insightful decisionmaking. Effective diplomacy requires that 
our policymakers and diplomats have at their disposal an array 
of smoothly functioning foreign policy tools, including foreign 
assistance, public diplomacy, secure embassies, and post-
conflict reconstruction capabilities.
    I have spoken often of the diminishment of U.S. foreign 
policy capabilities and resources that took place during the 
1990s. The foreign affairs budget has been underfunded since 
the end of the cold war. The American public generally 
understands that the United States reduced military spending in 
the 1990s, following the fall of the Soviet Union. Yet few are 
aware that this peace dividend spending-reduction theme was 
applied even more unsparingly to our foreign affairs programs.
    In constant dollars, the foreign affairs budget was cut in 
6 consecutive years, from 1992 to 1997. This slide occurred 
even as the United States sustained the heavy added costs of 
establishing new missions in the 15 emergent states of the 
former Soviet Union. In constant dollars, the cumulative effect 
was a 26-percent decrease in our foreign affairs programs. As a 
percentage of GDP, the 6-year slide represented a 38-percent 
cut in foreign affairs programs.
    By the beginning of the new millennium, these cuts had 
taken their toll. The General Accounting Office reported that 
staffing shortfalls, lack of adequate language skills, and 
security vulnerabilities plagued many of our diplomatic posts. 
In 2001, the share of the U.S. budget devoted to the 
international affairs account stood at a paltry 1.18 percent, 
barely above its post-World War II low, and only about half of 
its share in the mid 1980s.
    Under President Bush and Secretary Powell, funding for the 
Foreign Affairs account has increased substantially. The 
President has requested increases in each of the last four 
budgets. In this year's budget, the President has requested a 
13-percent increase for the Foreign Affairs account, the 
largest percent increase of any account in the budget. This is 
a tangible demonstration of the President's commitment to 
diplomatic strength, and Congress must now do its part by 
providing the resources the President needs to carry out an 
effective foreign policy.
    Secretary Rice, we are eager to hear your views on the 
health of our alliances, the Bush administration's plans for 
making further progress in Iraq and Afghanistan, the status of 
negotiations pertaining to Iran, North Korea, and the Arab-
Israeli peace process, and your assessment of the State 
Department's budget. We thank you for joining us today. We look 
forward to your discussion.
    And I call now upon the distinguished ranking member for 
his welcoming remarks, Senator Biden.

 STATEMENT OF HON. JOSEPH R. BIDEN, U.S. SENATOR FROM DELAWARE

    Senator Biden. Thank you very much.
    Madam Secretary, welcome. Great job. You made us proud. You 
did a wonderful job of your maiden voyage. I really mean it. 
You said this was going to be the term of diplomacy, and you 
did it with grace and strength, and I applaud you for it.
    And while you were away--you may not have noticed--there 
were an awful lot of pictures of you and me hugging after I 
said, ``Don't listen to Rumsfeld.'' [Laughter.]
    And several reporters called me and said--mainstream 
international reporters said, ``If she doesn't listen to 
Rumsfeld, what in the heck would make you think she'd listen to 
you?'' I said, ``I had no thoughts that that would happen.'' 
But I'm sure that you've, for the record, discounted my 
recommendation, as you probably should.
    But I really mean it, it was a first-rate performance, and 
I was really pleased. Quite frankly, I was excited about it. I 
was excited about the opportunity that I think you've opened up 
for the President's trip. I think you have presented him with a 
glide path that is going to be a very different environment, 
because of you having been there, than might have existed, 
fairly or unfairly. I think you've set this up perfectly. And 
now I hope our European friends, as I said in Davos, in my 
private meetings with heads of state, including France, should 
get over it. I know they're characterized as the bluest state. 
But the truth of the matter is, they need us. And, in my view, 
I think we need them.
    Your trip provided, I think, a fresh start and a chance to 
repair some of the damage done to our transatlantic 
relationship after the diplomatic battles over Iraq and other 
issues. And I think you made important progress.
    But diplomacy requires not only listening--it ultimately 
involves mutual agreement. It remains an open question--open to 
me, only; I speak for myself, I must tell you--it remains an 
open question just how prepared the President is to reach out 
and swallow hard, sometimes, to reach some mutually beneficial 
agreements. And I must tell you, I have my concerns about how 
magnanimous our European friends are prepared to be. But this 
is a time for magnanimity, not of our mutual self interest.
    We agree, for example, to invite Europe to play a 
meaningful role in helping chart Iraq's course. And I think the 
public has come to conclude, as I have believed, and maybe you 
and others, that Iraq is not a prize. It's a country trying to 
recover from decades of despotic rule. And Europe has as much 
at stake in the stability of Iraq as we do, and, I would argue, 
in some cases, more at stake than we do.
    And I was very disappointed the last year and a half, quite 
frankly. I think some of the European countries--and they're 
going to get angry with my saying this, but I've said it to 
them personally--basically sat on their hands because they 
didn't want to do anything they thought would promote the 
reelection of George Bush. I may be wrong about that. But 
whether I'm right or wrong, it's over. It is over. And that's 
why I think they may be inclined, with your leadership and the 
President's forcefulness--they may be prepared to play a much 
larger role.
    That's why I proposed--and I'm not married to the concept, 
and sometimes I think if I propose it, if I suggest it, it's 
maybe the death knell; I sometimes hesitate to agree with my 
colleagues, because I think I hurt them--but I think this is an 
opportune time to set up a contact group on Iraq. I think this 
is an opportune time to include the major European powers. I 
think it's an opportune time to go to the Secretary General of 
NATO, the Presidency of the EU, our Ambassador in Iraq, to form 
a group that literally meets on a monthly basis, to coordinate 
the international community's policy toward and assistance for 
Iraq.
    I think it's time to make Iraq the world's problem. And in 
my discussions--and you have had much more depth in your 
discussions with the Europeans than I have had, in the last 
month, on your recent trip, but I think they're ready. I think 
they're ready if you can use your fertile imagination to come 
up with a construct that allows them to sit at the table 
without us, in fact, giving up anything, other than the right 
for them to share their obligation and pain of what's going to 
have to happen between now and, at least, next December or 
January, when the elections are final, the constitution is 
written.
    And sometime--you don't have a lot of time now, but 
sometime, I'd like to maybe come to your office and lay out, in 
a little more detail, the notion--again, I'm sure there are 
other people who have better ideas, but some way to get them at 
the table on a regularized basis. Now, I haven't had any formal 
discussions with any newly elected Iraqis, although some I've 
met have been elected--I think it gives them a foil, as well. 
It gives them an opportunity to look to those who want them to 
be more xenophobic in their approach, whether they're Shia or 
Kurds, to say, ``Look, the international community's here. 
We're sitting here, and we're available, and the way to get the 
most help is''--but that's just me. I'd be interested to have 
an opportunity to talk with you a few minutes.
    And the thing that concerns me the most is our policy on 
Iran as it relates to United States/European unity. I'd like, 
again, in that same meeting, to give you the opportunity to go 
into some detail of what I was told, and some of my other 
colleagues were told, by Chirac about where he was and what he 
was prepared to do, and so on and so forth. And I'd like to 
just give you the benefit of that, to see if what I'm hearing 
is actually accurate.
    For example, we had the Foreign Minister, yesterday, from 
Egypt. We hosted him. And I asked a question that I had spent a 
lot of time with Mubarak, in January, talking about, and that 
is their offer of considerably more help to train. Considerably 
more. You know how President Mubarak is; he said, ``We need 
more. More. We'll help you more,'' and so on. So I asked. I 
asked the Foreign Minister. Because some of my colleagues--not 
my colleagues here--were kind of new to that idea, and he said, 
``Yeah. We're ready to help more.'' And so, we asked the 
Ambassador to check it out. I mean, because he didn't know the 
answer to that.
    So, I guess what I'm trying to say is that sometimes, what 
I get over the transom and what I get in my visits is totally 
consistent with what the real offers are. And Iran is a place 
that is of considerable concern to me. I, quite frankly--and 
I'm not going to ask you now--I don't understand our policy. 
I'm not being facetious. And I don't understand how it 
intersects with the European efforts.
    To me, it seems like we're sitting on the sidelines a bit, 
both in regard to Iran and North Korea, Madam Secretary. I 
think the Europeans and the Asians, they have to--our allies, 
our friends, our interlocutors--they have to be prepared to put 
more sticks in the bag. But we have to prepare to put more 
carrots in the bag, as well.
    And I may be wrong, but I've not heard anybody come up with 
a better idea, so far, as to how to proceed here, because one 
of the things that I don't believe, as some have written, as 
your number two--and he is a first-rate guy--we're going to 
vote for him. I think he'll pass, you know, overwhelmingly. But 
he had written an article, back in 2000, saying time was on our 
side in Korea. I would strongly argue that time is not on our 
side in Korea. And I'm not at all sure negotiations, no matter 
how well conceived, no matter how many sticks or how many 
carrots are in the bag, will change that fellow in the North. I 
just don't know. I am not willing to bet my daughter's 
graduate-school tuition on it. And so, I don't fully understand 
our approach.
    And the question I have is: Are we going to also take some 
new approaches on contentious issues, that I think we're right 
on in substance, but we're wrong on in our style? Kyoto. We 
were right about needing to do more in Kyoto. I think we were 
dead wrong walking away, just simply walking away. Like it or 
not, many of our friends have committed to Kyoto, and we can't 
just shrug our shoulders and endlessly debate the science. I 
think, instead, we should engage our allies in constructive 
dialog about a way forward, and I would argue we should do that 
on the International Criminal Court, and we should do that on a 
number of things. We should not sign on the way it is, but I 
think we should not sign off and walk away.
    Can we engage in our allies in advancing the bold agenda of 
human freedoms set forth in the President's Inaugural Address? 
And how is that going to coexist with our policies in the 
global struggle against terrorism? Will our close allies in the 
war on terrorism, Saudi Arabia, Pakistan, and Egypt--I'm 
finding in my visits there a little resistance, already, to, 
``What do you guys mean by `advancing freedom'? What do you 
mean by it?'' And I say, ``I'll tell you what I mean by it. I 
mean, you've got to change.'' But there is this real feeling 
of, ``What's the deal here? What are we talking about?'' And I 
say that because I got to meet with a lot of the foreign 
ministers and heads of state of those countries in Davos, and 
they seek, as they call them, those bilateral meetings, to ask 
``What's going on?'' And I tell them, ``You've got the wrong 
guy. You should talk to Hagel. He's a Republican. He'd know 
better than me.''
    But, all kidding aside, will they respond to this reform 
agenda by reducing cooperation with us with regard to terror 
and al-Qaeda? I don't think so, but it's a big issue.
    And a liberal democracy, as you know, Madam Secretary, is 
more than just an election. It must rest on a foundation of a 
strong civil society, educational opportunity, political 
pluralism, independent media, a private sector where people 
invest, and the rule of law. And that takes time. And our aid 
programs in places like Egypt and Pakistan, I think, have 
lagged in supporting these sectors.
    I think we should be more direct with our dollars in 
developing the strong nongovernmental institutions in those 
countries to build democratic foundations that we need. And I 
think we should seek help in this venture. For example--you may 
remember, because, you poor woman, you had to spend so much 
time with me when Henry Hyde said, ``Joe will meet you.'' 
Remember that meeting? And so, we got a chance to meet a lot.
    And you may remember--and I'm going to try to revive it 
with my colleagues, and I think you may be sympathetic to the 
idea--that when I came back from Afghanistan, right after the 
Taliban fell, I had an opportunity to meet with you, and I was 
told, at the time, you could build a school in Afghanistan for 
$20,000, and have a teacher run it for a year. That's the total 
cost. And I suggested maybe our goal should be to build a 
thousand schools in Afghanistan. Because you have educated me--
as well as informed me in policy, you were the first one to 
talk to me about the madrassas and how the Saudi--whether it 
was the Saudi Government or not, the Saudis were building--I 
believe the number in Pakistan and Afghanistan was close to 
7,000. I may be mistaken about that, but I think that's right.
    And I think we have to do two things. We have to hold the 
Saudis in this--I'm sorry to go on so long, Mr. Chairman, I'll 
finish in a moment--as we look at the aid package this year, I 
think we should be insisting that the Saudis, for example--and 
they are making progress, they are working at it--they should 
have a law applied in their country, like ours.
    There's a place called Fishtown in Philadelphia. It's the 
Irish section. I remember, in the early '80s, speaking at a bar 
in Fishtown, campaigning for a mayor. And because my mother's 
name is Finnegan and I'm an identifiable Irish politician, I 
got all this stuff about, ``Why aren't we helping in the north 
more?'' It turns out, after I came back from that, the FBI 
calls later and says, ``They're about to crack down in that 
area, because there's a significant amount of money going to 
the IRA to purchase weapons.'' Now, it's against the law for us 
to do that.
    The Saudis should make it against the law to help any 
outfit if it turns out that the mosque that they build is one 
that venom is being preached from about taking down the United 
States. If we can produce, for example, books coming out of the 
madrassa and present it to the Saudis, that it's about ``Kill 
Americans,'' then they should act. They should be held to the 
same kind of standards that we hold people here to, because our 
lives are at stake. They don't quite get that yet. They're 
doing a lot. They're doing a lot. But there's still a lot of 
charities out there that are not held to a followup standard as 
to what's happening once the madrassa is built.
    I also think we should insist that that aid not go from us 
without going through the host government. When I was in 
Kirkuk, with my friend here, we rode by and saw these 
magnificent, shiny, new mosques. I mean, they were magnificent. 
And everything else was desolation. And we turned to our host, 
who is now the Foreign Minister, and turned and said, ``What's 
this?'' And he just nodded his head, and he went, ``Saudis. 
Saudis.'' No permission sought.
    And we've got to compete. These madrassas are a little bit 
like the way people used to send kids to monasteries in the 
14th century. You get three square meals, you get some kind of 
education, you're out of the house, and you're indoctrinated.
    Now, let me turn quickly to the budget. I think you did 
well on securing increases when many other agencies in 
government took reductions, but I think the budget is a 
disappointment in a few places. Specifically, it breaks the 
commitment the President made to the world, and omits billions 
of dollars in costs from the discipline of the budget process 
by putting them into this supplemental. And 3 years ago, in 
Monterrey, Mexico, the President pledged to the world that we 
would increase our core development assistance over 3 years, 
resulting in $5 billion in new funds by fiscal 2006.
    The President's budget seeks just $3 billion for the 
Millennium Challenge Account, and falls far short of the 
promised $5 billion. Now, I know the Congress has not pursued 
it. The Congress has not gone forward. But I don't think it's 
any excuse for the President not to push it, because if he 
pushes it, we've got a shot up here.
    I also would suggest that the budget doesn't include things 
that should be in the budget. This is not your fault, quote, 
``responsibility'' or whatever. But the idea that we're putting 
the Baghdad Embassy in the supplemental emergency, what's the 
game here? That's a direct budget item. We knew we were going 
to have to build that. That should not be in a supplemental. 
That should be in the budget, the 2006 budget.
    It doesn't include funds for, for example, foreign military 
financing for Afghanistan, where we've been working to help 
them build a new state over 3 years.
    It doesn't include costs of a new $400 million ``Solidarity 
Initiative'' announced by the President last week to, quote, 
``strengthen the capabilities of our partners to advance 
democracy and stability around the world.''
    To my mind, this is kind of an old idea wrapped in a new 
package, using foreign aid funds to reward and support our 
allies. But maybe there's no other choice now. I mean, $100 
million to the Poles. The Poles can't afford to be there. But 
the idea, up to now, we're trying to convince the American 
people that we have these allies of the willing that are there. 
We should tell them: they're willing as long as we help defray 
the costs. I'm happy they're there. And I support the payment. 
But we mislead when we include that stuff in supplementals when 
we know those costs are going to be necessary.
    I'd probably support many of these requests, just on their 
merits. But I wonder why these costs, many of which are clearly 
foreseeable, get punched into a supplemental and are not 
directly in the budget.
    To govern is to choose, Madam Secretary, which you know as 
well as I do, and the President refuses to make some of these 
hard choices between advancing his global agenda and his fealty 
to a tax-cutting agenda that has converted trillions of dollars 
of the surplus into massive deficits, along with other things, 
including 9/11 costs.
    But I would ask unanimous consent, Mr. Chairman, that the 
remainder of my statement be placed in the record. Madam 
Secretary, I think you're off to a great start. You're one of 
those folks who I think can do the hundred in ten flat. And now 
we've finally given you a lane here. I just hope they follow 
it.
    At any rate, I thank you for being here and thank you for 
listening.
    The Chairman. Thank you, Senator Biden. Your statement will 
be published in the record in full.
    [The prepared statement of Senator Biden follows:]

  Prepared Statement of Hon. Joseph R. Biden, Jr., U.S. Senator From 
                                Delaware

    Madam Secretary, welcome back to the Committee, and welcome back 
from your trip to Europe and the Middle East. You did a tremendous job. 
And you opened a real opportunity for the President to have a 
successful trip later this month.
    Your trip provided a fresh start--a chance to repair the damage 
done to the transatlantic relationship after the diplomatic battles 
over Iraq and other issues. As I've said before, our European friends 
need to get over their problems with this administration. They need us. 
And, I believe, we need them. I think you made important progress, and 
I congratulate you. But diplomacy requires not only listening--it 
ultimately involves mutual agreement. And it remains an open question 
just how prepared the President is to reach out and reach some mutually 
beneficial agreements with our friends.
    Will we agree, for example, to invite Europe to play a meaningful 
role in helping Iraq chart its democratic path?
    Iraq is not a prize; it is a country trying to recover from decades 
of despotic rule. Europe has as much at stake in its stability as we 
do, and arguably more.
    That's why I've proposed a Contact Group--to include the major 
European powers--to coordinate the international community's policy 
toward and assistance for Iraq. It's time to make Iraq the world's 
problem, not just our own. In my discussions, I think Europe is ready 
to help.
    What is our policy on Iran and can we agree with Europe on a common 
strategy? Our European friends seek our help in their negotiating 
effort, but we remain largely spectators. If the use of force is not on 
the agenda at this time, then what is?
    In other words, if the time for diplomacy is now, what is our plan 
to undertake it with respect to Iran?
    Similarly, what will the Administration do during this term with 
regard to North Korea's nuclear program? In the past four years, North 
Korea has increased its nuclear weapons capacity by as much as 400 
percent. This is a country that will sell anything to anyone for the 
right price. Time is not on our side.
    In both North Korea and Iran, the best path forward would be for 
our Asian and European partners to show more sticks--that is, to make 
clear to North Korea and Iran the kind of sanctions and isolation they 
risk if they don't do the right thing.
    But we, in turn, have to show more carrots--that is, to make clear 
to North Korea and Iran what they might gain if they do the right 
thing.
    No one knows whether a coordinated carrots and sticks approach with 
our partners will succeed in either case. But no one has put forward a 
better alternative to make us more secure. And treading water for 
another four years is not an option.
    Will we take a new approach on the contentious issue of climate 
change? The Kyoto Protocol takes effect today. Like it or not, many of 
our friends have committed to it; we cannot just shrug our shoulders 
and endlessly debate the science.
    We should instead engage our allies in a constructive dialogue 
about the way forward on a challenge we all confront. That applies to 
Kyoto and to other issues like the International Criminal Court. We 
should not sign on the way things stand--but we cannot just sign off 
and walk away.
    Can we engage our allies in advancing the bold agenda of human 
freedom set forth in the President's inaugural address, and how will it 
co-exist with our policies in the global struggle against terrorism?
    Will close allies in the war on terrorism--such as Saudi Arabia, 
Pakistan, and Egypt--resist democratic reform, or will they respond to 
our reform agenda by reducing cooperation against al-Qaeda and its 
allies?
    Liberal democracy is more than just elections. It must rest on the 
foundation of a strong civil society, educational opportunity, 
political pluralism, independent media, a thriving private sector and 
the rule of law. Our aid programs in places like Egypt and Pakistan 
have lagged in supporting these sectors. We should direct more of our 
aid dollars to developing strong non-governmental institutions to help 
build the democratic foundation, and we should seek allied help in this 
venture.
    In addition, we have to be more aggressive in ending the export of 
radical ideologies. We have to be proactive, for example, in combating 
the madrassas which poison children's minds but also put food in their 
stomachs and clothes on their backs. When I went to Afghanistan just 
after the Taliban fell in 2002, I was told that for just $20,000, we 
could build a schoolhouse and staff it with a teacher for a year. I 
discussed the idea with then National Security Advisor Rice. I'd like 
to see us act on this idea to help countries like Afghanistan compete 
with the madrassas.
    Let me turn now to the budget. You did well to secure increases 
when many other agencies in the government took reductions.
    But the budget is also a disappointment for what it does not 
include. Specifically, it breaks a commitment the President made to the 
world, and it omits billions of dollars in costs from the discipline of 
the budget process by putting them into the supplemental.
    Three years ago, in Monterrey, Mexico, the President pledged to the 
world that the United States would increase our core development 
assistance over three years, resulting in $5 billion in new funds by 
Fiscal 2006.
    The President's budget seeks just $3 billion for the Millennium 
Challenge Account next year, far short of the promised $5 billion. 
True, Congress has not provided the full amounts requested by the 
President, but that is hardly an excuse for abandoning his own 
commitment. His leadership is critical.
    The budget is notable for other things it does not include:
    It does not include the costs to build a new Embassy in Baghdad, 
even though we have known for two years that we will need to do so.
    It does not include funds for continued Foreign Military Financing 
for Afghanistan, where we have been working to help them build a new 
state for over three years.
    It does not include costs for the new $400 million ``Solidarity 
Initiative'' announced by the President last week, which, we are told, 
will ``strengthen the capabilities of our partners to advance democracy 
and stability around the world.'' To my mind, this is an old idea 
wrapped up in a new package: using foreign aid funds to reward and 
support allies.
    Where can we find all these items? In the ``emergency'' 
supplemental transmitted by the President on Monday. I would probably 
support many or all of these requests on their merits. But I wonder why 
these costs--many of which are readily foreseeable--are included in the 
supplemental.
    To govern is to choose. Yet the President refuses to make some of 
these hard choices--between advancing his ambitious global agenda and 
his fealty to a tax cutting agenda for the most fortunate among us that 
has contributed, along with other problems like 9/1l, to converting 
trillions of dollars in surplus into massive deficits.
    Advancing American security through a strong military and active 
international diplomacy is a primary function of government, and the 
duty of a great power. I have not hesitated to support necessary 
funding for international programs.
    But it is simply wrong to impose the costs of protecting ourselves 
today onto the backs of tomorrow's generations--and that is exactly 
what the President's supplemental does by adding recklessly to the 
deficit.

    The Chairman. Let me just mention, before I call on 
Secretary Rice, that in the event that 10 members of the 
committee, a quorum, should appear, we will move to a 
discussion, if necessary, and a vote on Robert Zoellick to be 
Under Secretary of State, so that that nomination can be 
considered on the floor. Our leader, Dr. Frist, has indicated 
that he would be receptive to that occurring. I've mentioned 
this to Dr. Rice prior to the meeting so that she would not see 
this as an intrusion, and she welcomes such an intrusion, if 
such would occur.
    If that is not possible, I have asked the indulgence of the 
ranking member that the nomination might be discharged from the 
committee so that it does get to the floor, so that we do have 
a number two person at the Department prior to our recess, 
because life goes on in our diplomacy and in the Department. 
But, in any event, we will hope for the quorum of the Senators.
    Dr. Rice, thank you, again, for coming, and please proceed 
with your testimony.

 STATEMENT OF HON. CONDOLEEZZA RICE, SECRETARY OF STATE, U.S. 
                      DEPARTMENT OF STATE

    Secretary Rice. Thank you very much, Mr. Chairman. And 
thank you, Senator Biden, for those comments. And I look 
forward, obviously, to continuing to consult and to work with 
this committee, and to discussions of ideas that you may have.
    This is clearly a time of challenge, but it is also a time 
of hope and opportunity. And the committee has been a stalwart 
supporter of the Department and of our diplomacy, and I look 
forward to continuing to work, from a strong bipartisan 
consensus, to ensure that the men and women of American 
diplomacy have the resources they need to conduct their vital 
mission.
    Mr. Chairman, I'm going to make some remarks from my 
testimony and then enter the entire testimony into the record, 
if that's all right.
    The Chairman. It will be published in full in the record.
    Secretary Rice. Thank you.
    The President's fiscal year 2006 international affairs 
budget for the Department of State, USAID, and other foreign 
affairs agencies totals $33.6 billion. On Monday, President 
Bush submitted a fiscal year 2005 supplemental request, 
including about $5.6 billion for international affairs 
activities and $701 million in tsunami relief for the 
Department and for USAID.
    In his recent State of the Union message, President Bush 
spoke of the unprecedented efforts we have undertaken since 
September 11 with our friends and allies around the world to 
defeat terrorism. But, in the long term, as President Bush has 
said, the only force powerful enough to stop the rise of 
tyranny and terror and to replace hatred with hope is the force 
of human freedom. The President has charged the men and women 
of the Department of State with helping to create a balance of 
power in the world that favors freedom, and I feel privileged 
to lead them in that effort.
    In order to advance our diplomatic mission of freedom, I 
recently traveled, as you know, to Europe and to the Middle 
East. I've spoken with European leaders about how America and 
Europe can best work together to serve freedom's cause 
worldwide. I emphasized with our European allies that we are in 
a new phase, that it was time to turn the page on whatever had 
happened before and to write a new chapter in our glorious 
alliance, an alliance that had faced down tyranny before and 
could do so again in the spread of democracy and freedom. And I 
just want to say that I found a quite open door. I found people 
who wanted to be constructive, who are looking for ways to move 
forward. And will continue to pursue, with vigor, that open 
door to a new path. The President travels to Europe at the end 
of the week, or the beginning of next week, and he will have an 
opportunity to continue to press forward on this agenda.
    We talked about a number of issues. Perhaps most 
importantly, we talked about the work that we have to do 
together in the Middle East, the work of the broader Middle 
East and North Africa initiative, but also the work of the 
Middle East peace process. And, as you know, next month, in 
London, Prime Minister Blair will convene an important 
conference to discuss Palestinian issues. And while we know 
that the path of democratic reform in the Middle East will be 
difficult and uneven, the spread of freedom, the work of 
generations, is urgent work that cannot be deferred. From 
Morocco to Jordan to Bahrain, we are seeing elections, and new 
protections for women and minorities, and the beginnings of 
political pluralism.
    In support of these hopeful trends, the fiscal year 2006 
budget request proposes enhanced funding for diplomatic and 
assistance activities in the Middle East, North Africa, and 
other majority-Muslim countries. The request includes $120 
million for the Middle East Partnership Initiative reform, $40 
million for the National Endowment for Democracy to support the 
broader Middle East, $180 million for Muslim outreach through 
educational and cultural exchanges, and increases for a wide 
range of other public diplomacy and broadcasting initiatives 
geared toward Muslim publics, particularly toward young people.
    Every leader that I met in Europe understood that our 
common interest now lies in building on the recent successes 
and stabilizing and advancing democratic progress in 
Afghanistan and Iraq. For our part, to build on the momentum in 
Afghanistan following last October's elections, President Bush 
has requested nearly $1.1 billion. The money will be used to 
invest in health and education and clean water and free-market 
infrastructure that creates conditions for sustained growth and 
stability in this country that was once a terrorist haven, but 
is now an ally of the United States in the war on terror. The 
$1.1 billion includes $437 million for operations to continue 
the fight against drugs. And the fiscal year 2005 supplemental 
seeks $2 billion for expanding police and counternarcotics 
programs and accelerating reconstruction and democracy and 
governance activities. The supplemental also includes $60 
million for Embassy security and operational costs.
    To help advance the cause of democracy in Iraq, the 
President has requested $360 million for economic assistance 
targeted toward basic needs, and the supplemental includes $690 
million to continue United States mission operations and $658 
million to construct a new Embassy compound in Iraq.
    At their meeting in Sharm el-Sheik, President Mubarak, King 
Abdullah, and Prime Minister Sharon, and President Abbas all 
called this a time for opportunity. And I just want to say, it 
was remarkable to walk into the meetings with Prime Minister 
Sharon and President Abbas and have them start with the same 
line, ``This is a time for opportunity, and we must seize it.''
    President Bush has announced that he will seek an 
additional $350 million to help the Palestinians build 
infrastructure and sustain the reform process over the next 2 
years. Of that $350 million, $150 is in the budget request for 
2006, and $200 million is in the supplemental request. And let 
me just say, I look forward to consultations with Members of 
Congress about how best to use this funding as we consult also 
with the members of the Palestinian Authority.
    Even as we work with allies and friends to meet the great 
challenges of advancing freedom and peace in this vital region, 
there are other things that we must do to build on the hope for 
opportunity in other areas. We seek $3 billion for the third 
year of the Millennium Challenge Corporation, this bold, 
growth-promoting approach to development which helps countries 
that govern justly, adopt sound economic policies, and invest 
in the welfare of their people. I cannot emphasize strongly 
enough how important it is that we receive this funding, 
because we are really now making a lot of progress in the 
development of compacts with countries, and it is a challenge 
to countries of the world to govern justly and to put together 
programs that can demonstrate that.
    We are also seeking $2.4 billion in development, child 
survival, and health assistance.
    We're requesting $5.8 billion in assistance to our partners 
in the global war on terror. And, in the supplemental, $750 
million is there to support our coalition partners, including 
those who are standing with us in Afghanistan and Iraq.
    I'm sure that the members of this committee will agree 
that, when they engage effectively, multilateral institutions 
can multiply our strength as freedom-loving nations. And so, we 
are requesting $1.2 billion for our U.S. obligations to 
international organizations, including to the United Nations, 
and $1 billion to pay projected U.S. assessments for U.N. 
peacekeeping missions. We are seeking $114 million to enhance 
the peacekeeping capabilities of non-U.N. forces, with a 
particular focus on Africa. In addition, the supplemental seeks 
$100 million to support the North-South Peace Agreement, and 
$242 million to address urgent humanitarian needs arising out 
of the ongoing Darfur crisis so that we can address Sudan.
    We've seen how states where chaos and corruption and 
cruelty can pose a threat to their neighbors and regions, how 
that can come home to our own shores as a threat. And so, we 
are working to strengthen international capacities to address 
conditions in failed, failing, and post-conflict states. This 
committee has been particularly supportive of the President's 
charge to us, at the State Department, to coordinate our 
Nation's post-conflict and stabilization efforts. We are asking 
for $24 million for the new Office of the Coordinator for 
Reconstruction and Stabilization that is housed in the 
Department. The fiscal year supplemental--2005 supplemental 
seeks $17 million for startup costs and personnel costs for 
that Coordinator's office. And the 2006 budget request proposes 
$100 million for a conflict-response fund, because one is often 
not able to see ahead in a way that is flexible enough to deal 
with arising crises.
    Obviously, the United States wishes to stay at the 
forefront of the global fight against HIV/AIDS. We are 
requesting $3.2 billion in total U.S. funding for care, 
treatment, and prevention efforts that can demonstrate the 
compassion of the American people.
    And there are other ways that we demonstrate that 
compassion. We are requesting $2.5 billion in food aid and 
famine relief, and the supplemental requests $950 million for 
rehabilitation and reconstruction associated with the 
devastation of the tsunami. That includes the $350 million 
initially pledged for tsunami efforts.
    I welcome this committee's help in ensuring that the men 
and women of American diplomacy are well equipped for the 
challenges ahead, in terms of training and technologies and 
safe workplaces. Secretary Powell made a great deal of progress 
in this area, and I want very much to build on the foundation 
that has been established. We are, therefore, requesting $1.5 
billion for security-related construction and $690 million to 
increase security for diplomatic personnel and facilities.
    One of the most important things that we can do is 
strengthen the recruitment of new personnel, and we are seeking 
$57 million for 221 new positions to meet core staffing and 
training requirements. And so that people are properly trained 
and can use technology, we are asking for $249 million for 
investment in information technology.
    Let me say, too, that I, before this Committee, during my 
confirmation hearing, said how important public diplomacy will 
be for the Department. And in the fiscal year 2006 request we 
have included $328 million for activities to engage, inform, 
and influence foreign publics. But our public diplomacy efforts 
cannot succeed if we close ourselves off from the world, so we 
are asking for $931 million to improve border security at the 
same time that we increase our educational and cultural 
exchange programs to a total of $430 million in fiscal year 
2006. In other words, we will keep America's doors open and our 
borders secure.
    Mr. Chairman, members of the committee, this is a time of 
global transformation, and it calls for transformational 
diplomacy. I've not outlined all of the elements here of the 
budget, but rather to highlight some that we consider 
particularly emblematic of what we must do.
    I want to thank you, Mr. Chairman, for the support of this 
committee, and I'm happy to answer any questions that you and 
other distinguished members of the committee might have.
    Thank you.
    [The prepared statement of Secretary Rice follows:]

    Prepared Statement of Hon. Condoleezza Rice, Secretary of State

    Thank you, Mr. Chairman. This is a time of challenge, hope and 
opportunity for America, and for the world. And as I mentioned during 
the Committee's consideration of my nomination, I look forward to 
working with you to build a strong bipartisan consensus behind 
America's foreign policy and to ensure that the men and women of 
American diplomacy have the resources they need to conduct their vital 
mission.
    The President's FY 2006 International Affairs Budget for the 
Department of State, USAID and other foreign affairs agencies totals 
$33.6 billion. On Monday, President Bush submitted an FY 2005 
supplemental request, including $6.3 billion for international affairs 
activities, of which $701 million is for tsunami relief funding for the 
Department of State and USAID.
    If I may, Mr. Chairman, I will begin with an overview of President 
Bush's foreign policy mission, which we seek this Committee's support 
to advance.
    In his recent State of the Union Message, President Bush spoke of 
the unprecedented efforts we have undertaken since September 11, 2001 
with allies and friends around the world to defeat terrorism. The 
President spoke of the significant progress we have made confronting 
the enemy abroad, removing many of al-Qaeda's top commanders, cutting 
off terrorist finances, and putting pressure on states that sponsor or 
harbor terrorists or seek to proliferate weapons of mass destruction. 
But in the long term, as President Bush said, ``The only force powerful 
enough to stop the rise of tyranny and terror, and replace hatred with 
hope, is the force of human freedom.''
    President Bush has charged the men and women of the Department of 
State with helping to create a balance of power in the world that 
favors freedom, and I feel privileged to lead them in this effort.
    To advance our diplomatic mission of freedom, I recently traveled, 
as you know, to Europe and the Middle East. I spoke with European 
leaders about how America and Europe can best work together to serve 
freedom's cause worldwide. President Bush will continue that 
conversation when he arrives in Europe on February 21.
    Our European allies and we must put the power of our partnership to 
work to meet the challenges of a changing world--particularly in the 
Broader Middle East and North Africa. Efforts to encourage political 
pluralism, economic openness and the growth of civil society are 
critical to the future of this strategically important region. 
Recognizing this, through the G-8 we have established the Forum for the 
Future--a new partnership of progress between the democratic world and 
the nations of a vast region extending from Morocco to Pakistan. The 
first meeting of the Forum in Rabat last December was a success. We 
must now follow up on that success and we are committed to assisting 
the Forum to play a central role in advancing reform in the region.
    Next month in London, Prime Minister Blair will convene an 
important conference of major donors to help the Palestinian people 
advance their political, security and economic reforms and build 
infrastructure for self-government. Also in March, under the auspices 
of the Broader Middle East and North Africa Initiative, Egypt will host 
a meeting in Cairo of G-8 and Arab League members to broaden the base 
of support for peace and reform.
    The path of democratic reform in the Middle East will be difficult 
and uneven. The spread of freedom is the work of generations, but it is 
also urgent work that cannot be deferred.
    From Morocco to Jordan to Bahrain, we are seeing elections and new 
protections for women and minorities, and the beginnings of political 
pluralism. In support of these hopeful trends, the FY 2006 budget 
request proposes enhanced funding for diplomatic and assistance 
activities in the Middle East, North Africa and other majority Muslim 
countries. The request includes $120 million for the Middle East 
Partnership Initiative for reform, $40 million for the National 
Endowment for Democracy to support the Broader Middle East and North 
Africa Initiative, $180 million for Muslim outreach through educational 
and cultural exchanges, and increases for a wide range of other public 
diplomacy and broadcasting initiatives geared toward Muslim publics, 
particularly populations not typically reached by other programs 
including women and young people. The success of freedom in Afghanistan 
and Iraq will give strength to reformers throughout the region, and 
accelerate the pace of reforms already underway.
    Every leader in Europe I spoke to understands our common interest 
in building on recent successes and stabilizing and advancing 
democratic progress in Afghanistan and Iraq. For our part, to build on 
the momentum in Afghanistan following last October's elections, 
President Bush has requested nearly $1.1 billion. This money will be 
used to invest in health, education, clean water and free market 
infrastructure that create conditions for sustained growth and 
stability. The $1.1 billion includes funds for operations to continue 
the fight against drugs. The FY 2005 supplemental seeks $2 billion for 
expanding police and counter-narcotics programs and accelerating 
reconstruction and democracy and governance activities. The 
supplemental also includes $60 million for Embassy security and 
operational costs.
    The European leaders I spoke with agree that it is time to close 
the book on our past differences over Iraq, and time for all of us to 
help the Iraqi people write a new book--the history of a democratic 
Iraq. To help the advance of democracy in Iraq, President Bush has 
requested $360 million for economic assistance to continue work already 
begun under the IRRF and targeted towards helping the Iraqi government 
to create a functioning democracy and a justice system governed by the 
rule of law, to deliver basic services to its people, to collect 
revenues, to generate jobs and to develop a free market system capable 
of joining the global economy. The FY 2005 supplemental includes $690 
million to continue U.S. mission operations and $658 million to 
construct a new embassy compound in Baghdad.
    Of course, the process of reform in the Muslim world is not 
detached from the resolution of important political issues. In my 
recent travels I found no difference of view, at all, between the 
United States and Europe on the goal of an independent Palestinian 
state living side-by-side in peace with the Jewish State of Israel. We 
all support the process of reform in the Palestinian Authority. The 
successful Palestinian elections of January 9, and the Israeli 
withdrawal plan for Gaza and parts of the West Bank, have created a new 
climate that is propitious for movement back to the Roadmap. And we 
thank Senators Biden and Sununu for serving on the U.S. Delegation that 
observed those key elections.
    At their meeting in Sharm el-Sheikh with President Mubarak and King 
Abdullah, both Prime Minister Sharon and President Abbas called this a 
time of opportunity must not be lost. And President Bush has invited 
both leaders to Washington in the spring. President Bush also has 
announced an additional $350 million to help the Palestinians build 
infrastructure and sustain the reform process over the next two years. 
Of the $350 million, $150 million is included in the FY 2006 budget 
request and $200 million is included in the FY 2005 supplemental.
    And so I have returned from my travels to the Middle East and 
Europe confident that the parties now have before them the best chance 
for advancing peace that they are likely to see for some years to come.
    Even as we work with allies and friends to meet the great challenge 
of advancing freedom and peace in the broader Middle East and North 
Africa, we will seize other important opportunities to build a world of 
peace and hope.
    We will work to strengthen the community of democracies, so that 
all free nations are equal to the work before us. We must do all we can 
to ensure that nations which make the hard choices and do the hard work 
to join the free world deliver on the high hopes of their citizens for 
a better life. In much of Africa and Latin America, we face the twin 
challenges of helping to bolster democratic ideals and institutions, 
and alleviating poverty. We will insist that leaders who are elected 
democratically have an obligation to govern democratically. We will 
work in partnership with developing nations to fight corruption, 
instill the rule of law, and create a culture of transparency that will 
attract the trade and investment crucial to poverty reduction.
    We seek $3 billion for the third year of the Millennium Challenge 
Corporation, our bold, growth-promoting approach to development, which 
helps countries that govern justly, adopt sound economic policies and 
invest in the welfare of their people. We also seek $2.4 billion in 
development, child survival and health assistance. This Budget exceeds 
the President's 2002 commitment for overall growth in core development 
assistance by requesting a total of $19.8 billion, $8.2 billion more 
than in 2002.
    We will help countries enhance their capabilities to protect their 
citizens from traffickers and terrorists.
    Our FY 2006 request includes $734.5 million for the Andean Counter 
Drug Initiative to consolidate gains made in recent years in 
eradication, interdiction and alternative development.
    We are requesting $5.8 billion in assistance to our partners in the 
global war on terror. And the FY 2005 supplemental proposes $750 
million to support our coalition partners, including those standing 
steadfastly with us in Afghanistan and Iraq.
    When they engage effectively, multilateral institutions can 
multiply the strength of freedom-loving nations. We are requesting 
nearly $1.2 billion for U.S. obligations to international 
organizations, including the United Nations, and a little over $1 
billion to pay projected U.S. assessments for U.N. peacekeeping 
missions. We are seeking $114 million to enhance the peacekeeping 
capabilities of non-U.N. forces, with a particular focus on Africa. The 
FY 2005 supplemental request seeks $780 million to fund the U.N.-
assessed costs of new and planned peacekeeping missions in the Ivory 
Coast, Haiti, Burundi, and Sudan/Darfur, and includes $55 million for a 
possible Sudan tribunal. In addition, the supplemental seeks $100 
million to support the North-South peace agreement and $242 million to 
address urgent humanitarian needs arising from the ongoing Darfur 
crisis.
    We have seen how states where chaos, corruption and cruelty reign 
can pose threats to their neighbors, to their regions, and to the 
entire world. And so we are working to strengthen international 
capacities to address conditions in failed, failing and post-conflict 
states. We know that this is an issue of special interest to you, Mr. 
Chairman, and President Bush already has charged us at the State 
Department with coordinating our nation's post-conflict and 
stabilization efforts. We are asking for $24 million for the new Office 
of the Coordinator for Reconstruction and Stabilization housed in the 
Department. The FY 2005 supplemental seeks $17 million for start-up and 
personnel costs for the Coordinator's Office. And the FY 2006 budget 
proposes a $100 million Conflict Response Fund to quickly address 
emerging needs and help deploy trained and experienced civilian 
personnel immediately to an unstable region. We appreciate your 
support, Mr. Chairman, and that of the Committee, for this funding and 
look forward to working with you closely on reconstruction and 
stabilization issues.
    The United States must stay at the forefront of the global fight 
against HIV/AIDS. We are requesting $3.2 billion in total U.S. funding 
for care, treatment and prevention efforts. We will demonstrate the 
compassion of the American people in other ways as well. Through our 
continued support of international and non-governmental organizations, 
we will ensure that America remains the world's most generous food and 
non-food humanitarian assistance provider. We are requesting $2.59 
billion in food aid and famine relief and non-food humanitarian 
assistance. The FY 2005 supplemental seeks $950 million for relief, 
rehabilitation and reconstruction of areas devastated by the Indian 
Ocean tsunami and for tsunami early warning and mitigation, including 
the $350 million initially pledged by President Bush. $701 million of 
the supplemental is for State and USAID, including for coverage of 
USAID's expenditures for relief efforts to date.
    In all of these endeavors, the primary instrument of American 
diplomacy will be the Department of State, and the dedicated men and 
women of its Foreign and Civil Services and Foreign Service Nationals. 
Together, we will apply the tools of diplomacy to protect our homeland 
and advance the values for which it stands and to strengthen the 
community of democracies for the work of freedom worldwide.
    I welcome this Committee's help in ensuring that the men and women 
of American diplomacy are well equipped for the challenges ahead in 
terms of training, technologies and safe workplaces. Secretary Powell 
and his team made important progress in these areas and we must build 
on the foundation they established.
    We are requesting $1.5 billion for security-related construction 
and physical security and rehabilitation of U.S. embassies and 
consulates, and $690 million to increase security for diplomatic 
personnel and facilities. We have a solemn obligation to protect the 
people of our diplomatic missions and their families, who serve at our 
far-flung posts in the face of an ever-changing global terrorist 
threat.
    We must strengthen the recruitment of new personnel. We are seeking 
$57 million for 221 new positions to meet core staffing and training 
requirements. And as we seek out new talent, we also seek to further 
diversify our workforce in the process. We send an important signal to 
the rest of the world about our values and what they mean in practice 
when we are represented abroad by people of all cultures, races, and 
religions. Of course, we also must cultivate the people we already have 
in place--by rewarding achievement, encouraging initiative, and 
offering a full range of training opportunities. That includes the 
training and support needed to make full use of new technologies and 
tools, and we are asking for $249 million from appropriations and fee 
revenues for investment in information technology.
    Public diplomacy will be a top priority for me, as I know it is for 
this Committee, and the FY 2006 request includes $328 million for 
activities to engage, inform and influence foreign publics. America and 
all free nations are facing a generational struggle against a new and 
deadly ideology of hatred. We must do a better job of reaching hard to 
reach populations, confronting hostile propaganda, dispelling dangerous 
myths, and proactively telling a positive story about America. In some 
cases, that may mean we need to do more of what we are already doing, 
and in other cases, it may mean we need new ways of doing business.
    If our public diplomacy efforts are to succeed, we cannot close 
ourselves off from the world. We are asking for $931 million to improve 
border security and for an increase of $74 million over FY 2005 for 
educational and cultural exchange programs, bringing the total to $430 
million in FY 2006. We will continue to work closely with the 
Department of Homeland Security to identify and prevent terrorists and 
other adversaries from doing harm, even as we maintain the fundamental 
openness that gives our democracy its dynamism and makes our country a 
beacon for international tourists, students, immigrants, and 
businesspeople. We will keep America's doors open and our borders 
secure.
    Mr. Chairman, Members of the Committee, this time of global 
transformation calls for transformational diplomacy. More than ever, 
America's diplomats will need to be active in spreading democracy, 
reducing poverty, fighting terror and doing our part to protect our 
homeland. And more than ever, we will need your support if we are to 
succeed in our vital mission for the American people.
    Thank you, Mr. Chairman. I would be pleased to answer any questions 
that you and the other distinguished Committee Members may have.

    The Chairman. Thank you very much, Secretary Rice, for that 
important statement.
    We will now proceed with a round of questions. The Chair 
would recognize that we have a number of Senators present; and 
so, we'll start with an 8-minute round, and I'll commence with 
the first questions.
    We're putting together, in the committee now, a Foreign 
Affairs authorization bill for early consideration on the 
floor. We'll have a business meeting shortly after the recess. 
As you may recall, in the past, the bill has met with 
difficulties and entanglements that had nothing to do with its 
contents. But how important is it to the Department that this 
legislation be passed? That is, an authorization bill. What 
would be the consequences if it were again deferred? And may I 
supplement the question by asking whether you are prepared to 
weigh in throughout the process of its consideration to 
emphasize the importance to our country and to our diplomacy of 
having this authorization.
    Secretary Rice. Thank you, Mr. Chairman.
    We need an authorization bill, and I think it's an 
opportunity to say important elements about our foreign policy. 
And not only will I look forward to weighing in, but I look 
forward working with the committee to try and achieve that 
goal.
    The Chairman. Well, I thank you for that assurance. It will 
be important, because I suspect that we will have, first of 
all, a problem, hopefully not insuperable, of getting time on 
the floor, and, second, of working with Members so that 
extraneous amendments are not offered or threatened, In the 
past 2 years, at least, such amendments have jeopardized 
consideration of the bill, and, on one occasion, led to it's 
being taken down after 3 days of debate. So we're looking 
forward to doing our work quickly so that there will be an 
ample amount of time for floor activity.
    Let me ask, with regard to the comments you made today on 
the Reconstruction and Stabilization Office, $17 million, you 
indicated, would come from supplemental requests, $24 million 
in the 2006 request, and then $100 million subsequently. 
Describe why you chose these sums and what kind of activity do 
you anticipate, in terms of personnel or organization.
    Secretary Rice. Thank you very much.
    First of all, let me say that I've spent a good deal of 
time on this office since I've been at the State Department, 
because I think it represents, for us, a recognition that there 
is a new function to be performed, and that is to have a 
civilian counterpart to what can actually, very often, be done 
very quickly by the military, which is the deployment of people 
and a plan for civilian reconstruction. So, I think this is an 
extremely important office. I might just note, too, that its 
director, Carlos Pascual, our former Ambassador to Ukraine, has 
just gone to do some consultations with some of our allies 
about this, and there is a lot of interest in whether or not 
these might be capabilities that could be around different 
parts of the world.
    We are asking for the $24 million to have a baseline for 
the office, its requirements--its personnel requirements. But, 
frankly, we need to get it started. And so, that's why in the 
supplemental, so that we can get to some level of funding, a 
little over 50 people we could get to some level of funding, 
we've requested the $17 million in startup costs, startup 
personnel costs.
    The $100 million conflict-response fund is recognition of 
the fact that there is the need, often, in times of crisis, to 
be able to use funding for unforeseen circumstances. I can name 
scores of them since we've been in office. But, for instance, 
Liberia, when it came on, I think could not have been foreseen 
that we were going to be able to get Charles Taylor out. When 
you think about what we may be facing in Sudan, should we get 
lucky enough and good enough in our diplomacy to get to the 
point that we're actually in a post-conflict stabilization 
point in Sudan, we would need to have some flexibility. So that 
is what we envision.
    The Chairman. I appreciate that explanation. As you know, 
our committee has been deeply interested in this subject. At 
one time it was called nation-building. But whatever the 
terminology may be, the fact is that many of us felt that, as 
we proceeded into Iraq, the planning for what you do after 
major combat was deficient. And you have taken steps at the 
Department, in conjunction with the Congress and the various 
task forces, and have done so quickly and administratively. We 
appreciate that. I wanted to offer the question so you would 
have an opportunity to illuminate further.
    Likewise, the flexibility you suggested is certainly 
imperative. In your testimony before us, earlier on, you 
endorsed the idea that the Nunn-Lugar Cooperative Threat 
Reduction funds might be available outside the former Soviet 
Union in greater abundance, because of unforeseen 
circumstances; namely, that our forces may come across 
chemical, biological, or even nuclear material and weapons in 
places other than the former Soviet Union, and that we need to 
act upon this. That's the nature of our diplomacy, as well as 
our military action.
    Let me ask about the Freedom Support Act assistance. That's 
diminished, in this request. It's true that Georgia has become 
a Millennium Challenge country, and, likewise, the 
administration's requesting $60 million for Ukraine in the 
supplemental. But why the cuts in the Freedom Support Act at 
this particular juncture?
    Secretary Rice. Well, first of all, Senator, let me--or, 
Mr. Chairman--let me say that it is--by no means, reflects any 
diminution in our interest in the continued democratization of 
the former states of the Soviet Union. There was a graduation 
schedule that was established at the time that the act was 
passed, and we're working within that graduation schedule.
    Fortunately, Georgia has become a Millennium Challenge 
Account country. We are looking very hard at the Russia 
programs, because, of course, things improve, and sometimes 
there are setbacks, and we--right now, on the Russia program, a 
significant part of the reduction is on the economic-reform 
side, but there are some reductions on the democracy-program 
side, too. And, frankly, I think we will have to take a look at 
that as we go over the next 6 months to a year to see what more 
we need to do. Obviously, it's been an unfortunate set of 
setbacks on the democracy side, and I can assure you that we 
will be looking at that. But mostly this is done in conjunction 
with the graduation schedule that was established at the time 
and that, I think, for the most part, has served us well.
    The Chairman. Well, your recent visit with your Russian 
counterpart was very important. And, of course, our President 
will be meeting with President Putin in Bratislava shortly. 
There is great concern in the Congress, and certainly you share 
it, with regard to democracy developments in Russia.
    Secretary Rice. Yes.
    The Chairman. I would hope that there would be flexibility 
in the event that, for some reason, better news comes along, or 
other opportunities, so that we will not be flatfooted at that 
point. I know you are thinking ahead on this. I raise the issue 
simply so that there could be some colloquy on the fact that 
there may be ways for us to work with Russian friends, and, 
likewise, to move ahead on an agenda that has foundered a bit.
    Secretary Rice. Yes.
    The Chairman. Finally, there's been a transfer to DOD of 
authority to conduct training for military and civilian police 
training in Iraq and Afghanistan. Why is that authority being 
shifted to DOD from the State Department?
    Secretary Rice. Well, Senator, in Iraq we're in a combat 
environment. It's a wartime environment. And the integration, 
then, of security forces made sense in Iraq, under a single 
training so that the tradeoffs can be made to fight the war--or 
to fight the terrorists there.
    In Afghanistan, we have, at this point, not transferred the 
civilian police functions to the Defense Department. We are in 
a different stage in Afghanistan, and I--we, in discussions 
between Don Rumsfeld and myself, thought that this was probably 
not the time to do that. Obviously, the training of the Afghan 
Army was transferred to DOD--again, because the Afghan Army 
fights as, really, a coalition partner in the war on terrorism.
    But it seems to us, in Iraq, where it really is an 
environment in which they are trying to use all of the security 
assets of the country, that having those under single training 
made sense. In Afghanistan, we've maintained the practice of 
the civilian police training being in the State Department at 
this point.
    The Chairman. Thank you.
    Senator Biden.
    Senator Biden. Thank you very much.
    There you go talking to Rumsfeld again. [Laughter.]
    Madam Secretary, I have a number of questions, and some of 
them are specific, and I don't expect you to have, at your 
fingertips, the answer to all these questions. And so, if you 
don't, just let me know and we will put them in the record. 
Okay?
    One very specific question I have is: The President's 
budget request--this is about nuclear test-monitoring devices--
the President's 2006 budget includes only $14.35 million to the 
International Monitoring System being established by the 
Comprehensive Test Ban Treaty Organization Preparatory 
Commission. The point of this is, that's 25 percent below the 
amount requested in 2005, and 30 percent below what's needed in 
2006.
    Now, your budget justification calls this, quote, ``a key 
element in our global effort against the proliferation of 
nuclear weapons, an important supplement to U.S. monitoring 
capabilities.''
    So my question is: Why are we cutting it? We're not talking 
about a lot of money here. If you don't know, fair enough, let 
me know.
    Secretary Rice. I will have to get back to you, Senator.
    Senator Biden. Okay.
    Secretary Rice. I assume it has to do with specific 
activities that are to be funded, but let me get back to you.
    Senator Biden. I would very much like to know that----
    Secretary Rice. Of course.
    Senator Biden [continuing]. Because I think the budget 
statement attached is absolutely right. And, you know, if the 
Lord Almighty could come down and say he's going to put his own 
tsunami system in, as it relates to nuclear weapons, and be 
able to detect any nuclear blast anywhere underground or 
aboveground in the world, that would be a very good thing for 
us to know and have, and it's something that we've all talked 
about before, so I'd be interested in the rationale for that.
    I never want to get in an argument with you, because it's 
hard to win one, but I want to talk about force training for 
just a second. Not going back to numbers, but last month we had 
a little discussion about that. There's been a lot of 
discussion since then. And no need to rehash that debate. But I 
note, earlier this week, the President's supplemental asked for 
$5.7 billion to train Iraqi forces, quote, ``to accelerate 
efforts to provide assistance to Iraq's security forces so they 
can increasingly assume responsibility for the nation's 
security,'' end of quote.
    Now, this comes on top of $5 billion that we allocated to 
security and law enforcement in FY04. That's out of that 
supplemental of $18.4 billion that we haven't spent yet.
    Now, the supplemental request continues to say, quote, 
``The Iraq interim and transitional government, with coalition 
assistance, has fielded over 90 battalions in order to provide 
security within Iraq. All but one of these battalions, however, 
are lightly equipped and armed and have very limited mobility 
and sustainment capability. These limitations, coupled with the 
more resilient insurgency than anticipated when the Iraqi 
security forces were initially designed, have led the Prime 
Minister of Iraq to request forces that can participate in''--
and a quote within a quote--`` `the hard end' ''--end of 
internal quote--``of the counterinsurgency, and to do so 
quickly.''
    Now, suffice it to say, by requesting another $5.7 billion 
the administration is, I assume, with your cooperation and 
others, that--listening to General Petraeus, who is 
reorganizing and essentially altering the way we're going about 
dealing with the training of a security force. And, as you know 
from General Petraeus, there's a long way to go. I mean, we can 
do it, but there's a lot of hard slogging.
    Now, I want to combine that with the question that has 
become--and it's literally a question; I don't know the answer 
to it--a lot of Senators were in Davos last month, a lot of us 
heard the same thing, a lot of us have been in and out of 
Europe and the Middle East in December and January. I've made a 
total of three trips. And we've been told repeatedly--not just 
me, but many of my Republican colleagues--by many foreign 
leaders and their governments, that they've made offers to 
train. Chirac, when we met with him 2 weeks ago, he's very 
regal, and he's very diplomatic, and he talked about how he 
wanted to show me--I didn't demand of him to show it; I would 
never demand of a President anything--the proposal he had to 
train 1,500 Iraqi officers, and had been made 6 months ago, 
and, mon dieu, he does not understand why, no one has 
responded, et cetera. I take him at his word that he submitted 
it. I don't know who he submitted it to.
    So here's my question: We're going to spend, as we should--
I'm not contesting the number--over $10 billion from the FY05, 
which we haven't spent out yet, the $5 billion, to the FY06 
request for 5.7--the supplemental request. So we're talking 
over $10 billion, which indicates we recognize there's a lot of 
work to do to train.
    Now, I don't expect you to have this information, but I 
would like you--obviously, respond if you'd like--for the 
record, could you provide us a comprehensive list of the 
countries that actually have made an offer--that you're aware 
of--to assist in training Iraqi security forces--police, army, 
national guard, any security forces--a description of the 
specific offers they have made, when the offers were made, and 
what your response has been and will likely be?
    I'm prepared to vote another $5.7 billion for that, but I'd 
like to know the context in which I'm--not ``I am,'' but I, one 
of a hundred am--appropriating the money for that purpose. So 
it would be a very helpful thing if you--I mean, amazing if you 
knew it now; I can't imagine how you would--let me know; if 
not, would you be willing to submit that for the record?
    Secretary Rice. I will try and submit that for the record.
    Let me just explain why there is sometimes the question of 
offer versus offer----
    Senator Biden. Yes.
    Secretary Rice [continuing]. Whether there was an offer. I 
also was just in Europe, as you know, and I talked to--almost 
to everybody about this issue. We had a NATO ministerial where 
we talked about training for the Iraqi security forces, police, 
and army forces as perhaps the most important thing that we 
could do for the Iraqi people at this point. And, of course, 
NATO is going to have, or has, a training mission, but it's 
principally for leadership training.
    There is a question of what training goes on inside Iraq, 
what training goes on outside Iraq, and then NATO has come up 
with a concept of perhaps a trust fund that could fund people 
who are training inside Iraq, but perhaps fund it by those who 
really don't feel that they can send forces in.
    Senator Biden. Right.
    Secretary Rice. And so, sometimes there is a bit of a 
mismatch between what is needed in the overall plan for 
security forces and the kinds of offers that you get to do 
training inside or outside Iraq. And what we're trying to do--
and I have to say, a lot of this, of course, depends on how the 
Iraqis see it, because it's not just been responding to General 
Petraeus; it's also been responding to the interim government, 
that----
    Senator Biden. Right.
    Secretary Rice [continuing]. Has had its own ideas about 
security training--is just to, in almost matrix-like fashion, 
take what has been offered, what is needed, and put it together 
into a security assistance plan that makes sense. And we 
started that work. NATO is a very good venue for that, at least 
for the European allies.
    But I can get you what has been offered. For instance, some 
of it was offered directly to the Iraqi Government, that has 
not always had the capacity to respond, given that they've been 
a little overwhelmed doing other things. And so, we will pull 
it together for you, Senator.
    Senator Biden. Great.
    Secretary Rice. But I just think we need to understand that 
sometimes there's an ill fit between what is offered and what 
is needed. But we believe that everything that is offered can 
ultimately be used.
    Senator Biden. Well, I close, Mr. Chairman by saying: I 
would argue that's one of the reasons why a contact group, or 
something like it, might be a good idea, number one. And, 
number two, one of the things that I get mixed messages on, and 
my colleagues have all been there, is, What is the plan?
    I'll close with a quick example. I was joking with 
Petraeus. I said, ``Wouldn't it help if the Germans were 
offering to train out of country''? Go out and identify over 
the next 4 months, or 2 months, whatever it takes, the most 
competent mid-level Iraqi officers who were part of the Iraqi 
military force--obviously, all Ba'athist, but we used Nazis, we 
used a lot of people in the nations we defeated--and have them 
fly down in a 747, put 500 of them on a plane--literally, not 
figuratively--send them into Germany for 6 months of training. 
He said, ``That would be a good idea.'' Said that to Allawi; he 
said, ``That would be a great idea.''
    So I don't know what our plan is. So the combination of the 
two points would be helpful. And I would suggest that maybe 
this notion of a contact group, or whatever you want to call 
it, might be a facilitating mechanism.
    I'll come back with other questions. Thank you, Mr. 
Chairman, for letting me go over.
    Thank you, Madam Secretary.
    The Chairman. Well, thank you very much, Senator Biden.
    Let me just supplement Senator Biden's request by the 
thought that is sometimes expressed that the training needs to 
occur in Iraq, that the continuity or the formation of support 
with our troops, who are literally living with some of the 
Iraqi recruits, are important, and that conducting this process 
somewhere outside the country doesn't work so well. I don't 
want to get into that argument. I've heard it. But it's an 
important part of this debate, because essentially a lot of the 
training is being offered outside of the country. So we need to 
evaluate. Does it work the same if it is inside the country? 
And, as a matter of fact, how important is it that it occur in 
one place or the other?
    Senator Biden. We need an official policy statement, to us, 
as to whether you value it inside or out. You know, I talk to 
the folks in the ground there, and my friend from Minneapolis 
was there recently--you talk to them, they say, ``No, we'll 
take it outside''----
    Secretary Rice. Yes.
    Senator Biden [continuing]. ``As well as in.'' So we'd like 
to know that.
    Secretary Rice. Of course. We are, by the way, encouraging 
people to do it outside, if that's all they can do. It's not 
necessarily, of course, one for one. If you're willing to do it 
inside, it fits a little better.
    The Chairman. Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you.
    And welcome home, Madam Secretary. I would add my thanks to 
your efforts, which is appearing, more and more, that they, in 
fact, made a difference. We know--you know better than most--
that there's now a great deal of follow-through. I think with 
the President going to Europe here over the next few days, 
following on your trip, as well as Secretary Rumsfeld's trip, 
that adds to the dimension here that is reflected in your 
testimony this morning, as it was reflected in your initial 
testimony before this committee. So thank you for your efforts.
    And I also noted that Secretary Rumsfeld even reached out 
to Old Europe, which we're all grateful for. So there's a--I 
wouldn't necessarily term it a ``jolly'' spirit, but certainly 
an improved spirit environment from where we were a year ago. 
And I think we build on that to deal with these great 
challenges that you have dealt with here this morning and as 
you are referencing in your budget request.
    I think, generally, it's a good budget, makes a lot of 
sense. You're building on, as you noted, to what Secretary 
Powell has been able to accomplish in the last 4 years. There's 
been a remarkable reversal in the trend and momentum, and you 
are going to be able to capitalize on that and build on that, 
as well. So, thank you.
    You noted in your testimony, when you referenced the 
potential that we have in the Middle East--specifically, 
Israeli-Palestinian developments--that the President has 
announced an additional $350 million to help the Palestinians 
build infrastructure and sustain the reform process over the 
next 2 years. And I appreciate you reaching out to this 
committee, when you noted that you would be interested in 
having our input, as well.
    Now, based on that, a couple of questions. Have you thought 
through how you would use private involvement, private 
investment in this? And I'm particularly interested in 
thinking--all of these experiences are learning processes and 
experiences. I have been very critical of the slow economic 
development in Iraq. We made some big mistakes there. We were 
thrust into a situation that I don't think we planned for very 
well or anticipated. However, that aside, that behind us, we 
should have learned something from what we didn't do in Iraq 
over the last year, especially the last two, and that was: Get 
that economic development down into the areas where the real 
people are that can develop confidence and support for a 
government--demonstration projects, hospitals, schools. And I 
think it's critically important that the Israeli-Palestinian 
Arab world, private sector, be engaged in that.
    Could you define that a little bit and tell us what your 
thoughts are that would supplement this $350 million that the 
President's asked for, which I strongly support?
    Secretary Rice. Well, it's a very good point, Senator. Now, 
obviously, one of the problems is to get the--as you're moving 
toward greater stability so that, in fact, foreign investment 
can be attracted--I had conversations with the Israelis, 
including with Deputy Minister Peres, who is overseeing a lot 
of this, about the Gaza withdrawal and economic development. 
And this is very much on his mind, too: Can we get private-
sector initiatives to come in? I think that what we should do--
right now we're focused on short-acting USAID kinds of projects 
that can show immediate impact for the people of the Gaza as 
the Israeli withdrawal goes forward. We're concentrating on 
projects that can ease movement for the Palestinians so that 
they can work. For instance, some joint work on checkpoints 
that would be done, about $50 million, that we're calling 
Building Bridges, which really is the Freedom of Movement 
Initiative. But, ultimately, this is an area which once, in 
parts of the Palestinian territories, at least, did have 
private-sector activity of considerable strength.
    And what I would like to do is to look at some of the 
mechanisms that we use for the stimulation of private-sector 
engagement--whether they're U.S. Government's--or to simply 
send a message that private-sector engagement and private-
sector investment in this region is going to be extremely 
important.
    I think it's something that the Palestinians understand. 
It's going to require, on their part, some greater--as they're 
trying to do now--some greater transparency, some work on the 
corruption front so that there isn't a kind of tax that is 
inappropriate.
    I think if they do their reform initiatives on corruption, 
on transparency, on budget transparency, and on rule of law, 
and if we do our work to make some quick-acting efforts on 
behalf, particularly, of the Gaza, that will open up a lane for 
private investment in the medium term, which we should not just 
encourage, but we should see if there are ways that some of the 
vehicles that we use in the United States to encourage 
private--in the U.S. Government to encourage private-sector 
investment can be used here.
    Senator Hagel. Structurally, you're planning for that? I 
noted that you were framing this thing in a way to take 
advantage of those options and openings, if they develop.
    Secretary Rice. That's right. I should also note that one 
of the things that we did with the Egyptians and the Israelis, 
of course, these qualified industrial zones, which permit 
special kinds of arrangements where, in fact, there could be 
private investment. We've talked about whether or not we can 
look to--look at some of these other areas so that the trade 
environment is one that also encourages growth and then 
private-sector investment.
    The near-term problem, I think, though, is to do something 
about the Palestinian rule of law and transparency and 
corruption initiatives, because, without that, I think you're 
going to choke off private investment, even if you are 
encouraging it. But, as a medium-term measure, I couldn't agree 
more that we need to structure this in a way in which there is 
room for private investment.
    Senator Hagel. Thank you.
    Let me get your sense of what happened in Beirut a few days 
ago. We all agree, a very destabilizing and very, very tragic 
situation. What is your sense of what happened? What are we 
doing in regard to consultation with allies? How are we trying 
to head off any further attacks, whatever we can find out--who 
was behind it? What are we doing? Is this going to shape 
relationships now in the future differently with Syria? 
Obviously, the President has recalled our Ambassador. Tell us 
what you can about that situation.
    Secretary Rice. Of course. First, to say that the most 
important call is for an investigation of what has happened 
there. We don't know what the responsibility is. Nonetheless, 
the--as to Resolution 1559 noted, the Syrian presence and the 
Syrian involvement in Lebanese affairs has, of course, created 
a destabilized environment in Lebanon. And that's why there has 
been a call for the Syrians to stop that interference and to 
remove their forces, because it is a destabilizing environment 
in what is a developing democratic process in Lebanon.
    We have said that it really ought to be--if you take Iraq, 
Afghanistan, and the Palestinian territories--the fourth 
democratic election in the Middle East.
    We are in very close contact. We had a President's 
statement yesterday at the United Nations that calls for an 
investigation, calls for calm. We've been in close consultation 
with our allies. I, myself, talked with my French counterpart. 
The French--we and the French were the cosponsors of 1559, and 
we are trying to achieve, first of all, calm in the region--
that's very important, that people react calmly, and that there 
not be further violence; second, that there be an investigation 
of what happened there, and a transparent investigation of what 
happened there; and, third, that the Syrians accept their 
responsibilities, under Resolution 1559, to stop their 
destabilizing activities in the region.
    Senator Hagel. Thank you.
    Mr. Chairman.
    The Chairman. Thank you very much, Senator Hagel.
    Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman.
    And thank you, Madam Secretary, for coming before the 
committee.
    I just want to follow up on your exchange with Senator 
Biden and also some of the conversations we had during your 
confirmation, and underscore how strongly I feel, and many of 
my colleagues feel, about the need to bolster burden-sharing in 
Iraq and to welcome the help that others have offered when it 
comes to training Iraqi security forces. I was struck by how 
this subject just kept coming up again and again yesterday in 
the various meetings we were having with different officials, 
both from our country and from overseas. I and many others feel 
a great deal of urgency about this.
    One other matter I want to mention. It seems to me that one 
often-overlooked element of the long-term fight against 
terrorism is more focused and energetic commitment to fighting 
corruption. Whether it's the fact that radical Islamist parties 
in Southeast Asia and North Africa try to attract support, in 
part, because they tap into populist sentiments about wanting 
more honest, though they may say virtuous, and less corrupt, 
though they may say decadent, governments; or the fact that 
paying off customs officials and local law enforcement officers 
makes it possible for terrorists to cross borders and then plan 
and execute operations, it's clear that a thriving culture of 
corruption works to the advantage of those who would do us 
harm.
    How should the U.S. Government address this issue in our 
foreign policy? And how is this important priority reflected in 
this budget?
    Secretary Rice. Well, the anticorruption initiatives are 
extremely important. You might note that in many of the USAID 
programs, there are--many of the countries with which USAID 
deals, we actually have anticorruption initiatives with these 
countries, because corruption is, first, in attacks on 
development, as I think the World Bank has said. It is also an 
important element of danger, as you have noted. The same 
corrupt practices that can lead to drug-running or human 
trafficking can also lead to terrorism, because it's problems 
with corrupt judges or corrupt border officials or corrupt 
police. And so, it has been a major element.
    I would note, for instance, that it is one of the key 
indicators that we look to when we're looking for Millennium 
Challenge Account funding for a country, is how well they are 
doing on corruption.
    We've had anticorruption initiatives that are not just 
bilateral U.S. anticorruption initiatives, as well. A couple of 
years ago, the G8 had anticorruption initiatives. We've had 
anticorruption initiatives in APEC. We want this to be a major 
element of our multilateral diplomacy, as well as of our 
bilateral diplomacy.
    So, I would note that if you look at the MCA as a kind of 
bellwether for how we view the corruption element, it is a key 
element in corruption, but there are also anticorruption 
activities with countries that will not qualify for the MCA.
    One of the countries we've been most interested in working 
with in that regard, we have a major effort with Nigeria, for 
instance, where they have a new finance minister, who's trying 
very hard on the anticorruption side.
    I think you would find anticorruption initiatives embedded 
in almost all of our bilateral diplomacy. And sometimes we have 
great successes. Georgia was considered one of the most 
vulnerable to corruption just 3 or so years ago, and now is an 
MCA country, because of the progress that it's made on 
corruption.
    Senator Feingold. I appreciate that answer and the general 
commitment that you've stated, and I will look to the places 
you've cited. I will note, for example, that, in the 
International Narcotics Control and Law Enforcement request, 
INL, that there's an over--there's over a 50-percent reduction 
in funds requested for anticorruption programs from last year 
to this year. And when you start talking about countries like 
Nigeria, it makes me wonder a little bit.
    But let me ask you a different question. I share the 
President's enthusiasm for supporting democratization around 
the world, though sometimes I disagree with the administration 
about the most effective ways to do it. Having served on the 
Subcommittee on African Affairs for over 12 years now, I'm 
interested in how this principle applies to Africa. How does 
the administration propose to support democratization in 
Zimbabwe? How about Uganda or Chad--where serving presidents 
are in various stages of pursuing constitutional changes that 
will enable them to serve for a third term, which many of us 
believe is not a great idea? And in Rwanda, where the 
government has grown increasingly intolerant of dissent, how do 
the President's words, and the administration's concern, about 
democratization relate to these countries and the populations 
that heard those words?
    Secretary Rice. Well, the most important thing that we can 
do is, we make it an agenda item with each and every country in 
the world, and we make clear that, no matter what elements of 
cooperation we may have on other issues--for instance, we have 
very good cooperation with Uganda, as you know, on HIV/AIDS, 
but it is--does not mean that the political development of 
Uganda toward a more open political system is unimportant to 
us. In fact, it's very important to us. Similarly, in Rwanda, 
even though we have very good relations with Rwandan 
Government, they've served in--their forces have been willing 
to serve in places where they were needed--we have been very 
clear that we expect the movement toward the democratic 
processes and establishment of democratic institutions to 
continue.
    So, in places where we have good relations on other areas, 
the importance is not to let it supplant the need for continued 
pressing on the democracy agenda.
    In places where we don't, like Zimbabwe, I think we've been 
pretty strong on Zimbabwe. I think so much so that we've caused 
some outbursts from President Mugabe about both the President 
and about me. But I think we should continue, and we will 
continue. We need help on Zimbabwe from the Commonwealth, where 
they were suspended from membership. We need help on Zimbabwe 
from the South Africans, who have a good deal of influence 
there. And it is--the Zimbabwe situation is, therefore, part of 
our bilateral diplomacy with other countries, particularly with 
South Africa, but also the members of the Commonwealth.
    So, you can be assured, Senator, that this is very high on 
our agenda, because we believe that in Africa, just like every 
place else, the accountable government, transparent government, 
democratic principles, and democratic institutions contribute 
to stability and contribute to better governance. And, finally, 
when we--again, when we set up a program of development 
assistance, like the MCA, this is one of the criteria that we 
use.
    Senator Feingold. Thank you. I appreciate your fairly 
strong comments on Zimbabwe. I'd submit it doesn't take much to 
get Mr. Mugabe to have an outburst, so that shouldn't be the 
test, as I know you know.
    Secretary Rice. I agree.
    Senator Feingold. So I hope that the administration will 
continue to look for opportunities and seek my help and the 
help of others on the committee to be very firm in that regard.
    The last question I'll ask has to do with the fact that the 
$82 billion supplemental appropriations request that was sent 
to Congress contains a request for $4.8 million for additional 
broadcasts into the broader Middle East. And I would be curious 
to know how you feel we should evaluate the efficacy of our 
broadcasting initiatives, because more money is being put into 
it. And I'm wondering if there is a good way to monitor the 
value and the effectiveness of this.
    Secretary Rice. Well, one of the things that the 
Broadcasting Board is going to do is to set up--they intend to 
be able to do more, for lack of a better word, market research 
and market segmentation research, which, I think, will help us 
to know what is really happening. And that's part of this 
request. They will have more effort in that way.
    But the efficacy of these programs, I think, should not 
just be measured in how many people you're reaching, although 
that's an important part of it. But if I go back to my 
experience as a Soviet specialist during the cold war, it was 
probably Radio Free Europe and Voice of America that did as 
much, if not more, for our efforts there than many of the other 
things that we did when we couldn't reach these populations in 
any other way. And if you look at Radio Sawa or Radio Farda or 
the desire to have Persian-language broadcasting or the--what 
is really a capital expenditure for a tower that will allow 
broadcasting into places in Central Asia where democracy is not 
on the march, and ought to be, I would hope that we would be 
able to evaluate these programs, in terms of who they're 
reaching and comments that you get, but also to recognize that 
this is a long-term struggle, and that, very often, you're 
reaching people who may not even be willing to say to you, 
``I'm being reached,'' given the environments in which they 
live.
    I'm a very big supporter of our international broadcasting 
efforts. I think we ought to be looking at what more we can do, 
because this has been a winner for us in the past. It's not 
just broadcasting. We also ought to be exploring new media, 
what we can do through the Internet and the like. But I think 
this is a very big winner for us.
    Senator Feingold. Thank you, Madam Secretary.
    The Chairman. Thank you very much, Senator Feingold.
    At this moment, I will call the committee into a business 
session. Now that a quorum is present, I would call members' 
attention to the agenda. The hearing is now recessed, to 
reconvene shortly at the conclusion of the business meeting. 
For the interest of our audience, this should take just a 
moment.
    The sole item on the agenda today is the nomination of 
Robert B. Zoellick to be Deputy Secretary of State. Senator 
Biden, do you have a further comment, or----
    Senator Biden. I only have one comment. I'd like the record 
to show that Democrats are here and ready to vote. [Laughter.]
    So, we're really here, Madam Secretary, and we're ready to 
vote.
    The Chairman. I thank the distinguished ranking member. 
[Laughter.]
    Is there further debate?
    [No response.]
    The Chairman. Hearing none, I ask the nomination be 
approved. All in favor, say aye.
    [A chorus of ayes.]
    The Chairman. Opposed, no.
    [No response.]
    The Chairman. The clerk will record that all present voted 
aye, and we will send the nomination to the floor for 
consideration of our colleagues.
    Senator Biden. Mr. Chairman, I would ask the record be kept 
open for those who wish--not to hold up going to the floor, but 
those who wish to vote, unless you--if you have the proxies, 
that they be recorded, as well, that everybody has an 
opportunity to vote.
    The Chairman. The point is well taken. And I do have 
proxies in favor of Ambassador Zoellick, from Senator Hagel, 
Senator Sununu, Senator Allen, Senator Alexander. And if others 
wish to vote, they'll have that opportunity, and----
    Senator Biden. Thank you very much.
    The Chairman [continuing]. Within the business day.
    Senator Biden. Thank you.
    The Chairman. I thank the ranking member. I thank the 
indulgence of the Secretary. This concludes the business 
meeting. I now call to order the hearing.
    Senator Chafee.
    Senator Chafee. Thank you, Mr. Chairman.
    Welcome, Dr. Rice.
    Secretary Rice. Thank you.
    Senator Chafee. I see in the budget we're budgeting $734\1/
2\ million for the Andean Counter-Drug Initiative, and I'm 
wondering how we're doing on the war on drugs, and not only in 
the Andean area, but also Afghanistan and other areas.
    Secretary Rice. Thank you.
    In the Andean area, I think we can cite progress from the 
really foresightful way that the Andean Initiative was put 
together, because it was put together, yes, as an eradication 
initiative, but it was also put together in a way that was 
regional, so that there was an understanding that if you 
succeeded in one place, you didn't want a drug infestation in 
another. And so, this regional approach has been very 
effective.
    It is a broad-scale initiative. And, given Colombia's 
circumstances, in particular, one where we're now partnering 
with a government that has gotten even tougher--very, very 
tough on narco-trafficking through its efforts with the FARC, 
the Andean Initiative has, I think, succeeded, and we just need 
to continue to succeed, because, of course, what happens is 
that it's--you're never completely through with this kind of 
initiative. It breaks out in other places. But, I think, you 
can say that the Andean Initiative has been a great success. 
And if you talk to the Peruvians or to the Colombians or to the 
Bolivians, for that matter, I think you will find that.
    We're just starting in Afghanistan, and it is, frankly, one 
of the most difficult and challenging problems, because, while 
we are making a lot of progress in Afghanistan on--since the 
election of Karzai, the economy is making some progress, 
they're making some progress in the--getting the warlords out 
of business. A lot of progress has been made in Afghanistan. I 
don't think that anyone will tell you that we're satisfied with 
the state of counternarcotics in Afghanistan, where the numbers 
have been going up.
    We have a five-pronged strategy with the Karzai government 
to deal with counternarcotics there. It is a strategy that the 
British have been in the lead in, but we're taking a much more 
active role now. We've talked to the Russians about their 
involvement, perhaps, in counternarcotics, because this is a 
scourge that is hurting very much in Europe. It appears on the 
streets in Europe.
    The five parts of it include, not just eradication, as 
important as eradication is, and not just alternative 
livelihoods, as important as alternative livelihoods are, but 
also helping the Afghans with the law-enforcement side having 
to deal with counternarcotics, training their police to be 
counternarcotics police. Karzai has put in place a Minister who 
is to oversee the entire counternarcotics effort. And it turned 
out that there needed to be a significant public affairs 
campaign in Afghanistan to delegitimize the growing of poppy in 
this country that has been at civil war and has, therefore, 
been doing this for quit a long time.
    So I would say, Senator, that the lesson of the Andean 
Initiative is that if you fund it properly, stay with it, 
regionalize it, and get good, strong support from the 
governments, you have a chance of success. Afghanistan is at 
the beginning of that process, but we're going to have to have 
the same kind of commitment to Afghanistan that we've had in 
the Andean region.
    Senator Chafee. Thank you.
    One of the curious things in Bolivia, of course, is the 
rise of the political party of the coca growers. And so, as we 
promote democracy, that's a phenomenon that exists----
    Secretary Rice. It's a----
    Senator Chafee [continuing]. In Bolivia.
    Secretary Rice. It's----
    Senator Chafee. They have a--actual political party that's 
very successful.
    Secretary Rice. We're very concerned about that party, 
we're very concerned about the challenges to the president 
there. We're concerned about--I won't name any names of the--of 
our concerns there, but--because it's a democratic process--
but, obviously, efforts to stabilize Bolivia--we had an 
initiative last year on trying to do some things, in terms of 
economic development to try and help the Bolivians.
    Senator Chafee. Thank you.
    Switching back to the Middle East and Senator Hagel's 
questions on the horrific bombing in Lebanon and our decision 
to recall our Ambassador, on the surface it seems--prior to any 
proof, what's the symbolism of that action?
    Secretary Rice. Well, we have been very clear that we don't 
know the--who is responsible for the bombing, but that there 
needs to be an international investigation of that. But the 
Syrians, given their position in Lebanon, given their 
interference in Lebanese affairs, given the fact that their 
forces are there, given the terrorists that operate in southern 
Lebanon, with Syrian forces in close proximity to them, does 
put on the Syrians a special responsibility for the kind of 
destabilization that happened there, in that this sort of thing 
could happen. That's why recalling the Syrian Ambassador made 
sense. It also is the culmination of a long series of problems 
with the Syrians, including ineffective or incomplete efforts 
to deal with the fact that Syrian territory is contributing to 
the insurgency in Iraq.
    And Deputy Secretary Armitage, before he left office, went 
to Syria. He delivered a very strong message to the Syrians 
about this problem of insurgents operating out of Syria. We, 
frankly, did not get much in the way of help. And the Syrians 
need to understand that the United States is very serious about 
activities out of Syria that may be endangering our forces.
    And so, this--the proximate cause was Lebanon, but, 
unfortunately, we have an increasing list of problems with the 
Syrians.
    Senator Chafee. And how long do you expect this to occur, 
having our Ambassador not in place?
    Secretary Rice. It's indeterminate at this point, Senator, 
but we will make known that there are some steps that we would 
like to see taken. But I would not want to get into a situation 
in which we've said, ``Do this, and then we will return the 
Ambassador.'' I think we will have to see how seriously the 
Syrians take this signal.
    Senator Chafee. And are there actions beyond that in 
regards to Embassy and its presence there, or is it just the 
symbolism of our lead----
    Secretary Rice. Well----
    Senator Chafee [continuing]. Diplomat that--being 
withdrawn?
    Secretary Rice. I don't believe, at this point, that we 
need to contemplate any further actions, in terms of the 
Embassy. It's a very strong signal to return one's Ambassador, 
as you know, Senator. As I described for the chairman, we are 
also doing some other things, in terms of the United Nations, 
in terms of our diplomacy with the French, out of Resolution 
1559, to try and get the Syrians to live up to their 
obligations.
    Senator Chafee. Thank you, Dr. Rice.
    Secretary Rice. Thank you.
    The Chairman. Thank you very much, Senator Chafee.
    Senator Sarbanes.
    Senator Sarbanes. Thank you very much, Mr. Chairman.
    Madam Secretary, I want to join my colleagues in welcoming 
you before the committee. I think this is your first hearing 
with us since your confirmation. We look forward to many more.
    I have some very specific questions I'd like to put to you. 
The budget request from the administration reduces the amount 
for UNICEF by $11 million from what was appropriated last year, 
down from $125 million to $114 million. Now, this strikes me as 
coming at an especially odd moment, as your former colleague in 
government and former Cabinet member, Secretary of Agriculture 
Ann Veneman, is about to assume the position of executive 
director of UNICEF on May 2. So I'm curious, What's the 
rationale behind the proposed cut? And it's not exactly the 
best launching pad for the new executive director, who has come 
out of this administration and into the UNICEF position.
    Secretary Rice. I understand, Senator. There isn't intended 
to be, here, any diminution of our support for UNICEF. I will 
check. It may be this was, in fact, what the President 
requested last year. Is that--one of the--let me get you an 
answer on this one, Senator. I'll----
    Senator Sarbanes. I think----
    Secretary Rice [continuing]. Have to get the specific----
    Senator Sarbanes [continuing]. I think this figure is even 
less than the President requested last year, and it's almost 10 
percent less than what the Congress provided.
    Secretary Rice. Senator, we'll----
    Senator Sarbanes. If you were going to be the executive 
director at UNICEF, you wouldn't feel this was a very good 
sendoff into your new position, would you?
    Secretary Rice. Well, Senator, Ann Veneman is a terrific 
choice, and she's a good friend. I will check to see on what 
basis this was made.
    Let me just say that we are operating in an environment, a 
budget environment, in which we----
    Senator Sarbanes. Now, I want to----
    Secretary Rice [continuing]. Have done----
    Senator Sarbanes [continuing]. Want to----
    Secretary Rice [continuing]. Very well.
    Senator Sarbanes [continuing]. I want to pursue that budget 
environment. You've led me right on into my next question, and 
I appreciate that very much. I'm concerned by the lack of 
priority for the needs of children, which extends beyond UNICEF 
to the entire budget for child survival. The overall account 
for child survival and health is cut from $1.54 billion to 
$1.25 billion, a total cut of $286 million. Even when you count 
the $170 million that was transferred from child survival to 
global AIDS--because we're trying to compare apples to apples, 
and I'm trying to anticipate the response that says, well, we 
shifted some of that money somewhere else in order to roughly 
accomplish the same purposes--we still get a cut of about 8 
percent in child survival and maternal health, a 30-percent cut 
in other infectious diseases, and I can go on through a number 
of others.
    Now, is the justification for these that you have a tight 
budget and you have to make these cuts?
    Secretary Rice. Senator, I think, in a tight budget 
environment, we've done really very well. I think that the 
President's budget for the State Department accounts represents 
a recognition of how important the diplomatic initiatives are, 
how important our work is in support of the war on terrorism, 
how important our work is in support of the compassion agenda. 
My understanding of this particular case is that, in addition 
to the point that you've made about the $171 million that was 
transferred to the global AIDS account for focus countries, 
that this is essentially what the President requested in fiscal 
year 2005, and that this is what the administration believes is 
needed in those accounts. I understand that there was a plus-up 
in that account in 2005.
    Senator Sarbanes. Well, let me pursue this a little bit. 
The administration, when it put forth the Millennium Challenge 
Account, argued quite strongly that it would not come at the 
expense of core development and humanitarian programs. Now, I'm 
being told this morning, ``Well, we have a tight budget. We 
have to pull back.'' We have to constrain our commitment to 
these well-established and, I think, by and large, effective 
programs, yet the budget proposes an increase for the 
Millennium Challenge Account from $1.5 billion to $3 billion. 
That's a $1\1/2\-billion increase. The cuts I've been talking 
about are in the tens of millions, or maybe in the hundreds of 
millions in certain instances.
    Now, I've supported the Millennium Challenge Account, but I 
just want to make this observation. There's been $2.5 billion 
appropriated for the Millennium Challenge Account thus far. 
You're asking for $3 billion in this budget; $2.5 billion has 
been appropriated over a 2-year period--$1 billion in FY04, 
$1\1/2\ billion in FY05. And my understanding is that not a 
single dime of that has moved out to provide assistance to 
countries.
    Now, if that's the case, why are we plussing-up the 
Millennium Challenge Account by quite a substantial margin at 
the expense of some of these core humanitarian and development 
programs which deal with some of the most vulnerable 
populations?
    Secretary Rice. Shall I respond, Senator? Thank you.
    Well, first of all, again, on the child survival and health 
programs, the request is almost straight-lined from what the 
President had requested before. The Millennium Challenge 
Account--the Millennium Challenge Corporation is a very, very 
high Presidential priority for three reasons. First of all, 
because it----
    Senator Sarbanes. I'm not contesting the Millennium 
Challenge Account. I'm simply asking--you have $2\1/2\ billion 
that has been appropriated, none of which has moved out of the 
pipeline. Two and one-half billion dollars. And now you're 
coming in and requesting a jump to $3 billion--from $1\1/2\ 
billion last year to $3 billion this year. Three billion 
dollars. Another $1\1/2\ billion for an account that already 
has $2\1/2\ billion unspent. You're going to add 3 to it. 
You're going to go to $5.5 billion, and no money has been spent 
from that account. And yet you're cutting these other core 
humanitarian and development programs. What is the rationale 
for that?
    Secretary Rice. Well, Senator, we're not cutting the other 
programs, we're requesting what we requested----
    Senator Sarbanes. Well, I----
    Secretary Rice [continuing]. Last year.
    Senator Sarbanes [continuing]. I mean, we----
    Secretary Rice. But----
    Senator Sarbanes [continuing]. I mean, I can show it to 
you. I mean, we'll have to differ on that, but I think we can--
--
    Secretary Rice. I'm looking at it, Senator, and I think the 
request is similar to what we requested in 2005.
    But let me answer the question about the Millennium 
Challenge, and not having yet spent the money. First of all, it 
did take about a year to get the corporation authorized and up 
and running. They now are making a good deal of progress in 
getting these compacts put together. It is a process that 
requires countries to apply with a plan that shows that they 
are meeting, not just the requirements of a good program that 
they would like to carry out, but that they are meeting the 
requirements, in terms of transparency and good governance and 
democratization and anticorruption, all of the things that the 
Millennium Challenge requires of these countries.
    The money has to be there in order for the corporation to 
be able to make multiyear commitments to these compacts that 
are being signed with these countries. And so, I think you will 
see a more rapid, now, spend-out of these--or obligation of 
these funds, because they now are developing the compacts. It 
sometimes even requires countries to make changes in their laws 
so that they can receive this funding on things like I was just 
talking with Senator Feingold about, for instance, on 
anticorruption. So the money needs to be there so that the 
compacts can be backed up by the actual funding being in place.
    Finally, I would just say, Senator, that we would like to 
meet the President's commitment of increasing American 
development assistance through the MCA by 50 percent. It will 
not be in 3 years; it will now be in 4 years. And in order to 
be on a glide path to do that, and to be able to have the 
resources available to these programs that are going to be 
funded, these compacts that are going to be funded, this is the 
level of funding that we need.
    Senator Sarbanes. Well, but, you know, you can meet that 
target and take the money out of other programs. You're just 
shifting it from one pocket to another. Presumably, I will 
question you again about this next year when we look again to 
see how much is in the Millennium Challenge Account if we don't 
shift some of that money in order to cover these problems.
    Let me make one final observation. The Millennium Challenge 
Account does not help ordinary people struggling to survive 
under fragile, undemocratic, or corrupt governments. Child 
survival and health programs in the past have worked on a 
humanitarian basis. The same thing is true of UNICEF, as well 
as some of these other programs we're talking about. The goal 
of the Millennium Challenge Account, which is in effect to get 
these countries to pull themselves up by their bootstraps and 
improve their processes and so forth, is a laudable goal. But 
if you're going to shift resources over into that, then there's 
less available to help people who are, in effect, the victims 
of an inadequate or corrupt government in their country. And 
that doesn't seem, to me, to be fully responsive, on the part 
of the United States, to the kinds of challenges we confront 
around the world.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Sarbanes.
    Senator Allen.
    Senator Allen. Thank you, Mr. Chairman.
    Thank you, Dr. Rice, for being here with us.
    Looking at this budget, it is a tight and taut budget, but 
I think that, in looking at it, that the priorities and 
expenditures seem very reasonable. There'll be differences on 
some on the edges, but let's not look at the negatives, let's 
look at the positives.
    One thing I would like to ask you, and it's not in here, 
reading through it, was something that I and this committee 
worked on last year and brought this up with Ambassador--soon 
to be your partner--Zoellick, and that has to do with 
intellectual property protection. We had added funds in there. 
So much of what we produce with our innovations are 
intellectual property, which are stolen in various countries--
China is one of the main thieves that don't seem to think much 
of it. Other developing countries need assistance so they 
understand this concept of property rights, that it's not to be 
stolen or infringed upon. Could you share with us how 
assistance in the protection of our intellectual property, our 
innovations, are addressed in this budget?
    Secretary Rice. Yes. And, in fact, there are--and, as a 
part of these programs, IPR initiatives with these countries--
with a number of countries. With China, it's principally--of 
course, we don't fund----
    Senator Allen. Right.
    Secretary Rice [continuing]. Programs with the Chinese, but 
you're right that we have been very concerned about IPR in a 
number of other countries. And we do have, as a part of our 
general development assistance programs, IPR initiatives as a 
part of that.
    Senator Allen. Let me add--I didn't mean to bring it up, 
but since Syria was brought up, I think, in view of the 
assassination yesterday of former Prime Minister Hariri in 
Beirut, I urge you to tighten sanctions on Syria. Our message 
to the Syrians and any of these other undemocratic regimes are 
those that--I think that we have to be clear, we have to be 
direct, it has to be that terrorist activity is not going to be 
tolerated. We passed the Syria and Lebanese Sovereignty Act of 
2002, on which you based your May 2004 trade sanctions against 
Syria. And that was passed in response to Syria's support for 
terrorism, its occupation of Lebanon, and its pursuit of 
dangerous weapons.
    I was just in Iraq and Israel over this past weekend. 
Syria, at best, you could say, is negligent, insofar as 
stopping terrorist activity from coming into Iraq. And this is 
from General Casey. Meeting with leaders from Prime Minister 
Sharon and Minister Netanyahu, General Gilad, the reality is 
that Syria continues to be a problem funding terrorist 
activities--not just in Lebanon, not just in attacking in Iran, 
but also Hezbollah and others. There is a worry that Syria, in 
funding some of these organizations, would actually take out 
Abu Mazen, or Mahmoud Abbas. And this is a terrorist state.
    I urge you to not let Syria off the hook. We may not know 
the specific complicity in this particular assassination, but 
they have 15,000 troops in Lebanon which would like to also 
control their own destiny. Here's the fact, Syria continues to 
harbor leaders who plan and finance terrorist attacks. We know 
this. They do it against Israeli citizens. They have operatives 
in Islamic Jihad, Hamas, the popular front for the liberation 
of Palestine, and the Martyrs Brigades regularly receive 
training in Syrian camps. And as long as they continue--in 
Syria--to occupy Lebanon and train suicide bombers, I don't 
think the region is safe.
    So, I urge you all, in the administration, to take strong 
action against Syria. And I know there's others who may have 
another view, but, speaking for myself, I hope you take tough, 
strong, serious action against Syria. Do you want to comment--
--
    Secretary Rice. Yes.
    Senator Allen [continuing]. On that diatribe?
    Secretary Rice. Well----
    Senator Allen. The thing is, now, you commented on, on the 
other one, that was not quite of the same angle of----
    Secretary Rice. No, I'm----
    Senator Allen [continuing]. Approach to Syria.
    Secretary Rice [continuing]. I'm happy to comment. There is 
no doubt that Syria is a big problem. And one of the reasons 
that we have been strong in supporting--or in sponsoring 
Resolution 1559 is that we need the international community 
united against what Syria is doing, and what Syria is using 
both its own territory for and what it's using the territory of 
southern Lebanon to do.
    I do think that the recall of the Ambassador is a strong 
signal. And, as I said, while Lebanon was the proximate cause, 
this has been growing for some time. You were--you gave us the 
tool of the Syrian Accountability Act. We were able to use part 
of that. We continue to review what else we might do.
    But we do have to get international pressure on Syria to 
stop doing some of the things that they were--that they're 
doing. We were just with--I was just also with President Abbas 
and with Prime Minister Sharon, and they are trying very hard 
to push toward some kind of more positive future. And here you 
have Hezbollah and other terrorist groups, many of them 
supported by Syria, trying, literally, to blow up the process.
    And so, we are sending very strong messages to Syria. I 
think the message that we sent yesterday was an important one, 
and we'll see how they respond.
    Senator Allen. What can the international community do? 
Clearly, the Egyptians can be helpful, but what can they do, 
tangibly? Withdrawing our Ambassador is a nice--it's a strong 
diplomatic signal, but what can our friends, or sometimes 
friends in the Middle East, or in Europe--what can they do----
    Secretary Rice. Well, I think that----
    Senator Allen [continuing]. To put pressure on Syria?
    Secretary Rice [continuing]. If they can send the Syrians a 
message that this kind of behavior in which they're engaged is 
not acceptable, then perhaps the Syrians will start to worry 
more about their isolation, not just from us--their isolation, 
politically and economically--not just from us, but from 
others, as well. And, thus far, we've been the only ones to be 
willing to look at something like the Syrian Accountability 
Act. But, ultimately, if the Syrians continue down this road, 
others are going to have to look at similar modes.
    Senator Allen. I would hope you'll continue to get others. 
Sanctions are important, but they're most effective if they're 
joined by other countries. Otherwise, they circumvent them.
    Secretary Rice. Right.
    Senator Allen. Let me, finally, say, you talked about the 
time of opportunity, that it must not be lost, right now in 
Israel, vis-a-vis Palestine, with the death of that corrupt 
terrorist, Yasser Arafat. There is an opportunity. I would 
encourage you to make sure that the funding that we give to the 
Palestinians ends up in tangible projects so that it cannot be 
embezzled or moved away. I find it just absolutely deplorable 
that they're paying Yasser Arafat's wife $20 to $25 million so 
she'll tell them where all the money is that he purloined and 
embezzled away from the people of the Palestinian areas. And 
so, for the credibility of what our funds are going to, to help 
the Palestinian people, if they were tangible projects rather 
than money into governmental accounts, I think that will help 
the credibility of that funding and also actually help the 
people. Not that I'm saying Abu Mazen would divert it, but the 
specter of corruption has been there, and there needs to be 
greater confidence in the transparency and the integrity of 
Palestinian leaders.
    Secretary Rice. I appreciate that, Senator, and we will 
consult with you on moving forward with the--if we get the 
allocation--on how it's spent.
    Senator Allen. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Allen.
    Senator Boxer.
    Senator Boxer. Thank you very much, Mr. Chairman.
    Secretary Rice, welcome.
    I'm glad that the Syria Accountability Act is giving you 
the tools you need. I was the author of that, with Senator 
Santorum. We got that through the State Department under--
former leadership never supported it. And I was very pleased 
the President eventually signed it. And I think it could be a 
model.
    I also want to say that Senator Allen makes a good point, 
in terms of funding to the Palestinian Authority. We're still--
we've lost, it seems, $9 billion in Iraq. We can't find it. We 
had some hearings that said that millions of dollars were being 
stuffed into pockets in Iraq. And it's important to have some 
strings on these funds.
    These funds that you're asking for, for the Authority, 
which I support, they are from our taxpayers, so we really need 
to, as Senator Allen, said, put some strings on there, put some 
transparency into that.
    I want to make some comments and then ask you some 
questions.
    Senator Biden raised some questions about--in general; it's 
not just the State Department--these supplemental requests. The 
administration is clearly funding the war in Iraq through 
supplemental appropriations. And the ordinary person will say, 
``Well, what's the difference? They're coming out and asking 
for the funding.'' Well, the difference is, the war is off-
budget. It doesn't show up in the budget deficit. And I think 
this approach to budgeting is not giving the American people 
the true cost of the war in Iraq. And we need to level with the 
American people.
    There's not a penny of this war in the--for this war in the 
2006 budget now. I haven't heard anyone say we're bringing the 
troops home in 2005; nothing in the 2006 budget at all. 
Frankly, I believe--I served on the Budget Committee for many 
years, in the House and also in the Senate--that, basically, it 
hides the deficit number. The dollars go straight to the debt. 
We're borrowing. It goes straight to the debt. It doesn't show 
up in the deficit. If it was put into the budget, it would show 
up. It would be the highest deficit in history.
    An example of this, which I find really interesting, is 
that when we were leading up to the war, many of us talked 
about the first gulf war and burden-sharing for the cost. As I 
know that you know, we paid only 20 percent of that war, and 
our allies paid 80 percent. When we asked about it, we were 
told by the administration, ``We have a coalition. There is 
burden-sharing,'' and they were very proud of that. And we were 
all welcoming whatever partners came in.
    Now the American taxpayers are asked to pay between $200 
and $400 million to these coalition partners. So, in essence, 
we're paying them for what they did. Now, whether that's right 
or wrong, begs the question. The point is, we were told there 
was financial burden-sharing, and, at the end of the day, there 
isn't.
    Maybe it wouldn't be so bad if this budget didn't cut 
education and local law enforcement, transit programs, and 
other things. But I think my constituents, at any rate, are not 
exactly happy with the way the cost of this war is escalating.
    When you went through progress for women, it very much 
interested me. And I noticed that you, rightly, left out Saudi 
Arabia, did you not?
    Secretary Rice. I did.
    Senator Boxer. Yes. As we saw, the men go to vote. Here we 
are in the 21st century. So I'd love to work with you in the 
future. Maybe we can have some type of targeted effort on 
women's rights in Saudi Arabia that we could work on together. 
Because, clearly, if you listen to Bernard Lewis--and I'm sure 
you've read many of his writings--a very esteemed historian, 
who says that if he was to name one reason why the Muslim world 
is backward, it's because of the treatment of women. So I hope 
we can work on that.
    Now, my questions revolve, again, around Iraq. The Iraqi 
elections were a very important marker along a difficult and 
oftentimes painful journey we are making in order to bring our 
troops home. Fifty-eight percent of Iraqis voted. And that was 
wonderful. The question that is so important for our troops 
coming home is, out of the 42 percent who didn't vote, how many 
of those are sympathetic to the insurgents? Iraqi intelligence 
estimates there are as many as 200,000 sympathizers and as many 
as 30,000 armed insurgents. Our own estimates have grown from 
5,000 insurgents to 20,000 insurgents. So whatever we do in 
Iraq, there will not be success until the insurgency becomes 
weak. We all want our troops to come home, and that great time 
is tied to a more secure Iraq.
    To that end, Senator Lugar held a very important hearing 2 
weeks ago, after the Iraqi election, that featured the 
testimony of General Gregory Newbold, a retired Marine Corps 
general. General Newbold is a hero who commanded the first 
marines who landed in Somalia in 1992, and he served as the 
director of operations of the Joint Chiefs. He was a prime 
planner for the Iraqi war. He was very involved in that war.
    This is what General Newbold had to say about our policy in 
Iraq. And he made three points, and I'm going to tell you what 
they are and ask you to respond to them.
    Quote, ``We have to understand that the fundamental reason 
for the insurgency, the thing that ties all of the various 
groups together, is their view that we, the United States, are 
an occupying power.'' That's his first point.
    Second, he said, quote, ``We should implement a 
regionalization strategy that empowers the more stable 
provinces. To the stable areas, we should offer increased 
financial assistance, less coalition presence, and greater 
autonomy in disbursing aid.''
    And, third, General Newbold called on the administration to 
put a 2-year goal for total U.S. withdrawal. He said, and I 
quote, ``Close-mindedness about discussing anything except that 
our withdrawal is wholly condition-based fuels the perception 
that we have no intention of withdrawing.''
    So do you agree or disagree with Marine General Newbold's 
three points here: One, that we are viewed as an occupying 
power; two, there should be less coalition presence and more 
autonomy into stable areas; and, three, we should set a 2-year 
goal for total U.S. withdrawal?
    Secretary Rice. Thank you, Senator.
    As to--let me start with number two, if----
    Senator Boxer. Okay.
    Secretary Rice [continuing]. You don't mind. In fact, I 
think that if you looked on the ground, that is essentially 
what is happening, is that there is greater local autonomy, 
both in terms of security forces, because there are places that 
these security forces are capable of acting----
    Senator Boxer. Can you name those areas----
    Secretary Rice. Well, for----
    Senator Boxer [continuing]. Those regions?
    Secretary Rice [continuing]. Instance, in the south. If you 
look at a place like Najaf, which, just a little while ago, was 
under a threat from another kind of insurgency, the Mahdi Army 
of----
    Senator Boxer. Yeah.
    Secretary Rice [continuing]. Muqtada al-Sadr, I think you 
will see that our forces have not been in Najaf for some time. 
That really is an area that is controlled by Iraqi police and 
Iraqi forces. It is also an area where the governance 
structures are working and where provincial leaders are 
working----
    Senator Boxer. So do you think--I mean, I don't--we don't 
need to go----
    Secretary Rice. Just as----
    Senator Boxer [continuing]. Into it at great length----
    Secretary Rice [continuing]. Just as a----
    Senator Boxer [continuing]. So you agree with that point 
he's making, that in the--that there should be less coalition 
presence and more autonomy in the stable areas.
    Secretary Rice. I think you're getting it, because the 
coalition presence----
    Senator Boxer. So you think it's done?
    Secretary Rice. No, I don't think it's done, but I think 
you are getting it, because the coalition presence is more 
keyed to places where it's needed, and the places where it's 
needed are not places----
    Senator Boxer. Okay, so it's----
    Secretary Rice [continuing]. Which are stable.
    Senator Boxer [continuing]. So you would agree with his 
comment. You don't think it's an appropriate criticism, because 
you think it's being done. Is that an accurate----
    Secretary Rice. I just think that that's the direction----
    Senator Boxer. Okay.
    Secretary Rice [continuing]. In which it's moving.
    Senator Boxer. And what about his other two points? Your 
views----
    Secretary Rice. On those, I have to say that I think, first 
of all, American forces are operating there under a 
multinational U.N. mandate to help the Iraqis do what they 
cannot do for themselves. And the Iraqis, themselves, will say 
that without those forces they could not maintain stability in 
the country. We gave over sovereignty to this country in June 
2004, and they've just had an election. These are not occupying 
forces, the American and other coalition forces, they are 
forces that are there as a multinational force to provide 
stability for this new government.
    I think it would be a mistake to have a specific 2-year 
goal, because the only people that I think you will empower 
with such a goal will be those who hope that we will leave, and 
leave the place a vacuum, so that they can start again 
repressing their fellow citizens, as they did under Saddam 
Hussein.
    A goal that says that, as the Iraqis' forces are trained, 
and as Iraqis can do these functions for themselves, we will be 
more than happy to leave, I think, is the right way to talk 
about this.
    Senator Boxer. Well, Mr. Chairman, if I--conclude this 
round and just say this.
    I think that this Marine General--I think you should meet 
with him--I think that he brings to the table real-life 
experience in war that you and I don't have. And I think that 
his comment was, at the conclusion of the hearing, when we 
asked if he was hopeful as he laid out these ideas, he said, 
``I have absolutely no reason to believe that this 
administration will change a process that resulted in this mess 
to begin with.'' So he's very critical. And this is someone who 
planned the war in Iraq.
    And I just think you're again laying down these condition-
based reasons, and the message the people are getting is, we 
may never leave there. And that was his point. He didn't set a 
timetable, but he said it should be our goal.
    Anyway, thank you very much.
    The Chairman. Thank you, Senator Boxer.
    Let me say that I'm advised that Secretary Rice can stay 
with us until about 12:20, and I appreciate that. I'm going to 
try to call upon Senator Martinez and Senator Obama for their 
regular rounds, and then Senator Boxer has some additional 
questions, and I would like to recognize her if there is time 
at that point.
    Senator Martinez.
    Senator Martinez. Thank you, Mr. Chairman. I appreciate the 
opportunity to be with you today.
    And, Dr. Rice--Secretary Rice, welcome back. And I should 
say that I'm extremely pleased with the great success of your 
recent European trip. I know how important our bilateral--our 
relations with the European friends is, and I think you've made 
great progress. I commend you and congratulate you on what, I 
think, was an extremely successful trip. But I think all 
Americans cheered for you and were pleased to see.
    I want to also associate myself with the comments of 
Senator Allen with respect to Syria. And, I think, it's correct 
that you would take the action that you would take today, with 
the withdrawal of the Ambassador. Even though the immediate 
responsibility for the horrible acts of this week has not been 
known yet, I do believe that the lack of sovereignty of the 
Lebanese people ought to be something we keep uppermost in our 
mind, and it is, I think, a crucial element of achieving a 
lasting Middle Eastern peace, is to have Lebanon be a free and 
independent state where the terrorism in the southern part of 
Lebanon is curtailed.
    I wanted to ask you two very specific areas in the area of 
Latin America, one is Plan Colombia. How do you perceive the 
success of Plan Colombia, and where do you think it will be 
going in this upcoming budget?
    Secretary Rice. Well, we obviously have to continue support 
for Plan Colombia, particularly at a time when we have a 
president, in President Uribe, who has put his country on a 
course to really deal with the narcotrafficking of FARC.
    The Plan Colombia, of course, does not operate in a vacuum. 
It does operate in the context of an Andean Initiative, which, 
I think, is also very important, because, as we've said, if you 
eradicate in one area and you have growth in another, this will 
not work.
    We're also looking to the Colombians for what I will call 
more normalization of our relationships. For instance, Bob 
Zoellick, when he was USTR--I guess he still is USTR, but will 
shortly not be--has engaged the Colombians in discussions on an 
FTA, which would give longer term economic growth to Colombia.
    So we will continue the efforts of Plan Colombia in the way 
that they've been continued, but, I think, as they make 
progress against the FARC, you'll want to see the transitioning 
of some of this to an effort to grow the economy, to do all of 
the things that will ultimately make this a really stable 
democracy. And, I think, we believe we have a very excellent 
partner in President Uribe.
    Senator Martinez. I had talked to you in the past in terms 
of the importance of promoting democracy. I know the 
President's Inaugural speech and, obviously, in his State of 
the Union message, as well, it's a clear purpose of the current 
foreign policy of this administration to pursue freedom and 
democracy whenever possible. And you know of my great passion 
to see that also come to the enslaved people of Cuba.
    And I was very pleased with your commitment to the 
promotion of democracy through a means of communication to 
people that otherwise have no means of receiving information.
    I know, from talking to former Soviet dissidents, as well 
as other freed Europeans, and seeing the comments that they 
make, that Radio Free Europe was a great constant source of 
information, of encouragement. Likewise, I've had recent 
experiences in TV Marti. And some of my initial remarks as a 
Member of this Senate were broadcast back to Cuba by TV Marti, 
and I've had very encouraging feedback of the great 
encouragement that people received from my ascending to this 
office.
    I wonder if, in your current budget, we'll continue to have 
the same commitment the President expressed in May toward the 
commitment to be able to overcome the continued jamming of 
Radio and TV Marti by the Cuban Government with the 
technological means that we know can do it.
    Secretary Rice. Yes. Well, as you know, Senator, we have 
committed over $37 million to broadcasting in Cuba, looking at 
platforms, as well, as a part of that. And there's a real 
commitment to broadcasting in Cuba, because, as I have 
mentioned about the more general issue of broadcasting, it's 
one of our best tools.
    This is not a matter of propaganda. This is a matter of 
simply getting the truth to people who would otherwise not be 
able to get the truth. And so, as a part of a broad emphasis on 
broadcasting, which I think is reflected in the budget in 
increases for broadcasting, the Cuban broadcasting piece of 
this also received significant funding, and should continue to.
    Senator Martinez. Great.
    I wanted to also let you know that Chairman Lugar has given 
me the responsibility of chairing the African Subcommittee, and 
I will be looking forward to getting with you and other members 
of your team, as you continue to shape your team, to work in 
that very important area, where I also have a lot to learn, but 
I also hope to make some contribution to this committee's work.
    Secretary Rice. Thank you. I look forward to working with 
you.
    Senator Martinez. Thank you very much.
    The Chairman. Thank you very much, Senator Martinez.
    Senator Obama.
    Senator Obama. Thank you, Mr. Chairman.
    Secretary Rice, congratulations on your confirmation and 
what appears to have been a successful trip. Welcome back.
    I missed some of your opening testimony, although I have 
the opportunity to read it. And so, I apologize if I end up 
going over some ground that you already answered.
    The first issue I want to focus on, and we talked a little 
bit about this during your confirmation hearing, was the issue 
of loose nuclear material. And, you know, the President's 
statement, shared by nominee John Kerry, about the number one 
priority being securing loose nuclear material, I wanted to 
find whether the budget request here has accelerated our 
ability to secure those--that nuclear material. And, if so, do 
we, at this point, have some sense of a timeline? I'm working 
off a previous estimate that, if we were going off----
    Secretary Rice. Right.
    Senator Obama [continuing]. On our current pace, it would 
take about 13 years. Have we ratcheted that up? And, if so, can 
you give me some sense of what this budget does to that 
process?
    Secretary Rice. Well, most of the funding for the kinds of 
programs that will accelerate the securing of nuclear materials 
actually reside in the Energy Department budget. And, in my 
previous life, we worked very hard to make certain that the 
Energy Department could be on a time schedule that would secure 
those materials within 4 years, not 13, which would have been 
the natural----
    Senator Obama. Right.
    Secretary Rice [continuing]. Glide path. I have not, 
myself, reviewed the Energy Department's budget submission, but 
that's where----
    Senator Obama. Okay, so that's where----
    Secretary Rice [continuing]. That would be.
    Senator Obama [continuing]. The money's going to be housed. 
And so----
    Secretary Rice. That would----
    Senator Obama [continuing]. We're going to have----
    Secretary Rice. We have, in State, some Nunn-Lugar-type 
programs, and, for instance, assistance for WMD scientists----
    Senator Obama. Right.
    Secretary Rice [continuing]. To do other things; 
flexibility, for instance, that allowed us to do something 
about Libyan scientists. But the great bulk of the Cooperative 
Threat Reduction Program is either in Energy or in Defense.
    Senator Obama. Okay. And is that coordinated----
    Secretary Rice. It's coordinated----
    Senator Obama [continuing]. Through your office?
    Secretary Rice [continuing]. Through the National Security 
Council.
    Senator Obama. The National Security Council, okay. So in 
your previous job, you would have----
    Secretary Rice. I did----
    Senator Obama [continuing]. Been involved----
    Secretary Rice [continuing]. Coordinate it, yes.
    Senator Obama [continuing]. In that. Okay. Why don't I 
shift gears, then, and ask a little bit about some of the 
public diplomacy issues and other initiatives that are 
contained in this budget.
    It strikes me that promoting democracy, in and of itself, 
is an important function. But, as is true, I think, in this 
country, democracy works best when we have an informed 
citizenry. One of the repeated problems we've always heard 
about, and I've experienced firsthand, when you travel in 
Muslim countries, is the huge numbers of young people who lack 
educational opportunity. And that void has then been filled in 
many areas of the Middle East with Madrasas and other schools 
that are not necessarily promoting the sort of civic virtues 
that, you know, not only we might encourage, as Americans, but 
that would help sustain the long-term, stable democracy. And 
I'm wondering, in this budget, where some of that--if you agree 
with that, that that's an important priority, and, if so, what 
are we doing through the State Department, and where will that 
be reflected in the budget, some expenditures, in terms of 
promoting education, in these countries?
    Secretary Rice. You would look, principally, to, really, 
two sources. First of all, through the economic-support funds. 
We often are supporting educational initiatives in various 
countries. For instance, in Pakistan we've had a program of 
almost $100 million in Pakistan of trying to support 
educational initiatives that are Pakistani educational 
initiatives.
    As you might appreciate, Senator, this is a delicate 
matter.
    Senator Obama. Yeah.
    Secretary Rice. The idea that the United States would come 
in and impose, somehow, educational programs in these countries 
would be not very well received. So what we've done is to work 
with countries to develop their--to help fund their own 
educational initiatives that we feel are strong. And some of 
the best are in places like Pakistan. USAID also has a number 
of educational initiatives in key countries. But the textbook 
reform initiatives--there would be, for instance, in the 
Palestinian territories, if you were to look, one of the major 
textbook reform initiatives there is actually a USAID 
initiative. So we are trying to approach this question of the 
ideology of hatred that gets taught, unfortunately, at the 
earliest stages.
    On the public-diplomacy side, and I appreciate very much 
your support for that, we are plussing-up public diplomacy in 
the budget, because we need not only to be able to add to the 
infrastructure of public diplomacy--that is, what we do out in 
the field through our Embassies--but also in educational and 
cultural affairs. And I hope we will get the support of this 
committee for a significant increase that we've made to the 
educational and cultural affairs accounts to increase our 
educational----
    Senator Obama. Right.
    Secretary Rice [continuing]. Exchanges. And one of the 
initiatives that we're looking at is how we can use these to 
reach disaffected populations within countries. I'm sure that 
if you had done some exchanges with the United States in 1950 
or 1955, you might not have gotten a very diverse group.
    Senator Obama. Right.
    Secretary Rice. Similarly, educational exchanges with other 
countries where people are not fully into the mainstream might 
not give you diversity, in terms of the Muslim population. So--
--
    Senator Obama. Right.
    Secretary Rice [continuing]. We're looking at that.
    Senator Obama. Well, I think that would be very positive. I 
appreciate your statement that, on the education front, if it 
was perceived that we were structuring curriculums that 
extolled the virtues of the United States, then, you know, 
there would be suspicion, and it probably would lose 
credibility.
    You know, it's not only the ideology of hatred, I guess, 
that I want to reach at. I mean, I am confident that if young 
people have prospects and hope in these countries, then that is 
the most important ingredient in stabilizing the countries and 
incorporating them into a modern, global political economy.
    And so, I would be interested, maybe if your staff could 
just give me some sense of how those projects are moving 
forward and how they're funded, how we evaluate them, where 
they've been most successful. That's something that I would be 
interested in.
    Let me just pick up on one last point, because I'm sure I'm 
going to be running out of time fairly soon.
    Progress on Iraqi oil production. You know, the State 
Department now is going to be involved, as I understand it, in 
the reconstruction process, in supervising some of that. And, 
you know, we had, obviously, very optimistic estimates, in 
terms of how quickly we would get Iraqi oil production up and 
running. Recognizing that the insurgency has stalled some of 
that, we have also been hearing some disturbing reports about 
mismanagement of some of the aid that's gone there and how 
that's been handled.
    Can you give me a sense, at this point--your best 
assessment of where we're at, in terms of Iraqi oil production, 
how soon some of that money is then going to be plowed back 
into reconstruction, and what that means for United States 
taxpayers, in terms of the burdens that they are carrying?
    Secretary Rice. Well, we were doing, really, rather well, 
in terms of getting production back up to prewar levels for 
most of the last several months--at one point, about 2.5 
million barrels a day--and then being able to export. The 
problem has arisen, of course, because of, literally, sabotage 
of some of the oil infrastructure and efforts now to protect 
that oil infrastructure through the Ministry of Oil and through 
the Ministry of Interior, with forces that are dedicated to 
that.
    We do have significant projects that are aimed at the 
rehabilitation of existing Iraqi oil infrastructure so that 
they can, not only increase their production, but maintain it. 
As you know, with oil infrastructure, that's one of the 
problems. It's not just getting it to a certain level, but it's 
actually maintaining it. And because Iraq was, in effect, 
isolated from the international technology for oil, it was a--
it's a fairly--had been a fairly creaky infrastructure. But, 
again, it was producing pretty effectively.
    What we hope to do is that there will be investments in the 
oil infrastructure. But, of course, ultimately the answer for 
the Iraqis will be to get private capital investment in their 
oil infrastructure. And if the security situation gets somewhat 
better, I think you will see that kind of investment, because 
there are a number of countries that have expressed to the 
Iraqis their desire to help with investment in infrastructure. 
The Iraqis, of course, are also going to have to make some 
decisions about what laws they will have about foreign 
investment and what that will mean.
    But the--it's very high on the agenda of infrastructure to 
help the Iraqis continue their oil production at least at 
prewar levels. Much beyond that, you would have to do pretty 
major investments in their oil infrastructure, just because 
it's very creaky from having been isolated from the 
international system for so long.
    Senator Obama. Okay.
    Mr. Chairman, thank you very much.
    The Chairman. Thank you, Senator Obama.
    We will commence a second round. And I will pass, 
withholding my questions, and recognize the distinguished 
ranking member.
    Senator Biden. Mr. Chairman, I understand the Secretary has 
to leave shortly, and I have an opportunity, as you do, to 
speak with her frequently. What I'll do is submit my questions 
in writing.
    I have some questions, Dr. Rice, about Iran. I have 
questions, followup, about oil. We're at prewar levels, but 
there's a $30 billion investment needed, and how we're going to 
go about that. And I have questions about the issue about how 
we deal with our friends in the region, particularly the 
Saudis, as it relates to the charitable organizations that 
still are in operation.
    But I'll yield to my colleague and friend from California 
for her questions.
    The Chairman. Senator Boxer.
    Senator Boxer. Thank you, Mr. Chairman. I will try to be as 
brief as possible.
    I have, really, one question about Iran, but it's--I'm 
going to preface it.
    When we look at the administration's policy in Iraq, it's 
very much a hands-on policy, to put it mildly. It is now pretty 
much--with your request to pay back the coalition partners, 
it's almost 100-percent funded, maybe 97- or 95-percent funded, 
by American taxpayers. We know, day after day, it's--we're 
calling the shots there. And whether you believe, as General--
Marine General Newbold does, that we're seen as an occupier, 
the fact is, our presence there is enormous. It's huge. And we 
still won't set a goal for when--a goal--for when we want to 
leave. And we haven't heard any statements that, you know, we 
won't be there for the indefinite period.
    So, if you contrast that to Iran, it's such a stark 
difference in the way we're approaching it. Here we are, you 
know, day in and day out, a hands-on policy in Iraq, and, in 
Iran, we're outsiders looking in. And your comment that came 
out of your meetings--and, by the way, I'm really glad that we 
saw you with our allies, and I hope the days of ``Freedom 
Fries'' and ``Old Europe''--obviously, Secretary Rumsfeld 
handled that adroitly--and comments that we should forgive 
Russia, ignore Germany, and punish France--that that's part of 
the past. And it looked like that was the case, and it was 
reassuring, I think, to the world, to see that. So, thank you 
for that.
    But the Europeans have said they need you as help in order 
to achieve a negotiated solution. To quote the French Foreign 
Minister, he said, ``We need the confidence and the support of 
the United States in this very delicate phase, and that's the 
message we convey to Condi Rice,'' unquote.
    Your comment, coming out of last week, was, ``Negotiations 
between Iran and Europe cannot go on forever.'' That was the 
quote that made it here.
    Now, I don't blame you for criticizing negotiations between 
Europe and Iran if you believe they're not working. That's--
you've got to call it the way you see it. I don't have a 
problem with that. But you're being critical from the outside 
looking in. And so, if the talks need a jumpstart, why don't we 
get involved? As my colleague, Senator Biden, has been quoted 
as saying, Why aren't we part of the dialog? How can that hurt? 
It can only help. Especially with you coming in now and us 
having this fresh start.
    So, rather than say, ``These negotiations can't go on 
forever,'' why don't we become part of the dialog there?
    Secretary Rice. Thank you, Senator.
    Let me say, I--we've not been critical of these 
negotiations. In fact, I heard, from our European partners, 
that they believe that, without our cooperation, coordination, 
consultation, that they would not be in the position that they 
are now. I believe that Secretary Straw said something----
    Senator Boxer. Coordination in----
    Secretary Rice [continuing]. Along those lines.
    Senator Boxer [continuing]. What way?
    Secretary Rice [continuing]. Along----
    Senator Boxer. Coordination----
    Secretary Rice [continuing]. Those lines.
    Senator Boxer. Coordination in what way?
    Secretary Rice. We talk frequently about what is happening 
in the negotiations, what is being offered to the Iranians, 
what needs--the Europeans, I think, are being very 
straightforward with the----
    Senator Boxer. So you talk----
    Secretary Rice [continuing]. Iranian----
    Senator Boxer [continuing]. To the Europeans, but you don't 
talk to the Iranians.
    Secretary Rice. No. And I would hope that we wouldn't allow 
the Iranians to create another condition for doing what it is 
that they need to do. And I said, when I was in London, that 
the Europeans have given the Iranians a path by which to 
demonstrate to the world that they're prepared to live up to 
their international obligations. And the Iranians ought to take 
that offer.
    Senator Boxer. Right. So you think the Europeans are 
pleased with what you're doing. Then why would they say, ``We 
need the confidence and the support of the United States in 
this very delicate phase, and that's the message we convey to 
Condi Rice''?
    Secretary Rice. Well, I tried to reassure them, and--when I 
talked with them--that we, in fact, do want their negotiations 
to succeed, that we believe that we are getting information and 
consultation with the Europeans about what they are requiring 
of the Iranians. We are completely in agreement with them that 
the Iranians ought to stop enriching and that the Iranians 
ought to be involved, instead, in a kind of fuel-provision 
arrangement, which is something, by the way, that the President 
proposed at the National Defense University some time ago.
    So we are hopeful that the Europeans can do what they hope 
to do with the Iranians. I don't think we need to create new 
conditions of the United States, as to do----
    Senator Boxer. Well, no one is asking for new conditions. I 
don't think so. I think--so do you agree with Senator Biden, 
when he says we should be part of dialog, that you're already 
part of the dialog?
    Secretary Rice. I believe that we are a part of the dialog 
with the Europeans about how the Iranians could come into 
compliance with their international obligations.
    Senator Boxer. Okay. So we are in dialog with the 
Europeans, even though they're complaining and want more 
support from you. You feel satisfied we're giving them that 
support. But we are not in dialog----
    I want to yield to you, yes.
    Senator Biden. No, no, just a moment----
    Senator Boxer. Yes, that's what I----
    Senator Biden. I don't think we should only be in dialog 
with the Europeans. I think we should be in dialog with the 
Iranians----
    Senator Boxer. That was the point----
    Secretary Rice. That, we----
    Senator Boxer [continuing]. I started----
    Senator Biden [continuing]. As well.
    Secretary Rice [continuing]. Are not.
    Senator Biden. Yeah.
    Senator Boxer. That's the point----
    Secretary Rice. We are not in dialog with----
    Senator Boxer [continuing]. I was----
    Secretary Rice [continuing]. The Iranians.
    Senator Boxer [continuing]. Trying to make here. So, I 
think a dialog goes on between both sides. That's what--I 
didn't want to put words in Senator Biden's mouth. But the fact 
is, a dialog means you're talking to all the sides.
    So, you're saying you're talking to the Europeans. It seems 
to me they would like a little more. And I'm just hoping that 
you're not wedded to that approach, because, as my mother 
always taught me, from the time I was a child, words are okay. 
It's okay to talk. It's okay to have differences. It's okay to 
lay them out. And I think you're so articulate, and I think if 
you set your mind to it, we could have a breakthrough over 
there.
    Secretary Rice. Well, I appreciate that, Senator, but let 
me just say, the Iranians know what they need to do. They don't 
need to talk to us about it. They know what they need to do. 
They need to live up to their international obligations. They 
need to stop enriching. They need to stop trying to, under 
cover of a civilian nuclear power program, get a nuclear----
    Senator Boxer. Well, you----
    Secretary Rice [continuing]. Weapon.
    Senator Boxer [continuing]. Keep saying the Iranians know 
what they need to do. I think maybe they need to hear it in a 
more direct fashion. I mean, my mother always said I knew what 
I needed to do, but, believe me, she told me again and again 
what I had to do.
    So, I wouldn't downplay the fact that your being more 
involved there, with both sides, is a small matter. I think 
it's a big matter, and I hope you will, perhaps, follow the 
advice of a couple of us, who think a little bit more dialog 
with both sides might break through.
    Secretary Rice. Thank you.
    The Chairman. Thank you very much, Senator Boxer.
    Thank you very much, Secretary Rice. We very much 
appreciate your coming to the committee today, and your 
forthcoming responses to our questions. We look forward to 
working with you on the budget and on our authorization bill.
    Secretary Rice. Thank you very much, Senator. I look 
forward to working with you, too.
    The Chairman. The hearing is adjourned.
    [Whereupon, at 12:25 p.m., the hearing was adjourned.]
                              ----------                              


Additional Statement and Questions and Answers Submitted for the Record


           Prepared Statement of U.S. Senator Lamar Alexander

    At her confirmation hearing before this committee last month, 
Secretary Rice stressed, ``The time for diplomacy is now.'' She said 
there would be a new emphasis on diplomatic activity to advance the 
Administration's foreign policy objectives. Actions speak louder than 
words, and the actions of both the Secretary and President Bush have 
shown the truth of her statement.
    Secretary Rice has just returned from a trip to Europe and the 
Middle East that has helped jump-start the peace process between the 
Israelis and Palestinians. The President has unveiled a budget request 
that puts greater emphasis on diplomacy as a tool in the War on Terror.
    The President's budget calls for a 13-percent increase in the 
international affairs budget over what was appropriated last year. 
That's a higher increase than in any other part of the budget, except 
for Commerce--Defense and Homeland Security each rose by about 4 
percent. That 13-percent increase includes more money to fight HIV/AIDS 
around the world and more money for the Millennium Challenge 
Corporation that helps poorer countries that have committed to 
democracy, open markets, and the rule of law.
    I was pleased to see an increase of 19.4 percent ($70 million 
increase) for education and cultural exchange. We are living in a time 
when American motives are widely questioned and often misunderstood. 
Few things will do more to help other cultures understand us (and help 
us understand them) than increased contact through bringing students 
and leaders here and sending our students, leaders, and others there. 
This is true not only in the Arab world, which is rightly the focus of 
our efforts to ``win hearts and minds,'' but also in Russia, China, and 
other countries where the people were taught to hate Americans in the 
past.
    Today our nation faces three critical challenges:
          1. Defeat terrorism.
          2. Succeed in an increasingly competitive global marketplace.
          3. Preserve our common American culture.
    Increased cultural exchange is not a silver bullet for solving any 
of these problems, but it is a tool that can help, especially with the 
first two.
    To defeat terrorism, we need more cultural exchange with the Middle 
East. As more Arabs study and visit the United States, they will 
understand our character and desire to be a force for freedom--not 
tyranny--in their part of the world. As more Americans visit the Arab 
world, we will come to understand their culture, and respect their 
religious choices.
    To improve our competitiveness, we need more cultural exchange with 
the burgeoning economies of the world, especially China. If the United 
States is to successfully access the Chinese market, more Americans 
need to understand their language, culture, and business practices. 
Similarly, if China is to continue growing and attracting investment 
from the West, they need more Chinese that understand our language, 
culture, and legal structures for protecting business investments.
    Spending money on cultural exchange, however, is not enough to 
facilitate stronger connections between Americans and the world. Our 
visa policy must show a similar dedication to openness, while still 
preserving American security. Since September 11, 2001, we have clamped 
down and our visa policy has become stricter. As a result, applications 
to American graduate schools declined 28 percent last year. Those from 
China fell 45 percent; from India, 28 percent. We must reverse this 
trend.
    Last week, the State Department took an important step in the right 
direction by announcing a change in the visa mantis clearance process 
that will extend the validity of that clearance to the duration of 
study (up to 4 years) for students who remain enrolled in the same 
program here in the United States. The average time for a mantis 
clearance is also now down from 77 days to a mere 14. This is a 
dramatic improvement.
    Yet more can be done. Next month, I hope to hold a roundtable with 
key Senators and key decisionmakers from involved agencies to see what 
more steps can be taken to improve our visa policy so that we no longer 
discourage foreign students and researchers from visiting the United 
States. I ask Secretary Rice to help me identify the key decisionmaker 
in the State Department who should attend that discussion.
                                 ______
                                 

    Responses From Secretary of State Condoleezza Rice to Questions 
                   Submitted by Senator Richard Lugar

    Question. I am concerned about the funds available for the Iraqi 
International Center for Science and Industry. Like its predecessors in 
the former Soviet Union, the ISTC and STCU, its goal is to re-employ 
former weapons scientists in peaceful pursuits. It is intended to keep 
hundreds of individuals with WMD expertise from selling their expertise 
to rogue states and terrorist organizations. The Committee looks 
forward to working with you to ensure that this important program is 
continued. Can you share your thought on the program and your plans for 
its future?
    Answer. The State Department's program to redirect Iraqi weapons 
scientists to peaceful, civilian employment in support of Iraqi 
reconstruction is a priority nonproliferation effort, and the program 
office--the Iraqi International Center for Science and Industry 
(IICSI)--has been operating in Baghdad for nearly a year.
    Well over a hundred Iraqi scientists, technicians and engineers 
with WMD or missile expertise are currently participating in IICSI 
activities for which they receive monthly stipends. The Center, working 
with the Embassy, is now actively involved with Iraqi government 
ministries to find participating scientists permanent positions with 
those ministries. At the same time, IICSI continues to expand its 
outreach to other Iraqis with WMD experience who have not yet benefited 
from the program.
    We are determined to maintain this vital program in operation as 
long as it is needed and have included it in our FY 2006 budget 
request.

    Question. The administration is proposing a total of $3.2 billion 
in funding to fight the international HIV/AIDS epidemic. Of that 
amount, $300 million is allocated to be distributed multilaterally 
through the Global Fund to Fight AIDS, Tuberculosis, and Malaria with 
the rest to be allocated through bilateral channels. Why are we not 
putting more funding into the Global Fund? Is the administration 
disappointed in its administration of funds or its accountability in 
the use of resources? How would you characterize the best balance we 
should aim to strike between bilateral approaches and multilateral 
approaches in fighting HIV/AIDS?
    Answer. The U.S. Government provided $2.4 billion under the 
Emergency Plan for international HIV/AIDS, tuberculosis, and malaria 
activities in fiscal year (FY) 2004, more funding than all other donor 
governments combined. U.S. Government agencies operate or fund HIV/AIDS 
research, prevention, care and treatment programs in more than 100 
countries. The FY 2005 budget is $2.8 billion, and the administration 
has requested $3.2 billion for FY 2006.
    In total, the United States has pledged 35 percent ($2.12 billion) 
of the $6.0 billion in pledges to the Fund through 2008, and 32.4 
percent ($1.08 billion) of the $3.3 billion contributed to date. 
Nevertheless, as you know, the United States Leadership Against HIV/
AIDS, Tuberculosis and Malaria Act of 2003 mandates that the U.S. 
contribution to the Fund may not exceed 33 percent of total 
contributions at any time during the period of FY 2004-FY 2008. On July 
31 of each year from 2004 through 2008, Ambassador Randall L. Tobias, 
the U.S. Global AIDS Coordinator, assesses the cumulative amount of 
non-U.S. government contributions to the Fund--measured from October 1, 
2003--to determine how much of our annual appropriation from the 
Congress designated for the Fund we can contribute and still stay below 
that 33 percent threshold.
    It is important to emphasize that in FY 2004, the United States was 
unable to contribute the full $547 million Congress appropriated for 
the Fund because other donors' contributions were not sufficient to 
allow us to provide this amount without exceeding the 33 percent cap, 
mandated by the Congress. The $87.8 million the U.S. Government was 
unable to contribute last year remains available for contribution 
through this Fiscal Year, in addition to the appropriation of $347 
million for FY 2005. This brings the total possible U.S. Government 
pledge for FY 2005 to $435 million, but, as with last year, other 
donors must contribute enough to the Fund to keep our share below the 
Congressionally imposed 33-percent ceiling. For the United States to 
maximize its possible Fiscal Year 2005 contribution to the Fund, other 
donors will need to have contributed (not just pledged) approximately 
an additional $836 million by July 31, 2005.
    There is no set formula for balancing funding between bilateral 
programming and the Global Fund. The United States is guided in its 
decision-making largely by the emergency nature and other needs of the 
pandemic. With two decades of expertise fighting HIV/AIDS in the United 
States and worldwide; field presence and strong relationships with host 
governments in over 100 countries; and well-developed partnerships with 
non-governmental, faith-based and international organizations that 
deliver HIV/AIDS programs, the U.S. is uniquely positioned to scale up 
funding and HIV/AIDS services rapidly, efficiently, and effectively. 
The balance the Emergency Plan has struck between its bilateral and 
multilateral contributions ensures our tax dollars are spent in the 
most effective ways possible in combating HIV/AIDS internationally.
    We are deeply committed to the long-term success of the Global Fund 
as an international instrument for financing health interventions; the 
United States was the first donor to the Fund, and we have always been 
and remain the largest. Our investment in the Fund is now our largest 
commitment to combating malaria and tuberculosis around the world, and 
allows us to have projects (one-third funded by the United States) in 
countries where we do not have our own bilateral programs.
    The Global Fund is, however, still a comparatively new institution, 
and is still in the process of establishing the institutional 
infrastructure and management processes and controls to ensure the 
organization fulfills its specific mandate and that it uses funds 
efficiently and effectively. The Global Fund is a critical part of the 
Emergency Plan's overall strategy. It will be very difficult to achieve 
the long-term victory we envision in the worldwide campaign against 
these diseases without it, but other nations need to do more to meet 
the terrible challenge of global HIV/AIDS. The United States has led 
the way in helping create the Global Fund, and has set a high bar 
through our own contributions for other donors to match our efforts by 
increasing their financial commitments to the Global Fund.

    Question. The United States Leadership Against HIV/AIDS, 
Tuberculosis, and Malaria Act of 2003 (P.L. 108-25) states the Sense of 
Congress that by the end of fiscal 2006, U.S. assistance programs 
should be providing anti-retroviral therapy to 2 million patients. Are 
we on track to meet this target? The legislation also requires that for 
fiscal years 2006 through 2008, 10% of authorized funds be devoted to 
helping orphans and vulnerable children. How will you meet this target 
under the FY 2006 request?
    Answer. The Emergency Plan has moved rapidly to support national 
strategies for treatment in partnership with the public and private 
sectors, committing more than $231.9 million for ART, or 40.8 percent 
of the total resources available in the 15 focus countries. The results 
of these joint U.S./host-country efforts are impressive. In the first 
eight months of the Emergency Plan, the United States has supported ART 
for 155,000 HIV-infected adults and children in the 15 focus countries, 
achieving 76 percent of its target for June 2005. As a reference point 
for this rapid progress, in December 2002, one month before President 
Bush announced the Emergency Plan, only 50,000 people were reported as 
receiving ART in all of sub-Saharan Africa. Eight months into the 
Emergency Plan, three times that number were receiving treatment. The 
Plan is well on track to meet the goal of supporting ART for 2 million 
adults and children in five years.
    The Emergency Plan is dedicated to expanding care and ART to HIV-
infected children, supporting ART for at least 4,800 children during 
the first reporting period. Few sites are currently able to 
disaggregate data by adults and children, so the number of children 
receiving ART is likely underreported.
    The Emergency Plan includes a range of activities aimed at 
improving the lives of children and families affected by HIV/AIDS. 
Activities include caregiver training; access to education; economic 
support; targeted food and nutrition support; legal aid; medical, 
psychological, or emotional care; and other social and material 
support.
    In FY04 President Bush's Emergency Plan moved rapidly to expand 
services for orphans and vulnerable children, committing $36,322,000 of 
the resources available in the focus countries. With an emphasis on 
strengthening communities to meet the needs of orphans and vulnerable 
children affected by HIV/AIDS, supporting community-based responses, 
helping children and adolescents meet their own needs, and creating a 
supportive social environment, these resources led to supportive care 
for 630,200 orphans and vulnerable children in the 15 focus countries, 
provided primarily through community- and faith-based organizations. In 
addition to the amount dedicated to the resources for orphans and 
vulnerable children previously mentioned, the Emergency Plan also 
supported antiretroviral treatment for orphans and vulnerable children 
living with HIV/AIDS, significantly increasing funds for this important 
group to over 10% of the budget for the fiscal year.

    Question. The MCC has not been funded at the level requested for 
the last two years. This year, the administration is asking for $3 
billion. Do you expect full funding this year? What would be the 
consequences of not having the full $3 billion for FY06?
    Answer. Yes, we do expect full funding of the MCC budget request 
this year. Funding the MCC at the full $3 billion level requested will 
be crucial to fulfilling President Bush's commitment to reduce poverty 
by promoting economic growth in the developing world. With full 
funding, the MCC can achieve tangible results by working in partnership 
with eligible countries to break the cycle of poverty. Not only does 
this reflect America's core values, but by stimulating economic growth 
and encouraging good governance, it also enhances U.S. security and 
promotes freedom and democracy throughout the world.

    Question. Given the recent Volcker Commission revelations about 
mismanagement and corruption within the United Nation's Oil-for-Food 
program, how would the administration view the legislation that would 
withhold all or some of our dues payments to the United Nations?
    Answer. We are concerned about the issues identified in the interim 
Volcker Commission report and the need to improve oversight within the 
United Nation's (UN) system. In response to a U.S.-led reform 
initiative, the General Assembly this past December strengthened the 
regulations for the Office of Internal Oversight Services (OIOS) 
reporting procedures which now requires the OIOS to make original 
versions of its reports available to member states on request. This 
represents a significant and positive reform that will provide greater 
insight into the U.N.'s operations, and we continue to actively press 
for further improvements in U.N. oversight.
    We have requested $439 million for the U.N. Regular Budget for 
FY06. We believe the adopted U.N. budget level advances U.S. interests 
in important ways.
    The constructive linkage between withholdings of U.S. dues and 
advancement of U.N. reform in unclear. Withholding payment will 
compound current cash flow problems which already exist as a result of 
our recurring late (``deferred'') payment.

    Question. The FY 2006 budget request includes $328 million within 
the Diplomatic and Consular Program for public diplomacy. What new 
ideas do you have for working with public affairs officers and public 
diplomacy officers in the embassies to provide improved support and 
guidance for their work? How can we better address the anti-American 
opinion that often appears in the foreign press?
    Answer. The Department has worked closely with embassies to develop 
new initiatives such as American Corners, the Partnerships for Learning 
compendium of exchange programs, and active exploitation of Internet 
and language-versioned website material, for just three examples. The 
public diplomacy bureaus and the Office of the Under Secretary meet 
regularly with public diplomacy directors of the regional bureaus to 
ensure close coordination with embassy programs.
    The Under Secretary's Office of Policy, Planning, and Resources for 
Public Diplomacy and Public Affairs, created in September 2004, was 
created to strengthen strategic focus, coherence and accountability in 
public diplomacy and public affairs. It has begun to address this by:

  <bullet> Coordinating public diplomacy components in the Mission 
        Program Plan and Bureau Program Plan processes, the central 
        processes of the Department for developing funding and other 
        resource support for embassy initiatives;
  <bullet> Expanding the PART process to cover all public diplomacy 
        programs. (PART has been implemented successfully in ECA for 
        the past several years.) PART will provide bureaus and field 
        posts the first set of realistic performance indicators for 
        public diplomacy and public affairs;
  <bullet> Directing public diplomacy resource managers to match their 
        budgets country-by-country with policy priorities.

    The goal is to ensure that we provide our public diplomacy officers 
overseas and in Washington with support and guidance necessary to 
engage, inform and influence publics in support of our national foreign 
policy objectives, and to be able to demonstrate to the Executive 
Branch, Congress, and the taxpayer with confidence that public 
diplomacy and public affairs resources are being used effectively.
    As for addressing anti-American opinion in foreign press, there is 
no easy answer. We must stay engaged with foreign media and opinion 
leaders; we must be part of the discussion of critical issues. We 
support our embassies in the effort in several ways:

  <bullet> The daily policy guidance process, which ensures that 
        embassies have current U.S. policy positions;
  <bullet> Website support, which provides policy and background 
        material for distribution in country, often in the vernacular, 
        including Arabic, Chinese, Russian, French, Spanish and 
        Persian, as well as English;
  <bullet> Frequent briefings of foreign journalists, in the Foreign 
        Press Centers in Washington and New York and Los Angeles;
  <bullet> Video News Releases directed to foreign broadcasters;
  <bullet> Television co-operative programming and other programs to 
        help foreign broadcasters and other journalists to understand 
        U.S. positions and policy on current issues;
  <bullet> An office dedicated to countering disinformation and 
        misinformation that shares its responses throughout the 
        interagency community.

    Question. What criteria are used for selecting new countries to 
participate in the GPOI? What percentage of those new countries do you 
expect to be outside Africa in FY 2006? Will the addition of new 
countries increase the overall number of troops to be trained in FY 
2006 over FY 2005, or will the number of troops to be trained in Africa 
be decreased to accommodate the addition of training in other 
countries?
    Answer. In Africa, peace support training is implemented through 
the African Contingency Operations Training and Assistance (ACOTA) 
program. Currently, ACOTA plans to increase the number of partner 
countries, as well as expand the training provided to existing ACOTA 
partners. Candidates for ACOTA partnership must be countries that have 
participated in peace support operations or expressed a serious 
intention to do so and have competent and professional militaries that 
serve an elected civilian government. The units selected for training 
must be absent reports of gross abuse of human rights. New candidates 
for ACOTA partnership are determined through an interagency process in 
which several offices in the Departments of State and Defense, along 
with the National Security Council, are represented.
    We are still finalizing with DOD how peace support capabilities 
will be developed in other regions of the world. Since each region is 
different, the approach to enhancing peace support capabilities may be 
different. Therefore, it is premature to determine what the percentage 
of new countries to be trained will be vis-a-vis African countries. 
Nonetheless, GPOI envisions assisting countries that have a history of 
participating in international operations.
    Training under GPOI will not occur at the expense of training in 
Africa. New countries trained through GPOI will be in addition to an 
increased number trained through the ACOTA program. The total number of 
troops trained in FY 2006 should increase over the number of troops 
trained in FY 2005.

    Question. MEPI has been criticized for duplicating efforts of USAID 
and other State Department Assistance programs. Is it time to establish 
a single account with a Coordinator to ensure that this is a high 
priority program and gets the full attention and is as effective in its 
implementation as possible?
    Answer. The Department of State does not think that legislation is 
necessary at this point to establish a single account with a 
Coordinator. The Deputy Secretary of State, by virtue of his global 
portfolio oversees strategy direction and implementation of our freedom 
agenda. The newly appointed Principal Deputy Assistant Secretary (PDAS) 
for the Bureau of Near Eastern Affairs (NEA) will specifically serve as 
Coordinator for Broader Middle East Initiatives. While the Department 
believes it has the right structure, it will continue to determine if 
any other organizational changes are necessary.
    Under the guidance of both the Deputy Secretary and NEA PDAS, MEPI 
will continue to coordinate with its counterparts in the State 
Department and other U.S. government agencies, including USAID, through 
both formal and informal mechanisms, such as regular program and status 
meetings, inter-agency pillar committee meetings, and coordinated 
strategic planning and budgeting.

    Question. The Supplemental includes $200 million for assistance for 
the Palestinian Authority with additional $150 million in the FY 2006 
budget request. Has the State Department worked with Palestinian 
President Abbas to develop a plan which identifies priorities and needs 
for the use of these funds?
    Answer. The $200 million in supplemental assistance for the West 
Bank and Gaza is intended to support reform and expand economic 
opportunities for the Palestinian people. This assistance will also 
help the Palestinians to address key economic and technical issues as 
they coordinate with Israel to ensure successful Gaza disengagement. It 
is urgently necessary because the next six months--well before FY06 
resources would be available--will see opportunities for progress 
unprecedented in recent years as regards the peace process: intensified 
USG involvement in strengthening the PA security services, i.e. General 
Ward's mission; completion of Israel's disengagement from Gaza and 
parts of the West Bank (July-September); Palestinian legislative 
elections (mid-July); continuing Palestinian municipal elections (April 
and August); and, ideally, an accelerating process of confidence-
building and improvements on the ground that will strengthen Abu Mazen 
and Palestinian moderates. Finally, this assistance will strengthen our 
arguments to regional states that they need to do more in the way of 
monetary assistance to the Palestinians and the PA.
    The $150 million request for FY 2006 will focus on medium-term 
development needs, including reconstruction of Gaza and revitalization 
of the Palestinian economy in the wake of Israel's withdrawal; 
establishing the necessary foundations for emerging democracy such as 
reforming governing institutions and strengthening civil society; and 
infrastructure development, especially water.

    Question. Will the funds be used to provide direct aid to the 
Palestinians or will some or all of it be provided through NGO's or 
multilateral organizations?
    Answer. The current assistance package will be channeled through 
existing mechanisms, including U.S., Palestinian, and international 
NGO's. Although we do not have any plans to provide direct budgetary 
support to the PA at this time, we would like to keep the option 
available, particularly in light of the PA's estimated $500 million 
dollar budget gap for 2005. There have been two instances that direct 
budgetary assistance has been made available to the PA. In December 
2004, the U.S. provided $20 million directly to the PA to finance 
utility bills in arrearages; another $20 in direct budgetary assistance 
was provided in the summer of 2003 for payment of bills in arrears as 
well as for badly needed infrastructure repairs. Consistent with past 
decisions on direct budgetary assistance, we will coordinate with 
Congress as to the best use of appropriations.

    Question. Do you agree that Palestinian assistance needs to move 
quickly to ensure there are concrete aid benefits to the people? How 
can you speed the delivery process once the assistance is approved by 
Congress?
    Answer. We agree that assistance is urgently necessary because the 
next six months--well before FY06 resources would be available--will 
see opportunities for progress unprecedented in recent years as regards 
the peace process: intensified USG involvement in strengthening the PA 
security services, i.e. General Ward's mission; completion of Israel's 
disengagement from Gaza and parts of the West Bank (July-September); 
Palestinian legislative elections (mid-July); continuing Palestinian 
municipal elections (April and August); and, ideally, an accelerating 
process of confidence-building and improvements on the ground that will 
strengthen Abu Mazen and Palestinian moderates. Accordingly, the USG 
reprogrammed $41 million from previously allocated assistance into 
quick-disbursing programs designed to make an immediate, tangible 
impact on the lives of Palestinians, particularly in Gaza.
    The United States needs to act quickly to ensure that this time of 
opportunity is not lost to those who would continue violence. To do 
this, the new Palestinian President must be supported, and the people 
of the West Bank and Gaza to see that their daily lives are improving.

    Question. I understand that General Ward is being named to 
coordinate the security assistance to the Palestinian Authority. Who is 
going to coordinate the economic and technical assistance and ensure 
that bottlenecks in the process are removed?
    Answer. General Ward's mandate is security. We are seriously 
looking at what we need to do on other areas such as reconstruction and 
development. On the political side, the Quartet will continue to meet 
and encourage both the Israelis and the Palestinians as we move toward 
the Roadmap. As we have consistently stated, the Palestinians must 
continue to improve the security situation in order to achieve a 
lasting peace.
    Regarding economic assistance and potential bottlenecks, our 
missions in Tel Aviv and Jerusalem will continue to work with the 
Palestinians, Israelis, the World Bank, fellow donors and other 
interested parties to ensure economic and technical assistance is 
delivered efficiently, effectively, and tailored to USG policy 
interests, most importantly the President's vision of two states, 
Israel and Palestine, living side by side in peace and security.

    Question. What concrete steps could our ``Quartet'' partners, the 
Europeans, Russia and the United Nations take to facilitate positive 
outcomes? Are we going to coordinate our assistance with other donors?
    Answer. The international community, and specifically the Quartet, 
has a vital role in helping Israelis and Palestinians make progress 
toward the two-state solution. The Quartet continues to support the 
progress made by both the Israelis and the Palestinians, condemn terror 
in the strongest possible terms, and encourage other members of the 
international community to help contribute to our efforts to achieve 
peace. Within the Quartet framework, the Ad Hoc Liaison Comittee (AHLC) 
is one mechanism by which the international donor community coordinates 
its assistance to the Palestinians.

    Question. Do you envision providing assistance to Israel to 
facilitate its disengagement from Gaza and sites in the West Bank? What 
do you see as the risks of this effort?
    Answer. The administration fully supports Israel's plan to 
disengage from Gaza and parts of the northern West Bank. We view 
disengagement as an opportunity for a return to the roadmap and 
fulfillment of the President's vision of two states living side by side 
in peace and security.
    To date, we have not received any request from the Government of 
Israel for assistance in carrying out disengagement. Should we receive 
such a request, we would give it appropriate consideration.

    Question. The FY05 Supplemental includes a request for $150 million 
in additional Foreign Military Financing (FMF) Funds for Pakistan. In 
yesterday's hearing, Mr. Zoellick noted we had come a long way with 
Pakistan in terms of our counterterrorism cooperation, but that we 
still had work to do.
    How do we intend to use the new FMF money for Pakistan? What 
expectations do we have of Pakistan regarding counterterrorism 
cooperation, nuclear nonproliferation, progress in peace talks with 
India, and democratic development?
    Answer. The $150 million was requested to enable the administration 
to honor its commitments. In FY05 the administration requested $300 
million in ESF and $300 million in FMF as the first tranche of the 
President's five-year assistance package to Pakistan. Congress 
appropriated $300 million in ESF, but only appropriated $150 million in 
new FMF for Pakistan, directing the administration to take the 
remaining $150 million from unobligated, prior-year ESF and FMF 
balances. Because FMF is ``obligated upon apportionment'' and pursuant 
to the transfer statute in the FY 2005 Appropriations Act, there are no 
unobligated FMF funds. Reprogramming unobligated ESF funds for military 
purposes runs counter to long-standing practice that funds provided for 
economic purposes should not be transferred for military purposes. This 
is further codified in permanent legislation in section 610 of the 
Foreign Assistance Act, which prohibits the transfer of ESF into FMF.
    This assistance is intended to help us build a stable, long-term 
relationship with Pakistan as recommended by the 9/11 Commission. The 
FMF monies will be used to provide the Pakistani military with 
capabilities that contribute to counterterrorism operations, enhance 
border security, and meet Pakistan's legitimate defense needs. The 
Government of Pakistan has demonstrated its commitment to combating 
terrorism and is very well aware of the importance the U.S. Government 
attaches to preventing the spread of nuclear technologies, pursuing 
regional stability, and building a stable democracy.

    Question. To follow up the question of why the Department of 
Defense is training civilian police forces in Iraq, could you please 
provide for the record a summary of what the State Department's role is 
in DOD's review of the Iraq security forces training undertaken by 
General Luck? Is the Department of State, the traditional expert on 
civilian police force training, engaged in the review process?
    Answer. GEN (Ret.) Gary Luck led an interagency team to Iraq 
January 13-20. The purpose of the team was to assess ways in which to 
accelerate the development of the Iraqi security forces' capacity to 
play a greater role in fighting the insurgency against the Iraqi 
Government and people. The team did not focus on the technical skills 
imparted in basic military and police training. Rather, the team's 
strategic focus was on assisting Iraq's Transitional Government to 
develop leadership and coordinate and combine security resources to 
maximize effectiveness in this critical post-election period.
    The Department of State contributed two officers to General Luck's 
team. In addition, two senior police officers from Coalition partners 
participated: Deputy Chief Constable Colin Smith of the UK and BG 
Leonardo Leso of the Italian Carabinieri. Among those whom team members 
interviewed were participants in both the DOD police training efforts 
of the Civilian Police Advisory Training Team (CPATT) and the State 
Department's Bureau of International Narcotics and Law Enforcement 
(INL) representatives in the Embassy, INL-funded police trainers and 
advisors, and the Iraq Reconstruction Management Organization's (IRMO) 
Senior Consultant to the Ministry of Interior.
    In addition, the State Department's Senior Advisor and Iraq 
Coordinator Ambassador Richard Jones led an interagency team to Iraq 
February 4-8 to look at nonsecurity aspects of building the capacity of 
Iraq's post-election Transitional Government, including in such areas 
as the Ministry of Interior, which controls the police. LTG Odierno of 
the Joint Chiefs of Staff, who participated in both the Luck and Jones 
missions to Baghdad, served as the link between the two.

    Question. The State Department currently has authority under the 
Foreign Assistance Act to ask other agencies to act on its behalf to 
carry out such activities in other countries, so there is no reason to 
create a new authority for DOD to undertake the civilian police 
training mission in Iraq. Why not rely on current authority to allow 
DOD to carry out such activities rather than seek a new authority for 
the Department of Defense to carry out what has traditionally been a 
foreign assistance function?
    Answer. The Department of State agrees that existing foreign 
assistance authorities authorize civilian police training by the 
appropriate U.S. Government entity. Special circumstances that affect 
U.S. foreign policy interests should continue to be addressed through 
current interagency mechanisms rather than through new legislation that 
would extend foreign assistance authorities to the Department of 
Defense.

    Question. The Administration's request for assistance to the 
Philippines for FY 2006 represents a decrease in excess of 30 percent 
from last year's requested level. This reduction in assistance is 
perplexing when compared to the President's budget justification 
stating that winning the war on terrorism is his highest foreign policy 
justification.
    The President has referred to the Philippines as a key partner in 
the war on terror. The recent bombings in three Philippines cities 
reportedly carried out by the Abu Sayyaf terrorist group demonstrate 
the need for sustained assistance to the Philippines.
    What is the rationale behind requesting a reduced amount of 
assistance for the Philippines?
    In light of the increased terrorist violence, what steps will the 
United States take to expand counterterrorism cooperation with the 
Philippines?
    Answer. The Economic Support Fund (ESF) request level for the 
Philippines for FY 2005 was higher than it is in FY 2006 due to 
expectation that a final peace agreement would have been reached 
between the Government of the Philippines and the Moro Islamic 
Liberation Front (MILF) in 2004. Had a peace agreement come about, 
additional funding would have been needed to assist its implementation. 
This did not occur, for a variety of reasons. There was a hiatus in the 
peace process during the Philippine election campaign and the post-
election government restructuring. The Government's failure to deliver 
on commitments made to the Moro National Liberation Front in 1996 has 
given rise to doubts on the part of Muslims in general about its 
willingness to address legitimate grievances. Continued violence by 
MILF hardliners raises doubts about MILF cohesiveness as a negotiating 
partner. A key unresolved issue has to do with ancestral domain, the 
Moro demand for territory to constitute a homeland. The Government of 
the Philippines, with facilitation by the Government of Malaysia, plans 
to resume peace negotiations with the MILF in Kuala Lumpur in April, 
with ancestral domain on the agenda.
    The U.S. Institute for Peace (USIP), which President Bush offered 
to President Arroyo as a resource for the peace process, is still ready 
to play a role whenever the parties agree. However, to date, USIP has 
not been invited to the negotiations. USIP is pushing ahead with 
projects including an intensive study of the issues of ancestral 
domain, which could be useful in helping to reach an agreement. 
According to USIP, Philippines Foreign Secretary Romulo has said that 
ancestral domain provisions of any settlement will be limited to the 
Autonomous Region of Muslim Mindanao (ARMM), an idea MILF officials 
reject.
    The other significant difference between FY 2005 and FY 2006 is the 
Foreign Military Financing (FMF) request level. For FY 2005, additional 
FMF funds were requested as part of an effort to jumpstart the new 
Philippines defense reform initiative. In light of the Philippines 
commitment of significant national funds for defense reforms, our FY 
2006 $20 million FMF request remains in line with allocations in recent 
fiscal years.
    Prevention of and response to terrorism in the Philippines remains 
a top administration priority. In that regard, we have requested a 
significant increase in Anti-Terrorism Assistance from the NADR-ATA 
account from $500,000 in FY 2005 to $5 million in FY 2006. Among the 
programs being considered is an in-country counterterrorism training 
program similar to the one that has been very successful in Indonesia. 
Starting in late 2005 and continuing into 2006, we expect a dramatic 
increase in law enforcement and counterterrorism cooperation with 
Philippine police.
                                 ______
                                 

    Responses From Secretary of State Condoleezza Rice to Questions 
                   Submitted by Senator Paul Sarbanes

    Question. This year's appropriation bill asked the Department to 
recommend as part of the President's FY 2006 budget how best to fund 
and manage a scholarship program at the American universities in the 
Middle East. What are your plans in this respect?
    Answer. The Department has reviewed the language in the 
Consolidated Appropriations Act, 2005, regarding the funding of 
scholarships at American educational institutions in the Middle East. 
Currently, USAID through its programs in Lebanon and Egypt is funding 
scholarships to American universities. The scholarships offer a cross-
section of students access to an American-style education that fosters 
openness, tolerance and critical thinking. In Lebanon, USAID supports 
scholarship programs at the American University of Beirut (AUB) and the 
Lebanese American University (LAU). USAID has allocated $3.4 million in 
FY 2005 funds to support these universities programs, as well as 
$600,000 for two high school scholarship programs in Lebanon. FY 2006 
funding is anticipated to be at the same level. In addition, under its 
Leadership for Education and Development Program (LEAD), USAID offers 
full tuition scholarships to the American University in Cairo for 162 
public school graduates (54 annually, one male and one female from each 
of Egypt's governorates).
    The Department supports the continuation of such scholarship 
programs by USAID and USAID's budget request to continue these programs 
in FY 2006.

    Question. In the Supplemental request, there is a completely new 
fund of $200 million called the ``Global War on Terror Partners Fund.'' 
From all appearances, this fund will reward nations that support our 
foreign policy objectives with large infusions of cash. It is my 
understanding that $100 million of this will go to Poland, which is one 
of our partners, and which I certainly support. But I would like to 
know why this money could not be channeled through normal foreign 
assistance accounts, such as ESF, which was created for exactly this 
type of purpose? Which other countries do you plan to assist under this 
account? And, why was it requested as an emergency supplemental, rather 
than part of the regular foreign operations budget?
    Answer. The President submitted to Congress a request that funds 
the immediate, urgent needs to fight the Global War on Terror and to 
deal with major unanticipated costs and emergencies. While many of our 
coalition partners have the ability to shoulder the costs of troop 
contributions and other support requirements, many other of our 
partners in freedom have limited national budgets to offset these 
costs. In many cases, these willing allies are faced with constrained 
budget resources while at the same time facing a growing demand from 
their citizens for increased social spending. Thus, this Fund reflects 
the principle that an investment in a partner in freedom today will 
help ensure that America will stand united with stronger partners in 
the future. The criticality of these funds is to ensure that we:

  <bullet> Support the broader strategy against terrorism;
  <bullet> Prevent/diminish economic and political dislocation that 
        threatens security of key friends and allies;
  <bullet> Promote economic growth, good governance and democracy; 
        mitigating root cause of terrorism;
  <bullet> Offset budget costs associated with troop contributions that 
        would otherwise support increasing civil demands for social 
        programs.
  <bullet> Programs may include:

    <bullet> Enhanced support for border security units and improving 
            interdiction and enforcement infrastructure of 
            counternarcotics units;
    <bullet> Accelerate training and equipping border personnel to 
            prevent illegal migration, smuggling of goods, narcotics 
            trafficking and transiting of terrorists.

    Without the immediate influx of assistance supporting these 
objectives and our partners, our ability to conduct the Global War on 
Terror could easily be reversed.
    What follows, is the list of countries deemed partners in the GWOT 
for the purposes of this Fund.
                      list of potential recipients
Afghanistan

Albania

Algeria

Armenia

Azerbaijan

Bulgaria

Croatia

Colombia

Czech Republic

Djibouti

Egypt

Ethiopia

El Salvador

Estonia

Georgia

Greece

Hungary

India

Indonesia

Jordan

Kazakhstan

Kenya

Kyrgyz Republic

Latvia

Lithuania

Macedonia

Malaysia

Moldova

Mongolia

Morocco

Oman

Pakistan

Philippines

Poland

Romania

Russia

Slovakia

Slovenia

Tajikistan

Tunisia

Turkey

Turkmenistan

Ukraine

Uzbekistan

Yemen


     
                                 ______
                                 

    Responses From Secretary of State Condoleezza Rice to Questions 
                   Submitted by Senator Joseph Biden

    Question. In your discussions during your recent trip to Europe, 
did you reach any understandings with regard to support we are prepared 
to provide to the EU-Three effort on Iran? If so, could you please 
describe the specific steps we are prepared to take?
    What did the British, the French, and the Germans tell you they 
thought would be needed to reach a deal with Tehran?
    Has the Administration decided its posture with regard to the EU-3 
effort?
    Answer. We welcome the efforts of the EU-3 and have been working 
very closely with them on Iran for some time. We continue to share the 
goal of ensuring that Iran does not acquire nuclear weapons. While we 
welcome the EU-3's efforts in this regard, we continue to remain deeply 
skeptical that Iran will agree to end its nuclear weapons program 
absent further international pressure. We continue to support the 
ongoing investigation by the International Atomic Energy Agency (IAEA) 
and maintain that the IAEA Board of Governors must report Iran's 
noncompliance with its Safeguards Agreement to the U.N. Security 
Council.

    Question. During your confirmation hearing, you indicated that even 
if Iran were to make a verifiable agreement to end its nuclear program, 
it would still not be sufficient to warrant changes in our approach 
because of other Iranian activities. Have you told the Europeans that 
if they make progress in other areas of concern to us, we would then be 
prepared to more actively join with their efforts? If so, how have they 
responded?
    Answer. We have always said that we support a peaceful, diplomatic, 
multilateral resolution to this matter and continue to believe such a 
resolution is possible. At this point, all options are on the table. We 
welcome Foreign Minister Fischer's reaffirmation that if Iran does not 
keep its pledge to suspend all enrichment-related and reprocessing 
activities, the EU-3 will support reporting Iran to the U.N. Security 
Council.

    Question. The aftermath of the Iraqi elections seems to offer 
another opportunity to involve key allies in the effort to stabilize 
Iraq. I have proposed that the President establish a contact group as a 
way to share in decision-making and coordinate assistance. The group 
could consist of the United States, the Iraqi government, major 
European powers, NATO, key regional allies, and the U.N. The group 
would serve as a sort of board of directors, and we would in effect be 
the chairman of the board because we are the largest outside provider 
of troops, resources, and advisers.
    a. Are you planning any mechanism like a contact group? If not, 
why?
    b. What specific commitments did you gain for support for Iraq 
during your trip?
    Answer. The United States strongly supports the Iraqi Interim 
Government's efforts to coordinate international assistance aimed at 
stabilizing Iraq and contributing to its economic recovery. These 
efforts have been broad-based and inclusive, as was clear during the 
several donor conferences held last year as well as the Sharm al Sheikh 
conference hosted by Egypt.
    We will continue to look for ways to enhance the role of the 
international community in Iraq's recovery. An important initial step 
in that process will be to seek the views of the Iraqi Transitional 
Government (ITG), once it is formed. Pending the establishment of the 
new Iraqi government, I discussed mechanisms for enhancing 
international assistance to Iraq with my counterparts during my recent 
visit to Europe. President Bush also plans to raise this issue during 
his upcoming visit to Europe. During my recent visit, I found our 
European allies very engaged on the goal of improving assistance 
coordination. I am optimistic that the international community 
increasingly understands the importance of helping Iraq ensure 
stability and make progress on its path toward full democracy.
    Encouraging international efforts to contribute to Iraq's security, 
political transition, and economic recovery was a central part of my 
recent visit to Europe. The European Commission (EC) has been among the 
major contributors to Iraqi reconstruction efforts, donating 320 
million euros in 2003 and 2004. EU member states pledged almost another 
1 billion euros at the Madrid Donors' Conference. EU member states were 
also among the Paris Club creditors who agreed to forgive 80 percent of 
Iraqi sovereign debt, totaling $32 billion in debt relief. Several EU 
member states also provide bilateral assistance to Iraq.
    During my visit, I discussed with my European counterparts ways to 
implement the European Commission's offer of an additional 200 million 
euros for Iraq's reconstruction in 2005. We also discussed mechanisms 
to enhance coordination of international assistance to Iraq, pending 
consultations with the Iraqi Transitional Government. President Bush 
plans to continue these discussions during his upcoming visit to 
Europe, and I believe we will make significant progress in the near 
future.

    Question. The February l7th unclassified version of State 
Department's Iraq Weekly Status Report lists the ``Total trained and 
equipped ISF (Iraqi security forces)'' as 136,342, but noted that these 
figures do not include unauthorized absences from either Ministry of 
Defense or Ministry of Interior forces. In an average week, what 
proportion of each of the components of the Iraqi security forces are 
on unauthorized absence?
    Answer. The proportion of unauthorized absences for military and 
police during an average week varies widely between components, 
geographic region and levels of insurgent intimidation in the area and 
the time of year. Historically, unauthorized absence rates have ranged 
from over 50 percent in some cases to negligible in others.
    The Department of Defense is the lead agency responsible for 
reporting Iraqi security force training numbers. Ministry of Defense 
totals do not include unauthorized absences; Ministry of Interior 
totals do include unauthorized absences. The State Department remains 
dedicated to supporting DOD's efforts to establish a responsible, 
professional, and accountable Iraqi security force.
    After the issuance of National Security Presidential Directive 36 
in May 2004, which placed the responsibility of developing Iraqi 
security under the charge of DOD, the Multi-National Security 
Transition Command-Iraq (MNSTC-I) was established and tasked with 
developing a new culture for security forces--one of responsibility, 
professionalism, and commitment. Under the former regime, many 
organizational rules, including leave policies for security officials, 
were not enforced in a way resembling Western policies. Within the 
military forces, unauthorized absences appear somewhat ingrained within 
Iraq's military culture. MNF-I has taken steps to replenish the ranks 
of units with excessive unauthorized absences, and intends to continue 
attacking the problem until each Iraqi unit is filled with committed 
soldiers. Specifically, MNF-I is working with Iraqi military leadership 
to drop absent soldiers from the rolls and create vacancies that can be 
matched against replacements (760 soldiers recently filled vacancies in 
Iraq's 1st Division that were the result of casualties and unauthorized 
absences). In addition, MNF-I and Iraqi military leaders are directly 
recruiting former soldiers to serve as individual replacements, and 
overrecruiting to account for training losses and unauthorized 
absences. Further, MNF-I is working through Advisory Support Teams to 
ensure Iraqi leaders at lower levels understand the negative impact of 
unauthorized absences.
    Lastly, MNF-I has focused efforts on toughening the basic training 
of units in order to identify uncommitted soldiers during training, 
rather than during combat operations. The preliminary results of these 
measures are encouraging, and as Iraqi military units gain more 
operational experience and confidence, the level of unauthorized 
absences drops. Our experience tells us that after initial training, 
every Iraqi unit loses a portion of soldiers. Those who stay, however, 
have been hardened, and have fought well in Najaf, Samarra, Fallujah, 
Mosul, and in support of the Iraqi elections.
    By all accounts, unauthorized absences are not a problem within the 
specialized police and paramilitary forces. The elite nature of their 
duties and the highly discriminating nature of their force selection 
make it likely that this trend will continue. MNF-I continues to 
observe these forces to ensure that manning levels do not drop after 
changes in leadership occur within the Iraqi government.
    Though accounting for absences in military and paramilitary forces 
is relatively straightforward, the nature of duty within conventional 
police forces and the lack of MNF-I oversight on the ground in each of 
the 1,200 police and border stations make real time duty strength 
assessment more difficult. Many stations still do not operate at night, 
and the lack of automated systems for reporting daily personnel 
strength makes routine data collection extremely difficult. It may take 
several months before MNF-I is able to determine the level of 
unauthorized absences within conventional police forces with the same 
fidelity as military forces.

    Question. Could you provide us a comprehensive list of the 
countries that actually have made an offer that you're aware of, an 
offer to assist in training Iraqi security forces--police, national 
guard, any security forces--a description of the specific offers they 
have made; when the offers were made, and what your response has been 
and likely will be?
    Answer. Manning, training, and equipping the Iraqi security forces 
under the auspices of the Multi-National Forces--Iraq, falls under 
MNSTC-I and Lieutenant General Petraeus. He is also ``dual-hatted'' as 
Commander, NATO Training Mission-Iraq (NTM-I), as the leader of that 
effort. NATO is executing a series of formal courses in Iraq under NTM-
I. Iraqis also attend NATO schools outside Iraq. We understand that 
MNSTC-I carefully considers all offers made to the Multi-National Force 
to train the Iraqi security forces. For specific details of the 
training offers made to MNSTC-I, I will defer to my colleagues at the 
Department of Defense.
    Regarding bilateral offers to train Iraqi security forces made 
directly to the government of Iraq, we have compiled as much 
information that we were able to collect, however, we often do not have 
information about bilateral offers made directly to the government of 
Iraq by other sovereign governments. With that in mind, the information 
below is the best information we have available and is not intended to 
represent a definitive list of bilateral offers made to the Iraqi 
government.

  <bullet> Spain: Spain has proposed training Iraqi security force 
        personnel at its de-mining center; that offer was made through 
        NATO. The Spanish are considering offering training in the 
        region (outside Iraq) but have made no official offer yet.
  <bullet> France: The French have offered to train 1,500 Iraqi police/
        gendarmes over an 18-month period. This offer has been made 
        numerous times, at various levels, including by President 
        Chirac to IIG President Al-Yawer in Paris in January 2005. The 
        French training would take place outside of Iraq, most likely 
        in Qatar or in France. The French have made it clear they would 
        be willing to offer the training in out years as well. The 
        Iraqis have not responded to this offer. Separately, the French 
        have offered (though an EU assistance program to Iraq) to 
        provide a 4-week training program to 160 Iraqi police in France 
        this summer.
  <bullet> Italy: Outside of their NATO contributions, the Italians 
        have trained approximately 69 Iraqi staff officers at Italian 
        War College. Italy's Chief of Police has expressed interest in 
        training up to 50 Iraqi police in antiterrorism and organized 
        crime (Mafia) investigations; however, the Iraqis have not yet 
        made a policy decision on this offer.
  <bullet> Germany & UAE: The Germans have been conducting training for 
        both the Iraqi Police Service and the Iraqi Army in the UAE. 
        Four classes in police fundamentals of crime scene 
        investigation (more than 400 students) were executed in 2004 
        and plans are to continue the program into 2005. Further, there 
        are currently 30 Iraqi police officers attending a course in 
        personal protection training designed to train Iraqi police to 
        protect politicians. That course will be followed by a two-
        month course in hostage rescue techniques for the same group of 
        police officers (the UAE police will provide that follow-on 
        training). German training programs for the Iraqi Army consist 
        of truck driving and maintenance courses to support vehicles 
        donated to the Iraqi Army and sold to the UAE. That program is 
        expected to continue into 2005 and a schedule is in place. 
        During Chancellor Schroeder's visit to the UAE March 4-5, 2005, 
        the UAE, Germany, and Iraq signed an agreement for additional 
        Iraqi military training. Germany will supply the instructors 
        and construction equipment to train and equip an Iraqi 
        engineering unit. The UAE will continue to cover most of the 
        expenses and provide facilities.
  <bullet> Belgium: The Belgians have pledged to send 15 to 20 trainers 
        to the UAE to assist the German-led training effort.
  <bullet> Turkey: The Government of Turkey made a bilateral offer to 
        train Iraqi Security Forces before the January 2005 elections. 
        Turkey was disappointed that the Iraqis did not accept or even 
        respond to the offer, which still remains open. The Turks have 
        offered at least five other specific courses through NTM-I.
  <bullet> Jordan: Pilot, crew, and technician training for the UH-1 
        helicopter and the C-130 aircraft has been conducted in the 
        Kingdom; 313 Iraqis have been trained to date; 1,661 new Iraqi 
        military officers and NCOs (including females) have been 
        trained. Almost 100 Iraqi liaison officers and interpreters 
        have been trained. Over 150 members of Iraqi special police 
        forces have received training at a 12-week course in Jordan; 
        more are currently in training. Jordan also hosts the 
        International Police Training Center (JIPTC) where State/INL 
        international police trainers implement basic police training 
        and border enforcement officer training. The Jordanian Armed 
        Forces also have personnel conducting NCO training in Iraq.
  <bullet> Egypt: President Mubarak made an offer to train Iraqi 
        security personnel ``in any discipline'' in September 2003. 
        Under a bilateral agreement, the Egyptian Ministry of Interior 
        conducted police training for approximately 258 Iraqi police 
        officers in August 2004. Furthermore, in 2003, 146 Iraqi army 
        personnel received a three-week training course in Egypt. 
        Embassy Cairo informs us that President Mubarak's security 
        personnel training offer remains valid and the Egyptian 
        Government is prepared to train up to 500 army personnel in 
        four-week training cycles, or up to 5,000 per year; the Iraqi 
        government has not responded.
  <bullet> Morocco: In July 2004, King Mohammed VI's offer to Prime 
        Minister Allawi to host training courses for the Iraqi police, 
        army, and civil protection units was publicly announced. The 
        King offered training in all fields at all Moroccan training 
        centers and institutes. Our information is that the Iraqi 
        government has not responded.

    Both MNF-I and our Embassy in Baghdad are ready to support any 
offer by our allies to contribute to the MNF-I and MNSTC-I programs to 
train the Iraqi Security Forces. We understand, based on statements 
made by Iraqi government officials, that it prefers training be 
conducted in Iraq and coordinated by MNSTC-I or NTM-I. We have 
supported the Iraqi government's desires and have emphasized with 
others that in-country training is the preferred option. However, the 
Iraqi Government and its allies are free to conclude their own 
bilateral agreements. We will offer the Iraqi government resources and 
expertise to assist them in evaluating and facilitating bilateral 
training offers where possible. But, in the end, acceptance or 
rejection of bilateral offers of Iraqi Security Force training is 
ultimately an Iraqi Government decision.

    Question. The President's $81.9 billion supplemental request 
explains the need for an additional $5.7 billion for training Iraqi 
security forces by noting in part that ``all but one of these 90 
battalions, however, are lightly equipped and armed, and have very 
limited mobility and sustainment capabilities.''
    In light of this fact, could you elaborate on the criteria used to 
designate a member of the Iraqi security forces as ``trained and 
equipped'' in the Iraq Weekly Status Reports?
    Answer. The term ``trained'' was defined by the Department of 
Defense to be quantifiable and consistent. An Iraqi Security Force 
member is considered trained and equipped after he completes the 
appropriate institutional training program, demonstrates the ability to 
meet the minimum standards established in the program, and is provided 
with the essential equipment items required for an assigned mission. 
Roughly 140,000 Iraqis have achieved the established standards for the 
institutional phase of their training, received their required 
equipment, and graduated from their respective courses. Most forces, 
however, still lack the capacity to conduct and sustain independent 
counterinsurgency operations and therefore continue to develop their 
skills through on-the-job training, mentoring and experience gained in 
actual operations.
    Iraqi police courses are offered at regional training centers and 
are coordinated by the Department of State's Bureau for International 
Narcotics and Law Enforcement Affairs. DOD's Multi-National Security 
Training Command (MNSTC-I) coordinates Iraqi Army courses at the basic 
training center at Kirkush Military Center. Graduation rates from these 
two training facilities indicate an objective measure of evaluated 
training in a controlled environment under supervised conditions.
    Key elements presently being addressed for ``post-graduate'' forces 
include leadership, establishing properly manned, trained and capable 
headquarters, reversing absenteeism, and revitalizing a military ethos 
committed to national service under civilian control. The State 
Department remains committed to supporting DOD's efforts to provide 
Iraqi security forces with the training and equipment necessary for 
lasting effectiveness.

    Question. I share the Administration's opposition to the prospect 
of the European Union lifting its embargo on sales of weapons to China.
    a. What specific concerns does the Administration have?
    b. What is the likelihood the EU will not proceed to end the 
embargo?
    c. Assuming the EU does proceed to lift the embargo, are there 
other steps we're urging them to take that would mitigate our concerns? 
If not, what do we intend to do about it?
    Answer. The embargo was imposed in response to the killings of 
hundreds, perhaps thousands, of Chinese citizens by Chinese troops 
during the Tiananmen Square massacre in 1989. Fifteen years later, over 
200 citizens remain in prison for their political activities during the 
Tiananmen demonstrations, and China has refused to undertake a 
reassessment of the event. In addition, the Government has never 
provided a comprehensive, credible accounting of all those missing or 
detained in connection with Tiananmen. Overall, although China clearly 
has made significant progress in the areas of economic and social 
reforms since 1989, there has been very little political reform and 
government authorities continue to suppress any religious, political or 
social groups, as well as individuals, that they perceive to be a 
threat to government power or stability. Citizens who seek to express 
openly dissenting political or religious views face repression. Lifting 
the embargo would send a signal that the EU considers the lack of 
accountability for the Tiananmen massacre and the current poor human 
rights situation acceptable.
    From a strategic perspective, the lifting of the embargo would send 
the wrong signal regarding arms sales to China and likely result in an 
increase in arms sold to China. If the EU lifts the embargo, the 
overall restraint inherent in an EU-wide policy would be gone. While 
there may be no current intentions to sell specific weapons, even with 
the arms embargo and a Code of Conduct in place, the sales of licensed 
military-related goods to China by European states doubled from 2002-
2003. The pressure from China and from domestic industries to make 
additional sales will only increase with the embargo lifted. Lifting 
the embargo sends a clear signal that the EU is open to considering 
military exports to China. The Administration is unconvinced that the 
EU's proposed arms export regimes to replace the embargo, consisting of 
an enhanced Code of Conduct and a ``toolbox'' for post-embargo states, 
could fulfill the commitment the EU made in December 2004 that EU 
member states would not increase arms exports to China in quantitative 
or qualitative terms. Lifting the embargo would also send a signal to 
non-EU arms exporters that sales to China are acceptable. An increase 
in arms sales would be perceived as destabilizing by China's neighbors.
    While the EU continues to state it is working towards lifting the 
embargo, it is not clear that a consensus has been reached on lifting 
the embargo under the current Luxembourg Presidency. We are hopeful 
that senior EU and EU Member State officials will recognize the 
validity of repeated Administration and Congressional arguments, as 
well as the views expressed by many others (including Europeans), that 
lifting the embargo at this time would be unwise.
    We have advised the EU that we will not negotiate terms for lifting 
the embargo nor will we intercede with Congress. Our position is clear: 
ending the embargo is a bad idea and we will not support the European 
Union doing so. Rather than rush to lift the embargo, we have 
encouraged our European partners to engage with us and the Japanese on 
a strategic dialogue regarding China.

    Question. On February 1, the King of Nepal dismissed his country's 
government, suspended civil liberties (including right of assembly and 
freedom of the press), placed dozens of top political figures under 
summary detention, and gave free rein to security forces whose human 
rights record had already been described by the State Department as 
``poor.'' In light of this setback to democracy, does the 
Administration plan to alter its FY 2006 request for 168 percent 
increase in foreign military financing to Nepal?
    Answer. We are deeply troubled by King Gyanendra's February 1 
dismissal of the government, declaration of a state of emergency, 
suspension of fundamental rights, and detention of politicians, 
journalists and human rights activists. This serious setback for 
Nepalese democracy risks eroding even further the Nepalese Government's 
ability to resist the Maoist insurgency. We have repeatedly called on 
the government to restore democracy and engage in dialogue with 
legitimate political forces, essential elements in pressuring the 
Maoists to return to the negotiating table and reach a peaceful 
resolution to the conflict.
    In recent years, the Maoist presence has spread dramatically 
throughout Nepal. The Maoists have made clear their intention to impose 
a dictatorship, severely limit political and economic freedoms and 
export their revolution to neighboring states. The humanitarian 
ramifications of such a regime would be immense, reminiscent of the 
nightmare brought upon Cambodia by Pol Pot.
    Given this stark situation, the U.S. must balance its assistance 
programs to help Nepal prevent a Maoist takeover and build a peaceful 
and prosperous future without condoning the King's actions or any 
future decisions that would run counter to restoration of democracy. 
Nepal's security forces play a critical role in denying the Maoists a 
military victory. Thus, at this time we do not intend to alter our FY 
2006 request, but are carefully reviewing our military assistance 
programs.

    Question. Some vitally important State Department programs find 
useful work for former nuclear, chemical and biological weapons 
scientists in Russia and elsewhere. The budget for these programs would 
increase by $2.1 million in FY 2006.
    At the same time, however, these programs are being asked to take 
on more responsibility in Iraq and Libya--tasks that could easily cost 
$10-$15 million. So they're faced with the prospect of having to divert 
money from the effort in Russia in order to redirect scientists in 
Iraq. Your Department's own budget justification underscores the 
problem. It states that the FY 2006 budget:

  <bullet> Will allow only ``minimal support'' to the Biotechnology 
        Engagement Program that the Department of Health and Human 
        Services conducts for your Department;
  <bullet> May allow the Department of Agriculture to ``begin a modest 
        engagement'' with former biological weapons institutes in 
        Ukraine, which no other U.S. program has ever reached; and
  <bullet> Will limit the Bio-Industry Initiative to engineering 
        assessments of how to reconfigure former Soviet biological 
        weapons plants, business plans, and research projects, despite 
        the fact that ``several expert assessments begun in past years 
        are now complete and larger reconfiguration projects are ready 
        for funding''--that will not be forthcoming under this budget.

    Then there is the important project to find peaceful careers for 
former weapons of mass destruction scientists in Iraq. That is a vital 
effort in a country that is rightly the focus of tremendous concern. 
And your own budget justification states: ``To continue operations 
beyond FY 2005 . . . significant additional funding will be needed in 
FY 2006.''
    The President has said he is committed to keeping the world's most 
dangerous weapons out of the hands of the world's most dangerous 
regimes, but this budget simply does not match his rhetoric. We cannot 
expect to successfully stop the proliferation of weapons expertise if 
we are not willing to commit the necessary resources to the fight.
    Why aren't you doing more to insulate former Soviet weapons 
scientists from the lure of overseas employment or contracts?
    Answer. The Department of State is making a significant, effective 
effort. State's Science Centers Program manages USG participation in 
the two intergovernmental organizations created to redirect former 
Soviet weapons scientists away from marketing their weapons of mass 
destruction (WMD) expertise to proliferant states and terrorist groups 
and towards sustainable civilian employment. Since 1994 through the 
International Science and Technology Center (ISTC) in Moscow and 1996 
through the Science and Technology Center (STCU) in Kiev, the U.S. and 
its international partners (Canada, EU, Japan, S. Korea, Norway) have 
funded peaceful, multi-year research projects engaging over 60,000 
former weapons scientists.
    In the last few years, the U.S. emphasis in the Science Centers has 
been on integrating former weapons scientists into the global 
scientific and business communities. The Centers have developed 
comprehensive programs to train scientists to interact with western 
counterparts and business people. They run grant writing workshops to 
explain how to write competitive scientific project proposals for a 
western audience. They give business training and run seminars to 
explain patent filing and other intellectual property rights issues. In 
addition, both Centers have a ``Partners Program'' that matches ex-
Soviet WMD institutes with western companies and research organizations 
and helps them formulate cooperative business arrangements.

    Question. The President's supplemental request includes $200 
million in economic support funds ``to help Palestinians build 
democratic institutions, develop infrastructure, and support critical 
sectors such as education, home construction, and basic social 
services. Of these funds, $50 million will also be used on programs to 
help Israelis and Palestinians work together on economic and social 
matters, including movement of people and goods in and out of Israel.''
    Please provide more information on how the State Department plans 
to use this $200 million. How do you expect this money to be 
distributed? How will accountability and transparency be assured? What 
do you hope to accomplish with this funding, and in what timeframe? 
Have you been able to leverage the President's offer to gain additional 
pledges of assistance from others, in particular the Gulf States?
    Answer. The $200 million in supplemental assistance for the West 
Bank and Gaza is intended to support reform and expand economic 
opportunities for the Palestinian people. This assistance will also 
help the Palestinians to address key economic and technical issues as 
they coordinate with Israel to ensure successful Gaza disengagement. It 
is urgently necessary because the next six months--well before FY06 
resources would be available--will see opportunities for progress 
unprecedented in recent years as regards the peace process: Intensified 
USG involvement in strengthening the PA security services, i.e., 
General Ward's mission; completion of Israel's disengagement from Gaza 
and parts of the West Bank (July-September); Palestinian legislative 
elections (mid-July); continuing Palestinian municipal elections (April 
and August); and, ideally, an accelerating process of confidence-
building and improvements on the ground that will strengthen Abu Mazen 
and Palestinian moderates. Finally, this assistance will strengthen our 
arguments to regional states that they need to do more in the way of 
monetary assistance to the Palestinians and the PA.
    The current assistance package will be channeled through existing 
mechanisms, including United States, Palestinian, and international 
NGOs. Accountability and transparency are issues we take most 
seriously. The U.S Government, working through USAID, maintains close 
accounting of all USG funds. Working with the full range of agencies 
and resources available at Embassy Tel Aviv and Consulate General 
Jerusalem, USAID carries out background checks on all Palestinian NGOs 
that are recipients of funds to ensure there are no links to terrorist 
organizations or to organizations that advocate or practice violence.
    Since 1995, the GAO has conducted four separate program reviews, 
one each in 1995, 1996, 1997 and 1998. None of these reviews has 
reported any irregularities in the management or controls of ESF funds 
by USAID or its contractors and grantees. Since then, the USAID Mission 
has developed a comprehensive risk assessment strategy. All Mission 
institutional contacts and grants--of which there are approximately 
100--are audited on an annual basis by local accounting firms under the 
guidance and direction of USAID's Inspector General.
    The IMF provides the USG with updates on contributions to the 
Palestinian Authority. Major contributors since 2002 include: Saudi 
Arabia, which has provided bi-monthly budgetary support in the amount 
of approximately $15 million; Libya (contributed $11 million in 2004); 
and Tunisia (contributed $2 million in 2004). Several other Arab states 
made pledges to the Palestinian Authority in 2002, which currently 
remain unmet. We are encouraging them, and others, to recognize the 
opportunity that now exists and do what they can to help the PA close 
its budget gap and support the new PA leadership as it moves forward 
with reforms and a renewed dialogue for peace.

    Question. Why is the Iraqi scientists program not funded in either 
the FY 2006 budget or the Iraq supplemental recently submitted by the 
President?
    Answer. The State Department's program to redirect Iraqi weapons 
scientists to peaceful, civilian employment in support of Iraqi 
reconstruction is a priority nonproliferation effort, and the program 
office--the Iraqi International Center for Science and Industry 
(IICSI)--has been operating in Baghdad for nearly a year.
    Well over a hundred Iraqi scientists, technicians and engineers 
with WMD or missile expertise are currently participating in IICSI 
activities for which they receive monthly stipends. The Center, working 
with the Embassy, is now actively involved with Iraqi government 
ministries to find participating scientists permanent employment with 
those ministries. At the same time, IICSI continues to expand its 
outreach to other Iraqis with WMD experience who have not yet benefited 
from the program.
    We are determined to maintain this vital program in operation as 
long as it is needed and have included it in our FY 2006 budget 
request.

    Question. How do you plan to address the budget deficiencies in 
these important nonproliferation programs?
    Answer. This administration has always strongly supported 
nonproliferation and threat reduction programs. State's programs are 
part of the broader U.S. effort in support of the global partnership 
and are complemented by nonproliferation and threat reduction programs 
at the Departments of Energy and Defense. The President's budget 
reflects this support by providing enough resources to meet their 
programmatic needs in the context of overarching budgetary limitations. 
We will continue to work closely with the Congress to ensure these 
programs are adequately funded and will continue to provide substantial 
funding for these programs in the outyears.

    Question. The FY 2006 budget request includes $8.75 million for the 
Small Arms and Light Weapons Destruction program.
    a. How much of this budget will be devoted to MANPADS destruction, 
and how much to destroying small arms and light weapons?
    b. Can this budget fund all requests for destruction assistance 
received by the State Department, or do we turn countries down due to 
lack of funds?
    Answer. MANPADS destruction is the office's highest priority NADR 
SA/LW activity and takes precedence over other destruction efforts. We 
cannot state exactly how much of the FY 2006 funds will go to MANPADS, 
given the inherent uncertainty in convincing states to agree to destroy 
weapons that they often view as vital to their national security and/or 
a valuable commodity. As an illustrative example, MANPADS destruction 
accounted for roughly 75 percent of the almost $4 million in FY 2004 
funds appropriated by Congress. We expect MANPADS to remain our number 
one priority for the foreseeable future.
    Historically, the primary constraint on the destruction program has 
not been a lack of funds, but getting countries to agree to destroy 
weapons that are often viewed as vital to their national security and/
or a valuable commodity. It has been the job of the State Department to 
convince countries of the need to destroy excess/at-risk stockpiles in 
order to prevent proliferation. Recently, however, several countries 
have requested international assistance with the destruction of large 
post-Cold War stockpiles of weapons and/or munitions. These requests 
were not known at the time of our FY 2006 budget submission. We will 
look to assist where we can, but will also look to the donor community 
for support as well.

    Question. The President's budget for FY 2006 includes a U.S. 
contribution of only $14.35 million to the International Monitoring 
System being established by the Comprehensive Test Ban Treaty 
Organization Preparatory Commission. That is 25 percent below the 
amount requested for FY 2005 and at least 30 percent below what is 
needed for FY 2006.
    The Department's budget justification calls this program ``a key 
element in our global efforts against the proliferation of nuclear 
weapons'' and ``an important supplement'' to U.S. monitoring 
capabilities.
    Why, then, is the Administration proposing this cut?
    Answer. The $7.65 million cut in funding for the International 
Monitoring System (IMS) does not signal a change in U.S. policy toward 
the Comprehensive Nuclear-Test-Ban Treaty (CTBT). The U.S. continues to 
support and participate in those activities of the Preparatory 
Commission for the CTBT Organization (CTBTO PrepCom) in Vienna that 
pertain to the IMS, and the U.S. has no plans to press the PrepCom to 
lower its budget to a level commensurate with the $14.35 million that 
the Administration has allocated for it in FY06.
    Unfortunately, budgets are very tight and cuts had to be made, even 
among programs supported by the Administration. A number of other cuts 
were made in the Department's program requests, including in the areas 
of non-proliferation and counter-terrorism. The level of funding for a 
program in any given year's budget does not necessarily have a bearing 
on the funding level for that program in the succeeding years.
    It is important to note that the U.S. continues to observe a 
nuclear testing moratorium and encourages other states not to test. 
While the U.S. does not support the CTBT and will not become a party to 
it, the U.S. has gone to great expense to develop a Stockpile 
Stewardship Program to help ensure the safety and reliability of our 
nuclear weapons stockpile without testing.

    Question. In his second Inaugural Address, the President spoke 
eloquently about promoting human freedom. Within a day, however, the 
Administration was attempting to downplay its significance, suggesting 
it would not lead to new directions in American foreign policy. But the 
President's words cannot be erased from history; their echoes have 
already given hope to democrats and dissidents, and it would hardly 
serve his goals to adhere to the status quo.
    What are the ramifications of the President's address? Do you 
expect any new directions in our policy?
    Answer. The President's second Inaugural Address marked a 
reaffirmation and strengthening of our existing policy. Promotion of 
freedom has been a cornerstone of our national strategy since September 
11, 2001 attacks. We believe the expansion of ordered liberty to be the 
most effective long-term deterrent to the security threats posed by 
religious extremism, instability, tyranny, and terrorism. Besides being 
in our national interest, promoting human rights and democratic 
institutions are also consistent with our national ideals. The American 
transition and universal human rights standards both recognize the 
intrinsic and inalienable dignity of the human person, and the rights 
and freedoms that stem from that dignity. It is the responsibility of 
governments to respect and secure those rights for their citizens.
    These principles have characterized the Administration's foreign 
policy. As the President declared on his September 20, 2001 address to 
Congress, ``The advance of human freedom--the great achievement of our 
time, and the great hope of every time--now depends on us.'' This was 
reaffirmed in the National Security Strategy issued on September 17, 
2002, which declared one pillar of our foreign policy to be ``we will 
extend the peace by encouraging free and open societies on every 
continent,'' because ``freedom is the non-negotiable demand of human 
dignity; the birthright of every person--in every civilization.'' The 
President expanded on these principles in his November 6, 2003 address 
to the National Endowment for Democracy. ``The advance of freedom is 
the calling of our time; it is the calling of our country . . . And we 
believe that freedom--the freedom we prize--is not for us alone, it is 
the right and the capacity of all mankind.''
    As the President affirmed in his second Inaugural Address, the 
Administration's foreign policy will continue to adhere to these 
principles, as we work to implement the President's agenda of promoting 
human rights, democracy, and rule of law around the world.

    Question. In light of the objectives set forth in the President's 
address, why is the budget for the HRDF in the Department being reduced 
from $36.7 million in FY05 to $27 million in the FY06 budget?
    Answer. Administration requests to fund the Human Rights and 
Democracy Fund (HRDF) remained consistent from FY 2005 to FY 2006. HRDF 
is designed to provide funds to innovative seed projects that support 
and strengthen democratic institutions, promote human rights, and build 
civil society, which can be used as models for future funding by other 
departments or agencies. This level of funding, in conjunction with 
other funds administered by DRL, allow for the adequate funding of 
current priorities.
    In addition to HRDF funds, the Bureau of Democracy, Human Rights 
and Labor also administers other substantial funds to promote similar 
objectives. These include Iraq Relief and Reconstruction Funds (IRRF), 
and ESF for Cuba, NED grants and Burma, and some Assistance for Eastern 
Europe & Baltic States (AEEB).

    Question. Why is funding for the Partnership to Eliminate 
Sweatshops, a modest program funded at just under $2 million per year, 
proposed for elimination in the FY06 budget?
    Answer. While there is no request for a separate budget line item 
for this program in FY 2006, DRL will continue to seek ways to support 
the program's goals through the use of funds under HRDF. The activity 
and its goals have not been abandoned.

    Question. The Administration is proposing to the U.N. Security 
Council that an international tribunal be established to prosecute war 
crimes committed in Darfur rather than support a referral to the 
International Criminal Court.
    a. Why are we suggesting that another tribunal be established?
    b. What is the projected cost of such a tribunal, and what will be 
the U.S. share?
    c. Will such a tribunal be limited in duration, and if so, for how 
long?
    d. How long will it take to set up such a tribunal to prosecute 
alleged war criminals compared to allowing the prosecutions to proceed 
at the Hague?
    Answer. We have proposed the establishment of a ``Sudan Tribunal'' 
because we seek a fundamental African role in accountability, and 
because of our concerns regarding the International Criminal Court 
(ICC). This proposal, and our overall ICC policy, is consistent with 
the American Servicemembers' Protection Act, passed by the Congress 
with strong bipartisan support, which prohibits assistance and support 
for the ICC. We believe the Rome Statute establishing the ICC is 
fundamentally flawed and cannot support it. It creates a prosecutorial 
system that is an unchecked power and is open for exploitation and 
politically motivated prosecutions. A referral by the U.N. Security 
Council, as currently proposed by ICC supporters for the Darfur case, 
would not address these fundamental ongoing concerns we have with the 
ICC, and our concerns about the exposure of U.S. servicemembers, 
officials, aid workers, and other citizens to unwarranted investigation 
and prosecution by the ICC. In addition, the ICC does not have temporal 
jurisdiction to prosecute the range of crimes referred to by the U.N.'s 
Commission of Inquiry in that some of these crimes were committed prior 
to July 1, 2002.
    At the same time, we strongly support a call for accountability for 
the atrocities in Darfur, and believe that a Sudan Tribunal--created 
and mandated by a UNSC resolution and administered by the African Union 
(AU) and the United Nations--is the best means of providing this 
accountability. The Tribunal could be based in Arusha, Tanzania, at 
least initially, and could share the existing infrastructure of the 
International Criminal Tribunal for Rwanda (ICTR). This approach would 
respect the AU role in building institutions and solving problems in 
Africa. The AU has played a critical leadership role in Darfur; this 
type of court would allow the AU to continue that leadership role as 
accountability is pursued.
    Start-up costs for the Tribunal's first 6-8 months of operations 
are estimated at $30 million. As the Tribunal becomes fully 
operational, we anticipate that the costs will rise; however we believe 
the costs will be manageable. Our preferred funding option is U.N. 
assessed contributions, under which the U.S. portion would be 
approximately 25 percent (assuming the model for the Yugoslavia and 
Rwanda tribunals is used). The Tribunal would operate initially for 3-5 
years, renewable annually as needed.
    Any court that takes on Sudan war crimes would require substantial 
new staff and budgetary resources. The ICC, for example, has a limited 
presence in Africa, and this staff is occupied with the Uganda and 
Congo investigations and possible ICC action in the Central African 
Republic. The ICTR, in contrast, has extensive infrastructure on the 
ground. We therefore do not see a significant difference in start-up 
time or cost between the ICC and an AU-U.N. Sudan Tribunal.

    Question. The African Union (AU) has made an admirable attempt to 
respond to the crisis in Darfur, but even with the help of the 
international community, the AU has managed to put only about 1,900 
troops on the ground out of a mandated 3,200 since last fall. It is 
apparent that we cannot rely on the AU alone. What additional steps is 
the Administration going to take to help improve the security situation 
in Darfur and bring an end to the ongoing genocide?
    Answer. The solution to the crisis in Darfur will require a 
combination of political, peace monitoring, and humanitarian actions. 
On the political side, we will continue placing great pressure on the 
GOS to end the activities of the militias and to comply with their 
obligations under various U.N. Security Council resolutions. Upcoming 
talks in Abuja will provide an opportunity to reinvigorate the April 8, 
2004 Humanitarian Ceasefire Agreement.
    In terms of peacekeeping, we have confidence that the African Union 
offers the best approach for immediately improving the security 
situation in Darfur and bringing an end to atrocities. African Union 
Mission in Sudan (AMIS) personnel have proven to be both effective and 
innovative, and have approached their task with a high degree of 
professionalism. They have produced tangible improvements in security 
in the areas where they have deployed. There are more than 2,300 AMIS 
personnel currently deployed, including the full complement of 
protection forces and most of the military observers. We are working 
with other donors and African countries to enable the AU to deploy the 
remaining military observers and civilian police units in the coming 
weeks.
    AMIS has adopted an active approach to its mandate that is 
achieving results on the ground. In addition to investigating 
allegations of ceasefire violations, patrol teams respond to fast-
breaking situations where attacks are imminent. They have directly 
prevented village destruction and displacement through their quick 
response. Also, patrols are coordinating with women's groups in 
Internally Displaced People (IDP) camps to provide protection while 
women gather firewood outside the camp. Sector commanders routinely 
mediate between tribal leaders to cut short the spiral of violence and 
revenge.
    The security situation in Darfur, while improved since January, 
remains fragile and continues to negatively affect the humanitarian 
situation. Attacks on villages continue while rape, banditry, and 
roadside attacks contribute to serious insecurity throughout Darfur. A 
recently concluded assessment visit by the AU and U.N., with technical 
assistance from the EU and the United States, examined the AU mission's 
capacity to deliver security and will make recommendations on 
strengthening the mission. The Department will analyze the results of 
the mission and determine how it can support any needed adjustments to 
the mission and force structure.
    The United States continues to lead the international response to 
Darfur. We have contributed $588 million for humanitarian assistance in 
Darfur and for the 213,000 refugees across the border in Chad. We have 
also committed more than $95 million to the AU mission and are 
providing military and civilian observers and experts to the mission, 
the latter of which is vital in the effort to strengthen the AU's 
command and control capabilities. With our continued pressure and 
support and the support of the international community, security that 
is needed to make real progress in Darfur will be attained.

    Question. The budget request for the Andean Regional Initiative is 
largely unchanged over last year, at $735 million. Plan Colombia was 
supposed to be a five year plan, ending this year. What do you 
anticipate for the future of the program?
    Answer. USG support for Plan Colombia is a key part of the Andean 
Counterdrug Initiative (ACI), which is how the Andean Regional 
Initiative has been known since its mission has focused more directly 
on counternarcotics. This answer will refer to ACI.
    U.S. policy is to respond to the Andean region's social, economic, 
governmental, narcotics, and terrorism challenges in a balanced and 
comprehensive manner. Our programs support, but do not substitute for, 
the broader efforts of the region's governments and societies. Failure 
to sustain our programs until the host nation can completely take them 
over could have serious consequences and lead to greater availability 
of cocaine and heroin on the streets of America at a lower price. All 
our programs must strive for handoff to the host nation, but not before 
the host nations are ready. Each ACI country will make progress at its 
own pace.
    In the coming years, we expect the focus and balance of USG 
assistance to the region will gradually shift both programmatically 
and/or geographically. For example, we expect to see a relative decline 
in police and military support programs that are operational in nature, 
but an increase in institutional development and professionalization 
activities for the police and military. There may also be the need to 
consider increases in general economic development assistance as the 
narcoterrorists' influence decreases. Host nation or other 
international funding will increase over time, and USG funding likely 
will decrease.
    Future plans for the ACI program vary in each of the seven ACI 
countries. In the source countries where we have invested significant 
funding, such as Colombia, we are at the mid-term point for certain 
projects. In the transshipment countries, our investment has not been 
as significant and we have not moved to the mid-term stage in a 
comprehensive fashion. However, for countries like Brazil, Ecuador, and 
Panama, our programs serve as models for greater host nation 
investment.

    Question. Since 2000, when aggressive aerial eradication programs 
began in Colombia, coca cultivation in the country has been cut almost 
in half. At the same time, the street price of cocaine is as cheap as 
ever (in 1999 it was 135.51 per gram; in 2003, 106.54 per gram).
    a. How are we doing on reaching the goals of Plan Colombia, broadly 
speaking?
    b. Why are we not seeing an increase in the price of cocaine, 
signaling lower supply of the drug on our streets? Are we reducing the 
flow of drugs to the United States as a result of Plan Colombia?
    Answer. The Andes produce most of the world's cocaine and 
increasing amounts of heroin. We are meeting Plan Colombia eradication 
and interdiction goals established for the Andean Counterdrug 
Initiative (ACI), which includes Plan Colombia. We have made 
significant strides against this drug supply in the past 3 years, 
especially in Colombia. Our efforts are hurting narcotraffickers in all 
aspects of their business. However, narcotraffickers have not relented 
in replanting illicit drug crops, processing illegal drugs and 
smuggling the drugs; so much work remains to be done under ACI.
    ACI reduces the quantity of illicit drugs produced in this 
hemisphere through ongoing eradication programs and vigorously 
combating the drug trafficking of those illicit drugs through law 
enforcement interdiction programs. In 2004 ACI programs in Colombia 
alone eradicated over 130,000 hectares of coca and seized over 175 
metric tons of cocaine. This is an unquestionable success.
    It is difficult for the State Department to make predictions or 
give definitive responses to questions about price and purity of street 
drugs in the United States. The U.S. street price of drugs is derived 
through the interaction of many factors, and the White House's Office 
of National Drug Control Policy is more directly engaged in the study 
of how price and purity are affected by ACI's successes.

    Question. In your testimony, you state that in Latin America we 
face the ``twin challenges of helping to bolster democratic ideals and 
institutions, and alleviating poverty.'' The hemisphere still has many 
fragile democracies. The FY 2006 foreign aid request anticipates yet 
another decline in development assistance to Latin America and the 
Caribbean. What justifies this decrease? Are we not undermining vital 
tools that can help advance democracy and alleviate poverty by such 
reductions in assistance?
    Answer. The Western Hemisphere is extremely critical to the United 
States. In as much, the specific reduction in the Development 
Assistance account of roughly $32 million is balanced by the request 
for $30 million from the newly expanded Transition Initiative Account 
for Haiti.

    Question. The request for the Andean Regional Initiative (ARI) has 
increased this year from $731 million to $734.5 million. At the same 
time, the allocations to several countries--for example, Bolivia, Peru, 
and Ecuador--have been cut. I note that these are also countries that 
are facing challenges to political stability, and in which there have 
been indications that coca cultivation could be on the rise. What is 
the justification for cutting funding to these countries, especially 
when the request for the ARI account has been increased?
    Answer. Every year INL programs are reviewed to ensure we devote 
the resources available to the programs where they will have the 
greatest impact.
    Our request for FY 2006 includes a new program to upgrade the 
helicopters performing critical counternarcotics missions in the 
region. This new initiative, the Critical Flight Safety Program, will 
fund modifications to refurbish and restore Vietnam-era aircraft. These 
upgrades are necessary for the continued safe execution of aviation 
operations. This $40,000,000 program necessitated reductions in the 
country accounts for all ACI-supported countries except Colombia.
    The reduction in funding to Bolivia, Peru, and Ecuador by no means 
indicates flagging counternarcotics performance or a failure to 
recognize the challenges those countries face. The Department is very 
concerned about Bolivia, and in particular, the 6 percent increase in 
coca cultivation in 2004. Bolivia will receive 4 upgraded helicopters 
from the Critical Flight Safety Program in FY 2006. In Peru, we are 
also concerned about an increase in new coca cultivation areas and the 
potential for opium poppy cultivation. Ecuador, however, is making 
increased use of its own resources and has made significant advances in 
securing its northern border with Colombia.
    Despite the challenges ACI countries face, each one is conducting 
important counternarcotics efforts and making noteworthy achievements 
to prevent illegal drugs from entering the U.S. Now is not the time to 
reduce ACI funding because the success of our efforts in the Andes 
could be lost if we do not maintain aggressive counterdrug programs and 
continue to encourage growers to enter legitimate markets. The increase 
in our request for ACI funding highlights the Department's recognition 
of the strategic importance of the ACI and the key role each of the ACI 
countries play in our counternarcotics efforts in the Western 
Hemisphere.

    Question. The aid request for El Salvador calls for a sharp 
increase in Foreign Military Financing, making it Latin America's 
second largest FMF recipient, with $13 million. Why is this substantial 
increase in military assistance proposed for a country that is at peace 
and that can afford few funds for military spending? What equipment or 
services would be provided, and what threat is the assistance meant to 
address?
    Answer. El Salvador has been a staunch supporter of our efforts in 
Iraq. Originally under the Spanish command along with the other Latin 
American countries who initially participated in Operation Iraqi 
Freedom, El Salvador was the only Latin American country to remain in 
Iraq after the Government of Spain pulled its troops out. The fourth 
contingent of Salvadoran troops arrived in Iraq in mid-February. This 
support has been extraordinary for a small country with modest economic 
resources.
    The requested FY 2006 funds would focus assistance on supporting El 
Salvador's interdiction efforts, including counternarcotics and border 
control programs, and enhancing its capabilities to participate in 
future coalition and multilateral operations, including peacekeeping. 
Specifically, the assistance would include spare parts and equipment 
for fixed and rotary wing aircraft, naval vessels and vehicles, as well 
as helicopter upgrades; vehicles; training; and command, control, and 
communications equipment for the army, air force and navy. Funds would 
also be used for individual soldier equipment, GPS systems, night 
vision goggles, and training.

    Question. A growing issue in Central America is the problem of 
youth gangs and related violence. Some governments in the region have 
taken particularly hard-line approaches and appear interested in having 
their militaries play a role in policing and anti-gang activities. 
Gangs are a law enforcement problem, not a military one, and they're 
also a problem that has social dimensions. What does the State 
Department intend to do to help Central American governments avoid 
militarizing their response to this problem, as well as to help them 
address both the social and the law enforcement aspects of the problem?
    Answer. The violent youth gangs currently operating in Central 
America have developed from a variety of factors--both sociological and 
historical. They are one aspect of a general rise in crime that has 
followed the end of armed conflicts in El Salvador and Guatemala and 
the restructuring of police forces and criminal justice systems 
throughout the region. Notwithstanding the significant efforts that 
many of these countries have made to reorient their police forces to 
the requirements of civilian and democratic policing, the development 
of these new police organizations has not kept up with the increasing 
demands placed on them. Gangs are one of these demands.
    The suggestion that militaries should be brought in to help control 
the gang problem reflects the institutional weaknesses of the police 
forces and the criminal justice systems. The antidote to this is to 
help the police forces of the region focus their resources and energies 
more effectively on gangs--to analyze their movements, identify their 
leaders and develop the evidence needed to gain convictions for the 
serious crimes that are being committed.
    In prior years, in El Salvador, we supported the formation and 
provided in-service training for anti-gang units in the Civilian 
National Police (PNC). Current projects in Guatemala and Panama are 
working with the police in specific communities to improve their 
capacity to target gang leaders more effectively. The Department is in 
the process of analyzing how these efforts may be extended to other 
countries in the region and how the police forces of Central America 
can be encouraged to take a more rigorous analytical approach to gangs 
within their jurisdiction and share that information across boundaries. 
This would include sharing of information to develop high priority 
cases with prosecutors in both Central America and the United States.
    The Department and USAID are also active on the social side of the 
gang problem. Some examples include: support for prevention and 
rehabilitation programs of the National Council of Public Security in 
El Salvador that are carried out in schools and include tattoo removal; 
support for NGO efforts in Guatemala to mitigate delinquency in three 
geographic areas, establish a ``Model Youth Home,'' and lobby for 
changes in national policy on crime prevention and economic 
development; and support through the Inter-American Coalition for the 
Prevention of Violence to develop crime prevention plans at the 
municipal level in six Central American countries.

    Question. Several years ago, the scope of the Enduring Friendship 
initiative was described in concept as including the waters of the 
Western Hemisphere and was based on a unanimous invocation of the 
mutual defense clause of the Rio Treaty after the 9/11 attacks. As 
recently as spring of 2004, CINCSOUTH Gen. Hill made similar statements 
in Congressional testimony. Enduring Friendship is presented in the FY 
2006 budget as a Caribbean regional initiative, involving only the 
Dominican Republic and Panama and ``more modest support'' for the 
Bahamas and Jamaica.
    a. What caused the scaling down of the initiative? Were nations 
unwilling to cooperate and if so, why?
    b. What is the allocation of funding to each of the 4 countries 
referenced in the CBJ as receiving funds under this initiative?
    c. What are the anticipated phases of growth of the Enduring 
Friendship program? Which, if any, nations and areas are planned for 
expansion beyond the Dominican Republic and the Caribbean?
    d. Does the initiative contemplate joint exercises or joint 
interdiction activities with U.S. forces or is it only to provide 
equipment and training? Will the current Status of Forces Agreements 
for port calls in the Caribbean be adequate or will the United States 
need to negotiate new Status of Forces Agreements in portions of the 
Caribbean?
    Answer. Recognizing the growth in worldwide requirements for 
Foreign Military Financing (FMF), the Department of State, after 
consulting with the Department of Defense and our partners in the 
region, decided to begin implementation of Enduring Friendship with a 
limited number of Caribbean basin partners where the project would have 
the most impact. There is enthusiastic support in the region for 
Enduring Friendship and the decision to limit the number of countries 
supported in FY 2006 should not be seen as an indicator that countries 
do not want to participate. Beginning with four key maritime allies--
the Dominican Republic, Panama, the Bahamas and Jamaica--the 
initiative's immediate objective is to allow coalition forces to 
maintain command of the Caribbean's critical choke points and to react 
to shifting threats in the Caribbean basin.
    Another important objective for Enduring Friendship in FY 2006 is 
to affirm the concept that regional and multilateral maritime 
interdiction cooperation will act as a force multiplier for the assets 
currently protecting the southern approaches to the United States. As 
this concept is tested, subsequent FMF requests could seek to expand 
the number of countries participating in Enduring Friendship. However, 
for the foreseeable future, we do not see participation in Enduring 
Friendship expanding beyond the southern approaches to the United 
States.
    As part of Enduring Friendship in FY 2006, we anticipate providing 
the Dominican Republic $2,500,000; Panama $1,750,000; the Bahamas 
$400,000; and Jamaica $350,000. After FY 2006 funds are appropriated, 
the Department would determine final allocation figures for the 
countries involved in Enduring Friendship and notify Congress through 
normal procedures. The equipment and training will better enable those 
countries to participate in joint exercises and operations with the 
United States and other forces in the Caribbean. Through Enduring 
Friendship, we can help these countries capitalize and expand upon 
existing architectures and procedures to meet the security challenges 
of the 21st century.
    The USG continues to pursue standing Status of Forces Agreements 
(SOFAs) with Caribbean countries where there is not an existing long-
term SOFA. Of the four countries for which we have requested FY 2006 
funding, we currently have a SOFA in place with the Dominican Republic 
to cover U.S. personnel participating in exercises. The USG is 
currently in the process of negotiating standing SOFAs with many 
additional WHA region countries. If we were unable to negotiate a 
standing SOFA with a country which we were going to engage as part of 
Enduring Friendship, we could seek to negotiate an exercise-specific 
SOFA with the country which would provide coverage to U.S. personnel 
for that exercise only.

    Question. You have been a strong advocate of the President's 
forward strategy of freedom around the world. Yet millions of refugees 
enjoy no such freedom even though the 1951 Convention Relating to the 
Status of Refugees provides for their rights to work, practice 
professions, run businesses, own property, and move freely. Of the 12 
million refugees in the world, more than 7 million have been confined 
to camps or segregated settlements or otherwise deprived of these 
Convention rights for 10 years or more. In fact, the United Nations 
High Commissioner for Refugees estimates that the average length of 
major refugee situations increased from 9 years in 1993 to 17 years in 
2003.
    As Secretary, what will you do to bring the forward strategy of 
freedom to ``warehoused'' refugees?
    Answer. The 1951 Convention Relating to the Status of Refugees lays 
out the obligations that parties, as hosting countries, have toward 
refugees. The United States expects all parties to the Convention to 
uphold these oblications.
    The best solution for refugees is to make it possible for them to 
return to their homes. Voluntary, safe return of refugees depends on 
successful efforts to address the political and humanitarian dimensions 
of the conflict situations that lead them to flee. We are encouraged by 
a number of peace agreements and other fundamental changes in the 
internal situation of nations that have led or will lead to refugee 
returns. For example:
    Since the fall of the Taliban in Afghanistan, more than three 
million refugees have returned from Pakistan and Iran and other 
countries. This continuing repatriation represents one of the largest 
refugee solutions in modern times.
    The Sudan Comprehensive Peace Agreement signed on January 9, 2005, 
commits the parties to ending more than two decades of civil war. We 
are working hard to ensure that over 500,000 refugees displaced by the 
decades of conflict will be able to return home to their communities in 
the South. We remain deeply concerned about the violence in Darfur, 
however, and are working diligently with the African Union, United 
Nations, European Union, and other allies to help end the insecurity 
there so that refugees from Darfur now living in Chad can voluntarily 
return home in safety.
    On August 18, 2003, leaders from the Liberian Government, rebel 
groups, political parties, and civil society signed an accord that laid 
the framework for constructing a two-year National Transitional 
Government of Liberia. An elected government will replace the 
transitional government this year. An estimated 100,000 of 350,000 
Liberian refugees have already returned.
    In Angola, the April 2002 Luena Memorandum of Understanding (MOU) 
formalized the de facto cease-fire that prevailed following the death 
of Jonas Savimbi in February 2002. As a result of the cease-fire and 
MOU, there have been over 300,000 returns to date, with the possibility 
of another 150,000 more.
    The peace process in Burundi, beginning with the signing of the 
Arusha Accords in August 2000, made 90,000 facilitated repatriations 
possible in 2004.
    Over 270,000 refugees have returned to Sierra Leone since 2001, 
thanks to the peace agreement signed in 2001, the presence of the 
United Nations Mission in Sierra Leone (UNAMSIL), and presidential and 
legislative elections held in Sierra Leone in May 2002.
    We will continue to work to secure political and humanitarian 
solutions, including safe and voluntary repatriation.
    The United States will remain a leader in international efforts to 
find durable solutions for the plight of refugees and will continue to 
urge countries to be generous in giving aid, providing protection, and 
allowing refugees to move and work freely while in exile. We will 
continue to push for local integration of refugees in host countries, 
including full recognition of their legal rights, whenever possible. We 
will also continue to advocate for and provide refugee resettlement 
through a robust U.S. refugee admissions program in appropriate cases. 
In the FY06 budget request, the President has made clear his commitment 
to significantly growing this program, in part, to address the plight 
of warehoused refugees.

    Question. Why has the Administration requested $11 million less 
than was provided in last year's appropriation for the U.S. 
contribution to UNICEF just as Secretary of Agriculture Veneman is 
about to assume the position of Executive Director of the organization?
    Answer. Our FY 2006 request ($114 million) for UNICEF from the 
International Organizations and Programs (IO&P) account represents a 5 
percent decrease from the FY 2005 Administration request level ($120 
million) as a result of overall budget constraints that affected the 
majority of voluntary contributions funded from that account. The 
request for UNICEF remains the largest in that account and in no way 
reflects diminished support for UNICEF or its critical mission. We 
anticipate that overall U.S. contributions to UNICEF will remain 
consistent with recent years.
    The United States looks forward to continuing our strong 
partnership with UNICEF under the leadership of Secretary Veneman. The 
United States is UNICEF's largest donor, and we strongly support its 
mission to promote the survival, education, health and protection of 
children worldwide. In addition to funding the State Department 
provides for UNICEF's core budget through the IO&P account, the United 
States supports UNICEF's work by providing funds (from other accounts 
and U.S. agencies) earmarked to support specific efforts or programs 
such as polio eradication and emergency response.

    Question. The Committee has just learned that in 2003, the 
Department spent nearly $700,000 on a series of events, including a 
concert, in Paris in connection with the rejoining of UNESCO. Many of 
the arrangements were handled by a public relations firm which also 
handled events for the President's first inaugural. The Inspector 
General, Office of Audits, questioned some $140,000 of the costs 
incurred by this public relations firm. I supported the re-joining of 
UNESCO, but given the limited budget for cultural affairs programming, 
this seems like an excessive expenditure of funds.
    a. Why was such an expenditure considered necessary and 
appropriate?
    b. How was the public relations firm chosen? Were competitive 
procedures used? If not, why not, and what was the legal basis of the 
decision not to use competitive procedures?
    c. What was the final cost of the event and how much of the costs 
questioned by the Inspector General were recovered from the public 
relations firm?
    Answer. The U.S. was rejoining UNESCO as a member after nineteen 
years. Several bureaus at the State Department--the Bureau of 
Educational and Cultural Affairs (ECA), the office for Public Diplomacy 
(R), the Bureau of International Organization Affairs (IO), and the 
U.S. Observer Mission for UNESCO worked with the NSC on events 
surrounding the re-entry of the U.S. Among events discussed was the 
sponsoring of an appropriate cultural event in the context of U.S. re-
entry to UNESCO. Because of ECA's long-standing expertise in cultural 
programming, the Department determined that ECA was the best manager 
for the event. However, ECA's program funds were not used to fund the 
event.
    The event showcasing American culture was attended by 1,000 guests, 
including delegates from the member countries, the members of the U.S. 
delegation in attendance at the general conference, and senior 
international staff of UNESCO.
    The final decision to have a cultural event showcasing American 
talent was not made until the summer of 2003, just 90 days before the 
opening of the UNESCO General Conference which was scheduled for 
September 29, 2003. Because of the short time period before the event 
there was not time for a formal competition. R asked ECA and State's 
contracts officer to review respective GSA Federal Supply Schedules, 
including their rates and capabilities. ECA knew that the vast majority 
of expenses would be spent for talent and talent-related reimbursable 
expenses, and for the venue, therefore, these expenses would be about 
the same for whatever vendor was selected. The firm chosen was on the 
GSA Schedule. The Department's contracts office awarded a firm-fixed 
price GSA Federal Supply Schedule Delivery Order with a fixed price 
line item for labor and a reimbursable line item for travel, site 
build-out and talent components.
    The final cost was $692,182.08 ($641,447.60 was paid out of R's 
D&CP funds, and $50,734.48 was paid out of retained USIA gift funds). 
After the event, the GCJPR firm came in with an additional bill of 
$95,123.96 above the contract, so the Assistant Secretary of the Bureau 
of Educational and Cultural Affairs requested that State's Office of 
Inspector General (OIG) conduct a review of the bills to determine 
whether the costs claimed by GCJPR were reasonable and allowable under 
the delivery order and under the Federal Acquisition Regulations.
    The audit report noted ``findings and questioned costs'' of 
$143,317.79 out of the bills. Upon receipt of the report, ECA reviewed 
the questioned costs and accepted $53,676.36 as having a basis to be 
questioned. The other costs, while mentioned in the report, were 
acceptable to the State Department's contracts office, such as the 
actual impact of the fluctuating exchange rate on the budget. The 
$53,676.36 in questioned costs were recovered by subtracting them from 
the additional bill which came in.

    Question. I share some of the administration's reservations about 
the Kyoto Protocol. However, I was very disappointed that at the recent 
meetings in Buenos Aires, the position of the United States was that it 
was premature to even begin discussions on the next stage of 
international negotiations, beyond Kyoto. That is not an acceptable 
position.
    By now, the United States must have some idea about the next steps 
beyond the first reporting period of Kyoto. Our country is the biggest 
historical contributor to the problem of climate change. The President 
acknowledges that there is a problem. We are signatories to the U.N.'s 
Framework Convention on Climate Change, which commits us to share in 
the effort to limit human impact on our planet's climate. If it is our 
position that the current international effort is not appropriate, we 
have a responsibility--as a party to the Framework Convention--to be 
part of the solution.
    If it is the Administration's position that the current Protocol 
fails to set adequate commitments for developing nations, then what is 
our strategy for fixing that? If it is the Administration's position 
that the commitments on developed countries are not economically 
sustainable, what do we have to offer as an alternative?
    I would appreciate a response that does not simply refer to the 
current array of ad hoc bilateral discussions and programs, but one 
that engages with the specific problems with the current Kyoto 
Protocol, our current and future obligations under the Framework 
Convention, and offers a path toward future U.S. engagement in an 
international solution.

    Question. If it is the Administration's position that the current 
Protocol fails to set adequate commitments for developing nations, then 
what is our strategy for fixing that? If it is the Administration's 
position that the commitments on developed countries are not 
economically sustainable, what do we have to offer as an alternative?
    Answer. The United States decided in 2001 not to ratify the Kyoto 
Protocol because it would harm the U.S. economy and it contains no 
commitments for developing countries. Having reached this decision, we 
are not seeking to ``fix'' that instrument or to offer an 
``alternative.'' The United States remains a party to the U.N. 
Framework Convention on Climate Change, meeting its commitments and 
participating actively in that forum. Through our multilateral 
initiatives (on nuclear energy, carbon capture and storage, hydrogen, 
methane recapture and fusion); our participation in other multilateral 
initiatives on energy efficiency and renewable energy; and in our 
bilateral climate change programs with developed and developing 
countries, we are promoting practical, focused efforts to bring down 
the cost of existing technologies and to develop new technologies that 
will help all countries meet the challenge of climate change.

    Question. When do you anticipate providing the Administration's 
treaty priority list for the 109th Congress?
    Answer. The Treaty Priority List has been prepared and is being 
cleared throughout the executive branch; we plan to submit it to the 
Committee shortly. The Department recognizes the importance of this 
list in assisting the Comittee to organize its work and is very 
appreciative of the cooperation it has received from the Committee in 
the treaty law area during the 108th Congress.

    Question. In rejoining the International Coffee Agreement, why did 
the United States treat it as an executive agreement and not submit it 
to the Senate for advice and consent?
    Answer. The 2001 International Coffee Agreement (the ``2001 ICA''), 
was treated as an executive agreement primarily because its limited 
scope does not include economic or market-regulatory provisions, such 
as export controls, quotas or the operation of a buffer stock, which 
require the enactment of legislation, unlike other, generally older, 
commodity agreements submitted for Senate advice and consent, including 
the 1983 International Coffee Agreement (the ``1983 ICA'').
    We had a similar situation with the 1984 International Sugar 
Agreement. The 1977 International Sugar Agreement, which expired at the 
end of 1984, was done as an advice and consent treaty. The 1977 
Agreement contained both export controls and the operation of a buffer 
stock. The 1984 International Sugar Agreement provided for the 
continued existence of the International Sugar Organization that 
administered the 1977 Agreement, but did not contain the economic or 
market-regulatory provisions included in the 1977 Agreement and 
expressly limited the function of the Organization to the 
administration of the new 1984 Agreement. As a result, the 1984 
International Sugar Agreement was treated as an executive agreement. 
Similarly, we have treated as executive agreements the International 
Tropical Timber Agreements of 1983 and 1987, the International Sugar 
Agreement of 1987, and the International Agreement on Jute and Jute 
Products of 1982 and 1989. None of these agreements have economic or 
market regulatory provisions.
    The 2001 ICA contained no economic or market-regulatory provisions 
and the International Coffee Organization (the ``ICO''), established by 
the agreement, is a commodity organization that principally facilitates 
research and development and market promotion.
    In sum, the limited scope and effect of the ICO's activities, the 
fact that no implementing legislation was needed to enact trade 
restrictions (as there had been for the 1983 ICA) and our past 
practice, led us to conclude that the 2001 ICA should be treated as an 
executive agreement.

    Question. Section 2242 of the Foreign Relations Authorization Act, 
Fiscal Years 1995 and 1999 provides that it ``shall be the policy of 
the United States not to expel, extradite, or otherwise effect the 
involuntary return of any person to a country in which there are 
substantial grounds for believing the person would be in danger of 
being subjected to torture, regardless of whether the person is 
physically present in the United States.'' The provision implements 
Article 3 of the Convention Against Torture. The President himself has 
underscored the importance of this commitment, by stating that 
``Torture is never acceptable, nor do we hand over people to countries 
to do torture.''
    a. What is the State Department's role in assuring compliance with 
this provision in cases where other U.S. government agencies have a 
person in their custody or control?
    b. By what means does the United States assess, in such cases, the 
``substantial grounds'' standard? Which agency of the U.S. government 
has the lead role in such assessments? What is the role of the 
Department of State?
    c. Which agency of the U.S. government has the lead role in seeking 
assurances from foreign governments that a person will not be subject 
to torture, if the person is delivered to the custody or control of a 
foreign government? What is the role of the Department of State?
    d. Since the enactment of Section 2242, have there been any 
instances in which the United States has not effected the involuntary 
return of a person because the United States concluded that there were 
such ``substantial grounds''? If so, how many such instances and what 
country or countries were involved that resulted in such a conclusion?
    Answer. Section 2242 of the Foreign Relations Authorization Act, 
Fiscal Years 1995 and 1999 accurately describes the policy of the 
United States, not to transfer a person to a country if it determines 
that it is more likely than not that the person will be tortured. In 
several different contexts, described below, the Department of State 
(Department) works with other U.S. government agencies to implement 
this policy.\1\
---------------------------------------------------------------------------
    \1\ Sec. 2242 and Article 3 of the Convention Against Torture and 
Other Cruel, Inhuman or Degrading Treatment or Punishment (CAT) refer 
to the return of individuals to another state where there are 
``substantial grounds for believing'' that the individual would be 
subject to torture. At the time it became a State Party to the CAT, the 
United States submitted a formal understanding ``[t]hat the United 
States understands the phrase, `where there are substantial grounds for 
believing that he would be in danger of being subjected to torture,' as 
used in Article 3 of the Convention, to mean `if it is more likely than 
not that he would be tortured.' U.S. statements of policy have followed 
the formulation provided in the U.S. understanding to the CAT.
---------------------------------------------------------------------------
                       immigration removal cases
    The Department plays a limited role in the implementation of this 
provision in the immigration removal context. In that context, 
regulations contained in 8 CFR 208.16-.18 permit aliens to raise claims 
under Article 3 of the (CAT) during the course of immigration removal 
proceedings. Accordingly, in the immigration removal context, 
immigration judges review such claims and determine whether it is more 
likely than not that the applicant would be tortured. See 8 CFR 208.16.
    In practice, the record demonstrates that individuals seeking 
protection under Article 3 of the CAT in many cases have obtained 
protection under these regulations. In the period from 1999 when the 
regulations implementing Article 3 of the CAT went into effect, through 
2003, the available data indicates the following statistics regarding 
grants of protection by immigration judges based on the Torture 
Convention:

  <bullet> 519 grants in FY 2000;
  <bullet> 554 grants in FY 2001;
  <bullet> 546 grants in FY 2002;
  <bullet> 486 grants in FY 2003; and
  <bullet> 532 grants in 2004.\2\
---------------------------------------------------------------------------
    \2\ The data were compiled by the Department of Justice's Executive 
Office of Immigration Review (EOIR) and represent decisions taken by 
the Immigration Courts. Accordingly, the data do not include the 
following: (1) decisions on cases appealed to the Board of Immigration 
Appeals; (2) cases in which individuals were granted protection and 
were removed to third countries where there are no substantial grounds 
for believing that the alien will be subjected to torture; (3) cases in 
which Article 3 protection was subsequently terminated, when 
substantial grounds no longer exist for believing the alien would be 
tortured if removed to a particular country; and (4) cases in which the 
U.S. removed an individual subject to assurances that he or she would 
not be tortured.

    These statistics demonstrate that immigration judges routinely 
issue decisions that prevent individuals from being involuntarily 
returned to a country where the judge has determined that the 
individual is more likely than not to be tortured in the country of 
removal. In exceptional cases where an arriving alien is believed to be 
inadmissible on terrorism-related grounds, Congress has authorized 
alternate removal procedures that do not require consideration or 
review by immigration judges. See INA Sec. 235(c). The implementing 
regulations provide that removal pursuant to section 235(c) of the Act 
shall not proceed ``under circumstances that violate . . . Article 3 of 
the Convention Against Torture.'' See 8 CFR 235(b)(4). Removal pursuant 
to INA Sec. 235(c) procedures is extremely rare.
    In a small number of appropriate cases, pursuant to 8 CFR 
Sec. 208.18(c), the U.S. may consider diplomatic assurances that the 
alien will not be tortured that were received from the country of 
proposed removal. In such removal cases, the Secretary of Homeland 
Security (and in cases arising prior to the enactment of the Homeland 
Security Act, the Attorney General), in consultation with the 
Department of State, would carefully assess such assurances to 
determine whether they are sufficiently reliable so as to allow the 
individual's removal consistent with Article 3 of the CAT. The United 
States reserves the use of diplomatic assurances for a very small 
number of the most sensitive of cases where it believes it can 
reasonably rely on such assurances that the individual would not be 
tortured. In no case would the United States return an individual where 
it determined that it was more likely than not that the person would be 
tortured.
                           extradition cases
    Department of State regulations set forth at 22 CFR Part 95 
describe the process through which the Department evaluates Article 3 
claims in the extradition context. Pursuant to these regulations, 
whenever allegations relating to torture are raised by the fugitive or 
other interested parties, appropriate policy and legal offices within 
the Department review and analyze information relevant to a particular 
case to determine whether it is ``more likely than not'' that an 
individual will be tortured upon extradition to the requesting State. 
Information provided by the relevant regional bureau, country desk, or 
U.S. embassy also plays an important role in the evaluation of torture 
claims. Based on the analysis of relevant information, the Secretary of 
State may decide to surrender the fugitive to the requesting State, 
deny surrender of the fugitive, or condition the extradition on the 
requesting State's provision of assurances, deemed to be credible by 
the Secretary of State.
    Since promulgation of the Department of State's regulations, 
torture claims have been raised in less than 1 percent of extradition 
cases and surrender warrants have been issued in all cases. In some of 
those cases, it was determined that the evidence submitted by the 
claimants provided no basis to conclude that it would be more likely 
than not that the claimants would be tortured. In several cases, 
assurances, which were deemed adequate, were received from the 
requesting country. As is true in the removal context, the United 
States reserves the use of diplomatic assurances for a very small 
number of the most sensitive of cases where it believes it can 
reasonably rely on such assurances that the individual would not be 
tortured.
           transfers of individuals from guantanamo bay, cuba
    The Department of State also plays a role in the assessment of 
nonrefoulement concerns relating to individuals detained by the U.S. 
Armed Forces at the U.S. Naval Base in Guantanamo Bay, Cuba. As 
described recently in an affidavit by Ambassador-at-Large for War 
Crimes Pierre-Richard Prosper filed in various habeas cases, notably 
including Abdah, et al. v. Bush, et al., CA No. 04-254 (HHK) USDC DDC 
(March 8, 2005), the Department of Defense consults with appropriate 
United States Government agencies, including the Department of State, 
before determining whether to transfer particular individuals. The 
United States generally seeks to return the detainee to his or her 
country of nationality. In some cases, however, transfers cannot easily 
be arranged. For example, the United States has made clear in the 
context of the war against al-Qaida and the Taliban that it does not 
transfer individuals to other countries where the U.S. believes it is 
more likely than not that they will be tortured. Of particular concern 
to the Department of State in making recommendations on transfers is 
the question of whether the foreign government will treat the detainee 
humanely, in a manner consistent with its international obligations, 
including the Convention Against Torture.
    The Department of State generally has responsibility to communicate 
on these matters as between the U.S. and foreign governments. The 
Department of State receives requests from foreign governments for the 
transfer of detainees and forwards such requests to the Department of 
Defense for coordination with appropriate Departments and agencies of 
the United States Government. Once the Department of Defense has 
approved a transfer from Guantanamo Bay and requests the assistance of 
the Department of State, the Department of State initiates transfer 
discussions with the foreign government concerned and pursues 
assurances considered necessary and appropriate for the particular 
country, including in any cases in which continued detention is 
foreseen, assurances of humane treatment and treatment in accordance 
with the international obligations of the country concerned, including 
under the Convention Against Torture.
    Decisions with respect to Guantanamo detainees are made on a case-
by-case basis, taking into account the particular circumstances of the 
transfer, the country, the individual concerned, and any concerns 
regarding torture that may arise. If a case were to arise in which the 
assurances obtained from the receiving government are not sufficient 
when balanced against treatment concerns, the United States would not 
transfer a detainee from Guantanamo to the control of that government 
unless the concerns were satisfactorily resolved. Circumstances have 
arisen in the past where the Department of Defense elected not to 
transfer detainees to their country of origin because of torture 
concerns.
    In sum, in the aforementioned contexts the Department of State 
plays a role in the evaluation of torture concerns to assure compliance 
with the policy set forth in Sec. 2242(a) of the Foreign Relations 
Authorization Act, Fiscal Years 1995 and 1999.

                                  <all>

</pre></body></html>
